<html>
<title> - DECLINE OF THE WEST COAST GROUNDFISH FISHERY</title>
<body><pre>[Senate Hearing 107-992]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-992

              DECLINE OF THE WEST COAST GROUNDFISH FISHERY

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 16, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



87-847              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    BILL FRIST, Tennessee
MAX CLELAND, Georgia                 SAM BROWNBACK, Kansas
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 16, 2001.................................     1
Statement of Senator Wyden.......................................     1

                               Witnesses

Bodnar, Steve, Executive Director, Coos Bay Trawlers' 
  Association, Inc...............................................    58
    Prepared statement...........................................    62
Brown, Ralph, Groundfish Trawler and Pacific Council Member......    67
    Prepared statement...........................................    68
Coenen, Neal, Watershed Advisor to Governor Kitzhaber............    11
    Prepared statement...........................................    13
Darm, Donna, Acting Regional Administrator, Northwest Region, 
  National Marine Fisheries Service..............................     6
    Prepared statement...........................................     9
Eaton, Bob, Executive Director, Pacific Marine Conservation 
  Council........................................................    33
    Prepared statement...........................................    35
Eder, Michelle Longo, Sablefish Fisherman's Wife, Vice President 
  of Newport Fishermen's Wives, and Member of the Women's 
  Coalition for Pacific Fisheries................................    63
    Prepared statement...........................................    66
Fujita, Rodney M., Ph.D., Environmental Defense..................    37
    Prepared statement...........................................    39
Goblirsch, Ginny, Marine Extension Agent with Oregon Sea Grant, 
  President of Newport Fishermen's Wives, and Board Member of the 
  Women's Coalition for Pacific Fisheries........................    43
    Prepared statement...........................................    46
Golden, Jim, Acting Director, Marine Resources Program, Oregon 
  Department of Fish and Wildlife................................   102
    Submitted material...........................................   103
Griffith, John, Commissioner, Coos County Board of Commissioners.    92
    Prepared statement...........................................    93
Hooley, Hon. Darlene, U.S. Representative from Oregon............     5
Husing, Onno, Director, Oregon Coastal Zone Management 
  Association....................................................    94
    Prepared statement...........................................    95
Leach, Donna, Homemaker and Fisherman's Wife.....................    79
Leach, Tom, Commercial Fisherman.................................    79
    Submitted material...........................................    81
Leipzig, Peter, Executive Director, Fishermen's Marketing 
  Association....................................................   111
Lone, Jim, Chairman, Pacific Fishery Management Council..........    14
    Prepared statement...........................................    17
Moore, Rod, Executive Director, West Coast Seafood Processors 
  Association....................................................    70
    Prepared statement...........................................    72
Murray, Hon. Patty, U.S. Senator from Washington, prepared 
  statement......................................................     3
Robinson, William, Assistant Regional Administrator, Sustainable 
  Fisheries, Northwest Region, National Marine Fisheries Service, 
  Accompanying Donna Darm........................................    26
Smith, Hon. Gordon H., U.S. Senator from Oregon, prepared 
  statement......................................................     4
Thompson, Terry..................................................   110
Varanasi, Dr. Usha, Science Director, Northwest Fisheries Science 
  Center, National Marine Fisheries Service......................    23

                                Appendix

Eder, Michele Longo, Argos, Inc., letter dated February 14, 2001, 
  to Hon. Ernest F. Hollings.....................................   113

 
              DECLINE OF THE WEST COAST GROUNDFISH FISHERY

                              ----------                              


                       TUESDAY, JANUARY 16, 2001

                                       U.S. Senate,
         Committee on Commerce, Science, and Transporation,
                                                       Newport, OR.
    The Committee met, pursuant to notice, at 1 p.m. at the 
Hatfield Marine Science Center, 2030 SE Marine Science Drive, 
Hon. Ron Wyden, presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. I want to welcome all of you today to this 
hearing of the U.S. Senate Committee on Commerce, Science, and 
Transportation.
    Last year, when the Senate Commerce Committee approved a 
buy-back bill for the southeast swordfish disaster, I 
conditioned my support on the Committee helping communities in 
Oregon with the groundfish disaster that this and so many of 
our coastal communities are experiencing. Chairmen McCain and 
Hollings promised to support my efforts, and today's hearing 
delivers on that promise.
    I'm very pleased, also, that Congresswoman Hooley is here 
to join me. She is the Congresswoman from this area and has 
been a terrific advocate for coastal communities.
    I'll have a short statement, and then I want to read a 
letter from my colleague, Senator Smith. Many Oregonians may 
not know it, but we have some very good news in that Senator 
Smith will be joining the Commerce Committee later this year. 
It is very, very helpful to have him on the Committee. He 
wanted to be here today, but his schedule simply wouldn't allow 
him.
    As all of you know, the health and well-being of Oregon's 
coastal communities are to a great extent shaped by our having 
a sustainable supply of groundfish. Generating this supply is 
obviously easier said than done. But I believe that the 
policies of the National Marine Fisheries Service are failing 
the groundfish industry on the Oregon Coast. The agency's 
failure to put in place common sense policies for groundfish 
have been harmful to both the economic and the environmental 
well-being of Oregon.
    Oregon's fishing families want to fish. And, they want to 
do so in a way that is sensitive to the long-term health of the 
resource. They have families to raise and need to earn money to 
do so. And, they are willing to fish in a way that focuses on 
good stewardship of the resource. The fishing families that I 
talked to on the Oregon Coast are more than willing to support 
strong conservation policies. But, they are right to expect 
that their government, the National Marine Fisheries Service, 
specifically, will pursue policies that keep them from landing 
on the bankruptcy roles.
    Now is an ideal time for the National Marine Fisheries 
Service to change course and to be a smarter, more efficient 
partner in working with Oregon communities on the groundfish 
issue. There is a new Administrator at the agency who, with a 
fresh start, can pursue more sensible and creative policies 
that help the families that are represented in the audience 
today.
    And, I'd like to suggest four areas where the 
Administration can get going and going quickly. First, in June, 
the U.S. Congress passed a $5 million emergency appropriation 
bill, because the West Coast fisheries were in a disaster 
situation. As far as I can tell, not a dime--not a dime--has 
actually made it out on the ground to the community. This is 
just totally unacceptable. And, I expect to hear from the 
National Marine Fisheries Service this afternoon how they are 
going to turn this situation around. You can't have a disaster 
identified in the middle of last year and still not have the 
money out on the ground today.
    Second, there needs to be a significant change in which the 
agency gathers the research and the scientific data that 
formulates their policies. It is simply not being done with the 
focus on good science that is necessary today. For example, 
with respect to groundfish, data is only collected once every 3 
years. It misses the near shore areas, and it doesn't utilize 
fishing families. We expect to see changes at the National 
Marine Fisheries Service with respect to the way they gathered 
this data.
    Third, I believe that the agency has been dragging its feet 
on implementing a policy to deal with overages. All of you know 
we have seen too often the disgraceful picture of thousands of 
fish being wasted, brought on to shore and being wasted, even 
though Oregon now has the dubious honor of leading the country 
in hunger. This is absolutely unacceptable. In 1998, the 
National Marine Fisheries Service assured me that they were 
going to have a new policy so as to not waste so much of this 
precious resource. It has not been implemented today, and I 
expect to hear from the National Marine Fisheries Service how 
they are going to go about doing it.
    Finally, I want to see the National Marine Fisheries 
Service get more of its people out of Washington D.C. and 
Seattle where they sit behind computers, and out on the ground 
helping the communities. As far as we can tell, Oregon coastal 
communities have no one to consult with and get feedback about 
progress, or the lack thereof. The National Marine Fisheries 
Service had a significant increase in their budget in the last 
year, and I want to hear today from the agency how they will 
get some of their key staffers out of Washington D.C. and the 
Seattle office and on the ground where they can actually work 
to monitor the progress on projects that meet this 
sustainability agenda.
    So, there is much to do. What we're going to do, from the 
standpoint of the procedures this morning, after Congresswoman 
Hooley has spoken, and I've read Senator Smith's letter, our 
witnesses will take about 5 minutes each for questions. Then, 
we're going to have an open microphone, at the close of the 
hearing, for those who aren't testifying. For those of you who 
would like to speak, if you would, sign up with the staff. 
They'll be in the back, Mary Gautreaux and other staff members.
    The hearing record also is going to be open for 10 days, if 
anybody would like to submit written testimony. We'll have 
opportunities for you to do that, as well. If you're not on the 
witness list, and you want to submit something in writing, we'd 
like you to visit with Ms. Gautreaux in the back quickly.
    Also, Senator Murray wanted to be here, because Washington 
State has been very hard hit. However, she submitted a 
statement for the record instead.
    [The prepared statement of Senator Murray follows:]

 Prepared Statement of Hon. Patty Murray, U.S. Senator from Washington

    First I would like to thank Senator Ron Wyden and the Commerce 
Committee for holding today's hearing on the West Coast Groundfish 
crisis. I hope the hearing will help generate new ideas and solutions 
to address the declines in this fishery. As you know, this crisis has 
had serious negative impacts on communities in Washington, Oregon and 
California. I greatly appreciate the leadership the Senator from Oregon 
has shown by calling for and hosting today's field hearing.
    Last year we made some progress in addressing this crisis. I am 
pleased the fiscal year 2001 budget includes $2.225 million for West 
Coast observers. Working together with Senators Wyden, Gordon Smith, 
Boxer and Feinstein, we secured $5 million in emergency funding to 
assist families and communities dependent on the groundfish fishery. In 
addition, the fiscal year 2001 omnibus spending bill includes an 
exception for fixed-gear sablefish to the moratorium on individual 
fishing quotas. This will allow safer, more efficient fishing for this 
sector of the fishery.
    At the same time, I am concerned these steps, while important, are 
not enough to address the crisis at hand. Many of the small, coastal 
communities with businesses and families dependent on the groundfish 
fishery have already been hard hit by downturns in other natural 
resource dependent industries, such as timber and the salmon fishery. I 
look forward to reviewing the testimony provided at today's hearing. As 
the 107th Congress progresses, I will maintain my high level of 
interest in this issue and my support for solutions to provide relief. 
I am also interested in longer term solutions on how to avoid such 
crises in the future. Thank you.

    Now before we hear from Congresswoman Hooley, let me read 
you the very helpful letter and testimony sent by Senator 
Smith.
    ``Dear Senator Wyden: Thank you for holding a field hearing 
on the West Coast groundfish disaster. Although I'm unable to 
be in Newport on the day of the hearing due to prior scheduling 
commitments, I hope your hearing will bring more attention to 
the needs of this important fishery.
    Over the last 4 years, you and I have worked cooperatively 
in the U.S. Senate to secure more federal resources in an 
effort to provide for better long-term management of the West 
Coast groundfish fishery. As you know, this has not been an 
easy task. Too often, the federal obligations related to 
Oregons's commercial fisheries have been overshadowed by other 
national resources priorities. It is unfortunate that it has 
taken a federal fishery disaster declaration to begin to bring 
the needed attention and resources to the West Coast groundfish 
problem.
    Please submit my attached written statement on the subject 
for the official Committee record. Once again, thank you for 
securing this important field hearing. I look forward to 
joining you on the Senate Commerce Committee in the new 
Congress and renewing our efforts to assist Oregon Coast's 
coastal communities while protecting and enhancing our ocean 
resources for future generations.''
    Without objection, we'll put Senator Smith's statement into 
the record in its entirety.
    [The prepared statement of Senator Smith follows:]

  Prepared Statement of Hon. Gordon H. Smith, U.S. Senator from Oregon

    Thank you, Mr. Chairman, for holding today's field hearing on the 
status of one of Oregon's most important fisheries, West Coast 
groundfish. Like you, I am deeply concerned about the economic impacts 
on Oregon's fishing-dependent towns caused by recent harvest 
restrictions. As a newly appointed member of the Commerce Committee, I 
hope to continue working closely with you to secure needed federal 
assistance and to restore stability to Oregon's commercial fishing 
industry.
    Today we are here to learn more about the causes and effects of the 
precipitous decline of the West Coast groundfish fishery. Experts in 
the field can point to many factors that have led to an apparent 
decline of certain species in the groundfish complex--from oceanic 
temperature changes to overfishing in certain instances. While natural 
and human activities have likely both played a part, it is the federal 
government alone that must bear primary responsibility for the current 
disaster. Since the Americanization years of the 1970s, the management 
of our nation's fisheries has been entrusted to federal agencies. 
Regrettably, in too many cases, past administrations and congresses 
have left fishery managers under the Department of Commerce without the 
necessary resources to gather accurate data on the fish populations and 
life cycles. It is unfortunate that it takes a catastrophe, like the 
one we now have in the groundfish fishery, to bring needed federal 
attention to the situation.
    In my estimation, a long-term solution to the problem will require 
an increased federal commitment to groundfish stock assessments. NOAA 
Fisheries' models would be much more credible if they were backed up by 
annual, rather than triennial, groundfish surveys. Sound management 
decisions cannot be made in a vacuum of accurate data. The Department 
of Commerce should budget--and the Congress should appropriate--
substantial increases for data collection so that management decisions 
are based on credible science. Whenever possible, NOAA should work 
cooperatively with industry to gather information by chartering 
industry vessels. A carefully implemented federal observer program 
should add much to our knowledge as well.
    In the intermediate term, we clearly need to reduce overcapacity in 
the groundfish fleet. While securing federal funds for vessel and 
permit buyback problems is an uphill battle in the Congress, it is not 
an insurmountable challenge--provided there is broad agreement in the 
industry over how to implement a buyback program. I hope that the 
fishing industry will be able to overcome differences in gear type and 
vessel size to reach a consensus buyback plan that would result in the 
orderly exit of excess capacity out of the fleet.
    In the immediate term, we must continue to address the community 
assistance needs that have developed as result of the loss of revenue 
from the groundfish resource. While I was pleased that we were able to 
secure $5 million in emergency funds last year to help meet the urgent 
socioeconomic needs of fishing-dependent towns, I know it was just a 
beginning. In the new Congress, we must renew our coalition of West 
Coast Senators to secure another installment of community assistance 
funding. I look forward to working with state agencies and the OSU 
extension service to continue their vital assistance services to 
coastal communities.
    Finally, there are important policy areas, such as tax reform and 
IFQ programs, I believe should be carefully considered by the new 
Congress as well.
    Clearly, this is not a problem that developed overnight--nor is it 
one that can be remedied overnight. There is much work to be done on 
the part of all us--the Congress, NOAA, industry representatives, 
environmentalists, and other stakeholders, to respond to this crisis 
before it is too late. Not only is it our challenge to enhance and 
protect the groundfish resource for future generations, we must also 
ensure that a viable fishing industry--with skilled fishermen, vessel 
suppliers, and seafood processors--does not disappear from Oregon's 
coastal communities in the process.
    With this in mind, I look forward to reviewing the testimony of all 
of today's witnesses. I hope this field hearing will add to our 
understanding of the problem and ultimately lead to the resolution of 
this federal fishery failure.
    Thank you Mr. Chairman.

    I'd just like to note for the record that it will be very 
helpful for the people of Oregon to have Senator Smith's 
influential voice on this key Committee. I'm very pleased that 
he'll be joining the Committee.
    Senator Wyden. So, let us turn now to Congresswoman Hooley 
who, as I said earlier, again and again goes to bat for 
Oregonians on the Coast.
    And Congresswoman, we'll have whatever statement now that 
you choose to make.

               STATEMENT OF HON. DARLENE HOOLEY, 
                U.S. REPRESENTATIVE FROM OREGON

    Congresswoman Hooley. First of all, thank you, Senator 
Wyden, for having this hearing. And you've talked about the 
three issues that we've talked a lot about in this community; 
and that is, you know, what do we do in research, how do we get 
better jobs, how do we get help to the community, and what to 
we do for overages.
    Thank you so much for coming out today. And again, this 
situation is an emergency situation here. It involves all the 
fishing fleet on the Oregon Coast.
    Over the last few years, as all of you know, there have 
been significant changes in the federal government policy on 
groundfish harvest. As you know, these changes have brought on 
economic difficulties for families, for communities, and 
ultimately for our state. The situation is serious; and the 
problems we face, though, are not impossible to solve. And 
that's why we're here today.
    My colleague, Senator Wyden, and I have been working to 
improve the economic situation of the fishing industry in 
Oregon, but we have a long ways to go. I'd like to thank 
Senator Wyden for the leadership he's shown on this issue. 
Field hearings of a U.S. Senate Committee, such as this, are 
rare. And it is a testament to his dedication that he has 
convinced his colleagues that this issue is so important that 
it requires a special hearing.
    This hearing is a real opportunity that we must seize on 
and really look at how do we work together, how do we come 
together. And this is not a time--although it's real easy to 
point fingers, I think it's a time that we have to look at how 
do we come together on this issue and cooperatively get this 
job done.
    It is my hope that when we leave this hearing today we will 
have a better idea of what the solutions are and how to solve 
them. But because this is an official hearing of the U.S. 
Senate, the words you say will be carried back to the Chamber 
to effect deliberation on this issue. Your voices will be 
heard, not just in this room, but in the halls of the U.S. 
Congress.
    I pledge to do my best to ensure that all of my colleagues 
in the House of Representatives come to understand our problems 
here and the action that needs to be taken in this 107th 
Congress.
    Thank you.
    Senator Wyden. Thank you, Congresswoman Hooley.
    I know your schedule is tight, and we welcome you to stay 
for as long as you can.
    Let's have our first panel come forward, Donna Darm, 
National Marine Fisheries Service; Neal Coenen, Office of 
Governor Kitzhaber; and Jim Lone, Chairman of the Pacific 
Fishery Management Council.
    Congresswoman Hooley. While they're coming, I'd like to add 
another word. I've spent a lot of time at the Coast. I was here 
a couple times in November, December, and now in January. Thank 
you, once again, for the wonderful weather you've brought. 
We're going to get a lot of people moving here, if they come 
down and see this kind of weather.
    Senator Wyden. We welcome all of you.
    Ms. Darm, why don't you begin. As you could--you could 
tell, I obviously have strong feelings about the policies of 
the National Marine Fisheries Service. And I want to just note, 
before you begin, that because you are new that the concerns I 
have were not raised while you were the sheriff on the job. 
That's one of the reasons why I think now is an ideal time for 
a shake-up and an effort to make some changes.
    We welcome your testimony, and please proceed.

           STATEMENT OF DONNA DARM, ACTING REGIONAL 
  ADMINISTRATOR, NORTHWEST REGION, NATIONAL MARINE FISHERIES 
                            SERVICE

    Ms. Darm. Thank you. Thank you very much, Senator. And I 
appreciate you working with my schedule to make sure that I 
could be here today.
    My name is Donna Darm. I'm the Acting Regional 
Administrator for the Northwest Region of the National Marine 
Fisheries Service. And I do have a brief prepared statement 
that I'd like to read, and then I'd be happy to answer any 
questions.
    The Pacific Coast groundfish fishery is an important 
commercial and recreational fishery. Until recent years, the 
over 80 species that are managed under the Fishery Management 
Plan have been available to harvesters for most of the year and 
filled market gaps by providing flow of product, when West 
Coast fisheries were closed.
    The groundfish fishery presently is in crisis. It is over 
capitalized, and numerous groundfish stocks have been depleted 
by a combination of natural and human factors, pushing 
allowable catches down to a level that cannot sustain the 
present fleet. In addition, under the Magnuson-Stevens Act, 
there must be more conservative management for the seven 
species that have been declared overfished. The result is even 
more conservative management for fisheries that target other 
healthier stocks but incidentally encounter the overfished 
species. Solutions to this crisis will require a long-term 
commitment to rebuilding stocks through improving both our 
research and our management efforts.
    Annual commercial landings of all non-whiting groundfish 
peaked at 112,000 metric tons in 1982. Since 1989, those 
landings have decreased every year, with the sharpest decrease 
being in the most recent years. Since the 1990's, we've seen 
the landings fall by another 50 percent from approximately 
60,000 metric tons to 31,000 tons in 2000. Revenues have also 
fallen from about $80 million to $42 million. And for 2001, 
revenues will likely continue to fall, perhaps as low as $29 
million, as the industry faces even more complex regulations 
and quotas designed to protect those overfished species.
    Nearly a year ago today, the Secretary of Commerce declared 
the groundfish fishery a commercial fishery failure, due to a 
fishery resource disaster. Recreational fishermen, their 
communities, and support industries have also suffered from 
this disaster.
    The groundfish crisis highlights several fishery management 
concerns. While the initial declines may have been caused by an 
ocean regime shift that lowered productivity, these declines 
were not detected for some time, and harvest rate policies were 
based on assumptions of higher productivity. Limited scientific 
understanding and inadequate resources for research and 
monitoring hampered the agency's ability to provide timely 
forecasts of the need to scale back on allowable catches. Each 
year, harvest rates have been based on prevailing scientific 
information, stock assessment models, fishery management 
program goals, and Magnuson-Stevens Act requirements. At the 
time, the harvest rates that were set were deemed reasonable 
and responsible, given accepted scientific understanding around 
the world and the productivity estimates used in other national 
and international fisheries.
    We don't know for certain why the West Coast groundfish 
stocks appear to have lower productivity than similar stocks 
elsewhere, nor do we understand completely how the health of 
groundfish populations is linked to changes in the environment. 
We do know that there has been a decline in the basic 
productivity of the California current, since the late 1970's, 
that has correlated with a major ocean regime shift and an 
abnormally high number of El Nino events. It's likely that 
these climate changes have contributed to the decline in 
recruitment of many groundfish species, particularly rockfish, 
which may have a life span of as long as fifty to a hundred 
years.
    In spite of the fact that Pacific Coast groundfish harvest 
rates have been reduced through state and federal management 
efforts, the situation remains serious today. New stock 
assessments on previously unassessed groundfish species may 
result in the need for further harvest restrictions. Our 
challenge will be to protect and rebuild the most seriously 
depleted stocks, while minimizing adverse economic and social 
effects on fishing communities.
    To respond to the crisis, we are: (1) increasing the 
collection of scientific data and research; (2) improving 
management of the fishery by reducing overcapacity and by 
protecting sensitive habitat from the effects of fishing; and 
(3) providing assistance to fishery participants and affected 
communities through financial programs.
    In fiscal year 2001, the Northwest Science Center 
groundfish budget was doubled to about $4.25 million. This 
increase will provide funding for the whiting pre-recruit and 
slope trawl surveys that have been conducted for the past 2 
years with temporary funds. In addition, funds will be used for 
the transition of many West Coast groundfish survey and 
assessment responsibilities from the Alaska Science Center to 
the Northwest Science Center and to increase the frequency of 
surveys from every 3 years to annual surveys. We're also 
assessing whether more frequent and precise assessments are 
needed to rebuild stocks and achieve a sustainable fishery.
    The NMFS 2001 budget also includes just over $2 million for 
a West Coast groundfish observer program. An observer--an 
observer program will allow us to start addressing the major 
shortcomings in groundfish management, lack of information on 
bycatch, and total mortality in the fishery.
    Senator, I see that the red light is flashing so----
    Senator Wyden. Why don't you go ahead and finish, Ms. Darm.
    Ms. Darm. Okay. The Council recently adopted a Strategic 
Plan and concluded that the highest priority for achieving an 
economically viable groundfish fishery at reduced harvest 
levels is to reduce harvesting capacity to a point where it 
matches the productivity of the groundfish stocks. The Plan 
recommends at least a 50-percent reduction in the number of 
vessels in all sectors of the groundfish fleet. In November, 
the Council took a step in that direction by recommending a 
permit stacking program for the limited-entry, fixed-gear 
fishery.
    We support the Council's efforts to reduce capacity and 
will work with the Council to find creative ways to do this, 
while minimizing the adverse effects on fishing communities. We 
also support the Council's process for considering marine 
protected areas. Protecting key habitat area further--furthers 
the immediate goal of rebuilding overfished groundfish stocks 
and provides longer-term benefits by maintaining fully 
functioning ecosystems that contribute to the stability of 
groundfish populations. Because the designation of such 
reserves may be controversial, development should be initiated 
by the Council with ample opportunity for public input.
    In response to the disaster in the West Coast groundfish 
fishery, Congress appropriated $5 million to the affected 
industry and communities. These funds may be used for assessing 
the economic and social effects of the commercial fishery 
failure, restoring the fishery, and preventing a similar 
failure in the future, as well as assisting fishing 
communities.
    The National Marine Fisheries Service has completed a 
spending plan, in consultation with the Governors, for that $5 
million. It's in review within the Department of Commerce. And 
the next step will be to receive grant requests from the 
states. The three states have proposed to use these funds for 
industry outreach, job retraining, fishing community 
diversification, and cooperative industry research.
    In conclusion, Mr. Senator, I recognize that serious 
problems remain, but I am cautiously optimistic about the 
future of the groundfish fishery. Our first priority must be to 
continue to protect overfished stocks, increase our scientific 
understanding, and support efforts to remain financially 
solvent during the rebuilding process.
    We now know more about current climate effects on 
groundfish stocks and recognize that harvest levels may remain 
low for a long time, before stocks are fully rebuilt. I'm 
confident that we can work collaboratively with the Council, 
with the States, with Coastal Tribes, and with the public to 
manage the changes in a way that takes into account the needs 
of fishery participants and communities.
    Thank you for the opportunity to address this today.
    [The prepared statement of Ms. Darm follows:]

   Prepared Statement of Donna Darm, Acting Regional Administrator, 
          Northwest Region, National Marine Fisheries Service

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to testify today regarding management of the Pacific Coast 
groundfish fishery. I am Donna Darm, Acting Regional Administrator for 
the Northwest Region, National Marine Fisheries Service (NMFS).
    The Pacific Coast groundfish fishery is an important commercial and 
recreational fishery. The flow of product throughout the year from the 
Pacific Coast groundfish fishery keeps many processors and fishery 
participants in business throughout the year. The over 80 species 
managed under the Pacific Coast Groundfish Fishery Management Plan 
(FMP), until recent years, have been available to harvesters most of 
the year and have filled the gaps in the market by providing product 
flow when product from other West Coast fisheries was not available.
    The Pacific Coast groundfish fishery is in a crisis. The fishery is 
overcapitalized and numerous groundfish stocks have been depleted by a 
combination of natural and human factors, pushing their allowable 
catches down to levels that cannot economically sustain the present 
fleet structure. NMFS has mounting concerns that fisheries and other 
human activities are exerting significant pressures on the marine 
ecosystem. In addition, the Magnuson-Stevens Fishery Conservation and 
Management Act (Magnuson-Stevens Act) requires more conservative 
management for the seven species that have been declared overfished. 
This has resulted in additional restrictions not only for fisheries on 
the overfished stocks, but also for fisheries that target on other, 
healthier stocks that incidentally encounter overfished species. 
Finally, natural climatic cycles in the Pacific Coast ecosystem in 
which Pacific Coast groundfish live are affecting groundfish 
productivity and complicating our ability to measure human impacts on 
the fish populations. Solutions to this crisis will require a long-term 
commitment to rebuilding the fishery through improving both research 
and management.
    From 1980 through 1999, annual commercial landings of all non-
whiting groundfish peaked at 112,000 metric tons (mt) in 1982, but from 
1989 on, landings have decreased every year with the sharpest decreases 
being the most recent. Since the mid-1990's we have seen landings fall 
by 50 percent from approximately 60,000 mt to 31,000 tons in 2000. Ex-
vessel revenues have similarly declined from over $80 million to $42 
million. Projections for 2001 indicate that revenues will continue to 
fall, perhaps to as low as $29 million, depending on the ability of the 
industry to fish under a complicated set of regulations and quotas 
designed to protect overfished species. To put this figure in 
perspective, we estimate that at least $10 million in revenue is 
necessary to keep 55 trawl vessels in business. As a result of these 
trends, nearly one year ago today, the Secretary of Commerce 
(Secretary) declared a commercial fishery failure due to a fishery 
resource disaster under Section 312(a) of the Magnuson-Stevens Act. The 
declaration of a commercial fishery disaster cleared the way for 
Congress to appropriate $5.0 million in disaster assistance funds for 
those commercial groundfish fishery participants whose fishing 
activities and incomes have suffered. Nor has the commercial fishery 
been the only sector to suffer from this disaster. Recreational 
fishermen, their communities and support industries have been severely 
affected as well.
    The groundfish crisis has highlighted a number of fishery 
management concerns. While initial declines may have been caused by an 
ocean regime shift that lowered productivity, these declines were not 
detected for some time and harvest rate policies were based on 
assumptions of higher levels of productivity. Limited scientific 
understanding and inadequate resources for research and monitoring 
limited the agency's ability to provide timely forecasts of the need to 
scale back allowable catches. Each year harvest rates were based on 
prevailing scientific information and stock assessment models, FMP 
goals, and Magnuson-Stevens Act requirements. At the time, harvest 
rates were deemed reasonable and responsible given the accepted 
scientific understanding around the world and the productivity 
estimates used in other national and international fisheries.
    We do not know for certain why the West Coast groundfish stocks 
appear to have lower productivity than similar stocks elsewhere nor do 
we understand completely how the health of groundfish populations is 
linked to changes in the California current. We do know that starting 
in the late 1970's there has been a decline in the basic productivity 
of the California current that is correlated with a major ocean regime 
shift. During this period there have also been an abnormally high 
number of El Nino events. It is likely that these changes have 
contributed to the decline in recruitment of many groundfish species, 
particularly long-lived rockfish which may live as long as 50 to 100 
years. In retrospect, this incomplete understanding led to harvest 
levels that were not adequately conservative.
    In spite of the fact that Pacific Coast groundfish harvest has been 
reduced through state and federal management efforts, the situation 
remains serious. New stock assessments on previously unassessed 
groundfish species are likely to result in the need for further harvest 
restrictions given what we now know about stock productivity and other 
factors. Our challenge will be to protect and rebuild those stocks most 
seriously depleted, while minimizing to the extent possible adverse 
economic and social impacts on fishing communities.
    We are undertaking three types of actions in response to the crisis 
in the groundfish fishery: (1) increasing the collection of scientific 
data and research; (2) improving management of the fishery by reducing 
overcapacity and protecting sensitive habitat from the effects of 
fishing; (3) and providing assistance to fishery participants and 
affected communities through financial programs.
    A key element in restoring stocks for a sustainable fishery, 
protecting the marine environment, and evaluating the social and 
economic impacts of potential management actions is a comprehensive 
research program that provides the needed scientific information and 
advice in support of fishery management decisions. Research and 
monitoring for Pacific Coast groundfish currently is done through 
complementary efforts of the three West Coast NMFS Fisheries Science 
Centers, the three coastal state fishery agencies, the Pacific States 
Marine Fisheries Commission (PSMFC), and several academic institutions. 
NMFS and PSMFC federally-funded research and monitoring efforts that 
totaled nearly $6 million in 1999. This funding level allows us to 
determine the status of about 6 stocks each year, and stock assessments 
have been competed for 26 of the 82 groundfish species under federal 
management. Sixteen of these assessments are adequate enough to allow 
determination of the species' status. Of these 16 stocks 7 have been 
determined to be overfished, requiring the Pacific Fishery Management 
Council (Council) to submit rebuilding plans that meet the Magnuson-
Stevens Act rebuilding requirements. The ``unknown'' status of the 
majority of groundfish stocks leaves a significant possibility that 
others may be overfished as well.
    The Northwest Fisheries Science Center (Northwest Science Center) 
has lead responsibility for coordinating West Coast groundfish 
research. In Fiscal Year (FY) 2001, the Northwest Science Center 
groundfish budget was doubled to about $4.25 million. This increase 
will provide funding for the whiting pre-recruit and slope trawl 
surveys which have been conducted for the past two years using 
temporary funds. In addition, funds will be used to support the 
transition of many West Coast groundfish survey and assessment 
responsibilities from the Alaska Fisheries Science Center to the 
Northwest Science Center. The transition should provide for improved 
integration with existing West Coast NMFS groundfish programs in a 
manner that will achieve significant efficiencies and allow us to 
expand those activities. In addition, we are assessing whether more 
frequent and precise assessments are necessary to rebuild stocks and 
achieve a sustainable fishery.
    For the first time, the NMFS FY2001 budget includes just over $2 
million for a West Coast groundfish observer program. This increase 
will provide resources to begin to address one of the major 
shortcomings of the groundfish management process--the lack of 
information on bycatch and total mortality of groundfish in the 
fishery. In cooperation with PSMFC, the Council, and the 3 coastal 
states we are moving quickly to develop a statistically sound at-sea 
monitoring program and to deploy observers to collect needed bycatch 
information. We will also seek opportunities to make other improvements 
in our fishery data collection, including implementation of electronic 
logbooks.
    The Council recently adopted a Strategic Plan and concluded that 
the highest priority for achieving an economically viable groundfish 
fishery at reduced harvest levels is to reduce harvesting capacity to a 
point where the harvesting capacity matches the productivity of the 
groundfish stocks. The Plan recommends a reduction of at least 50 
percent in the number of vessels in all sectors of the groundfish 
fleet, including limited entry trawl and fixed-gear and open access 
vessels. In November, the Council took an initial step in that 
direction by recommending a permit stacking program for the limited 
entry fixed-gear fishery. NMFS supports the Council Plan and will work 
with the Council to find creative ways to reduce harvest capacity while 
minimizing adverse impacts on fishing communities. NMFS supports the 
Council's process to consider use of marine reserves, or marine 
protected areas. Protecting key habitat areas furthers the immediate 
goal of rebuilding overfished groundfish stocks and provides longer 
term benefits by maintaining fully functioning ecosystems that 
contribute to the stability of groundfish populations. Because the 
designation of such reserves may be controversial, development should 
be initiated by the Council and provide for open public input.
    In response to the disaster in the West Coast groundfish fishery, 
Congress appropriated $5.0 million in federal assistance to the 
affected industry and communities. Oregon and California each will 
receive 35 percent of these funds and Washington will disperse the 
remaining 30 percent. Under the Magnuson-Stevens Act such funds may be 
used for assessing the economic and social effects of the commercial 
fishery failure, restoring the fishery and preventing a similar failure 
in the future, and assisting fishing communities. The Secretary also 
must determine that funded activities will not expand the size or scope 
of the commercial fishery failure. Finally, the law requires that the 
federal share of the cost of any funded activity may not exceed 75 
percent of the cost of that activity.
    Each state has made a similar proposal to use the funds for 
industry outreach, job retraining, and cooperative industry research. 
We have summarized these proposed activities into a West Coast 
groundfish spending plan that will be sent to Congress as required 
under the supplemental appropriations law, and we are currently working 
with the states on how best they can meet the 25 percent matching 
requirement.
    In conclusion, I recognize that serious problems remain, but am 
cautiously optimistic about the future of the groundfish fishery. We 
must continue to protect overfished fish stocks, increase our 
scientific understanding, and support efforts to restructure the 
fishery and fleet that allow the participants and support industries to 
remain financially solvent during the rebuilding process. We now know 
more about current climate effects on the groundfish stocks and 
recognize that harvest levels may remain at low levels for a long time 
before stocks are fully rebuilt, and that alone will cause significant 
changes in the structure of the fishery. However, we can work 
collaboratively with the Council, States, Coastal tribes and the 
fishing industry to manage that change in a way that takes into account 
the needs of fishery participants and fishing communities.
    Thank you for the opportunity to address this very important West 
Coast fishery.

    Senator Wyden. Thank you, and we will have some questions 
in a moment.
    Mr. Coenen?
    Mr. Coenen. Yes. Senator Wyden----
    Senator Wyden. Why don't you pull that----
    Mr. Coenen. I'm sorry.
    Senator Wyden. Pull that toward you.

        STATEMENT OF NEAL COENEN, WATERSHED ADVISOR TO 
                       GOVERNOR KITZHABER

    Mr. Coenen. Senator Wyden, Congresswoman Hooley, thank you 
for coming to Newport today to obtain information on the 
deepening groundfish crisis along the West Coast. This will 
bring added attention to the crisis and provide a needed 
opportunity for a wide range of fishery participants and the 
public to voice their concerns.
    For the record, my name is Neal Coenen, and my current 
position is Watershed Adviser to Governor Kitzhaber, who 
supports these remarks. Formerly, I was the Marine Program 
Manager for the Oregon Department of Fish and Wildlife for 12 
years.
    Because of the expertise and perspective of the invited and 
expected witnesses today to speak before you, I will not try to 
describe specific causes or even specific management measures 
needed to address the crisis. Rather, I would like to speak to 
the sense of urgency needed to manage the crisis and Oregon's 
federal funding priorities to do so.
    I think it fair to say that the urgency of directly 
affected participants is not widely shared outside fishery 
management circles. Perhaps that is so because this fishery 
failure and disaster came on progressively and not with the 
drama of, say, a hurricane or a flood.
    Progressively, incentives have been created to expand the 
fishery but not modified to limit excesses. Perversely, 
research on the West Coast was never adequately funded, meaning 
management risks were high but poorly understood. In part due 
to the New England cod fishery collapse, Congress enacted the 
nation's fishery Law in 1996 calling for sustainable fisheries. 
However, insufficient attention, it may be argued, was given to 
how, in a timely and progressive way, sustainable fisheries may 
be brought about before disasters.
    In the context of the West Coast fishery failure, the need 
for urgency is that if corrective measures are not developed 
promptly and implemented, the transition process will be longer 
and more painful for people than necessary. Outcomes will occur 
by default, not purposeful design. Sadly, Congress and 
management agencies may only then be able to conclude that 
disaster response was poorly managed and executed.
    To be sure, many current participants will not find a place 
in a smaller, future, sustainable fishery. However, survivors 
need desperately to have some idea now that the future will 
become structured and expectations shaped in the next 2 to 4 
years, not a decade or more. Fortunately, the Pacific Fishery 
Management Council has developed a Strategic Plan to work 
specifically with the fleet to manage the transition. Make no 
mistake, however, that this job will be easy or inexpensive.
    As to the resources needed, Oregon has several general 
priorities to consider as basic starting points. Our first 
priority is the Oregon Groundfish Disaster Outreach Program. 
With the existing emergency appropriation of $5 million for 
disaster relief, Oregon's share will provide $1.75 million in 
federal funds in direct aid for people training to exit the 
fishery.
    We seek to expand the Oregon program to $6 million for each 
of 4 years under the Interjurisdictional Fisheries Act, where 
match is not required. The State of Oregon faces a $700 million 
budget shortfall projected for the 2001/2003 biennium. We have 
proposed to maintain our general fund groundfish research 
commitment--this Governor's current budget proposal to the 
Legislature--over this period. But we would not be able to 
support the match required for an adequate Oregon Assistance 
Program of $6 million.
    Our second set of priorities really exists as a group with 
no absolute rank order of priority, at the moment. They're 
really a package for discussion and a starting point.
    One critical one is assistance for the Pacific Fishery 
Management Council and its support. We're suggesting $500,000. 
One of the most significant practical realities for needed 
change is for the Council to immediately carry out its 
Strategic Plan. Management measures often take several years to 
complete. The Council needs added resources for the foreseeable 
future, if progress is to be made, developing several 
management measures each year, in addition to routine 
functions.
    Second, is an Observer Program, $5 million. Presently, we 
understand $2 million is funding the start of this program. The 
original request was $4 million. Several years of data will be 
needed before confidence can be placed on usable results. 
Inadequate funding, a slow start, and decreased fishery 
coverage is not cost effective in the long run. It simply drags 
out the uncertainty. We request a $5 million added annual 
commitment for a total program of $7 million. Within this each 
coastal state should receive $1 million to ensure an adequate 
program and to add a complimentary focus for each state on near 
shore fisheries management and research.
    Three, industry has and will continue to work on capacity 
reduction programs. An important point is that some level of 
significant federal funding will most certainly be needed to 
create momentum, so that a variety of market mechanisms, fees--
ITQs, for example--may truly produce desired reductions in 
capacity.
    Finally, Number 4, fisheries research, $12 million. A 
starting point would be $12 million to implement the National 
Marine Fishery Service Strategic Research Plan for the West 
Coast groundfish fisheries. While not the final word on 
research needs, the Plan details the extent of the work 
required. The sooner an adequate effort is created, the sooner 
information will flow to improve fishery assessment, recover 
stocks, and create confidence in sustainable management.
    Finally, Senator Wyden, thank you again for conducting this 
field hearing. Governor Kitzhaber's Office looks forward to 
working with you and all members of Oregon's delegation, as 
well as appropriate Congressional Committees, to address the 
groundfish crisis.
    [The prepared statement of Mr. Coenen follows:]

        Prepared Statement of Neal Coenen, Watershed Advisor to 
                           Governor Kitzhaber

    Senator Wyden, and Members of the Committee, thank you for coming 
to Newport today to obtain information on the deepening groundfish 
fishery crisis along the West Coast.
    This will bring added attention to the crisis and provide a needed 
opportunity for a wide range of fishery participants and the public to 
voice their concerns.
    For the record, my name is Neal Coenen, and my current position is 
Watershed Advisor to Governor Kitzhaber, who supports these remarks. 
Formerly, I was the Marine Program Manager with the Oregon Department 
of Fish and Wildlife for twelve years.
    Because of the expertise and perspective of the invited witnesses, 
I will not try to describe specific causes or even specific management 
measures needed to address the crisis. Rather, I would like to speak to 
the sense of urgency needed to manage the crisis, and Oregon's federal 
funding priorities to do so.
    I think it fair to say that the urgency of directly affected 
participants is not widely shared outside of fishery management 
circles. Perhaps that is so because this fishery failure and disaster 
came on progressively and not with the drama of say a hurricane or 
flood.
    Progressively, incentives have been created to expand the fishery 
but not modified to limit excesses. Perversely, research on the West 
Coast was never adequately funded, meaning management risks were high 
but poorly understood. In part, due to the New England cod fishery 
collapse, Congress amended the nation's fishery law in 1996 calling for 
sustainable fisheries. However, insufficient attention, it may be 
argued, was given to how, in a timely and progressive way, sustainable 
fisheries might be brought about . . . before disasters.
    In the context of the West Coast groundfish fishery failure, the 
need for urgency is that if corrective measures are not developed 
promptly and implemented, the transition process will be longer and 
more painful for people than necessary. Outcomes will occur by default 
not purposeful design. Sadly, Congress and management agencies may only 
then be able to conclude that the disaster response was poorly planned 
and executed.
    To be sure, many current participants will not find a place in a 
future, smaller, sustainable fishery. However, survivors need 
desperately to have some idea now that the future will become 
structured and expectations shaped in the next two to four years . . . 
not a decade or more. Fortunately, the Pacific Fishery Management 
Council has developed a strategic plan for what specifically will need 
to be done to manage the transition. Make no mistake, however, that 
this job will be easy or inexpensive.
    As to the resources needed, Oregon has several general priorities 
to consider as basic starting points.
Groundfish Disaster Outreach Program
    With the existing emergency appropriation of $5 million for 
disaster relief, Oregon will provide $1.75 million in federal funds in 
direct aid for people training to exit the fishery.
    We seek to expand the Oregon program to $6 million for each of four 
years under the Interjurisdictional Fisheries Act where match is not 
required. The State of Oregon faces a $700 million budget shortfall 
projected for the 2001-2003 biennium. We have proposed to maintain our 
general fund groundfish research commitment over this period, but we 
would not be able to support the match required for an adequate Oregon 
assistance ($6 million) program.
Management and Research Priorities
    Our second group of priorities include:

        1. Pacific Fishery Management Council Support $500,000
           One of the most significant, practical realities of needed 
        change is for the Council to move immediately to carry out its 
        strategic plan. Management measures often take several years to 
        complete. The Council needs added resources for the foreseeable 
        future if progress is to be made developing several management 
        measures each year in addition to routine functions.
        2. Observer Program $5 million
           Presently, we understand, $2 million is funding the start of 
        this program; the original request was $4 million. Several 
        years of data will be needed before confidence can be placed on 
        usable results. Inadequate funding, a slow start and decreased 
        fishery coverage is not cost effective in the long run. It 
        simply drags out the uncertainty. We request a $5 million added 
        annual commitment for a total program of $7 million. Each 
        coastal state should receive $1 million to ensure an adequate 
        program and to add a complimentary focus on near shore 
        fisheries research and management.
        3. Industry has and will continue to work on Capacity 
        reduction programs. An important point is that some level of 
        significant federal funding will most certainly be needed to 
        create momentum so that a variety of market mechanisms (fees 
        and ITQs, for example) may truly produce desired reductions in 
        capacity.
        4. Fisheries Research $12 million
           A starting point would be $12 million to implement the NMFS 
        Strategic Research Plan for West Coast Groundfish Fisheries. 
        While not the final word on research needs, the plan details 
        the extent of the work required. The sooner an adequate effort 
        is created, the sooner information will flow to improve fishery 
        assessments, recover stocks and create confidence in 
        sustainable management.

    Finally, Senator Wyden, thank you again for conducting this field 
hearing. Governor Kitzhaber's office looks forward to working with you 
and all members of Oregon's delegation, as well as appropriate 
congressional committees to address the groundfish crisis.

    Senator Wyden. Thank you very much. And I also want to 
recognize that the Governor is not just the state's leader in 
this area. He has been one of the country's leaders with 
respect to taking on the question of sustainable fisheries. We 
appreciate your efforts and your representing him here today.
    Mr. Coenen. Thank you.
    Senator Wyden. Mr. Lone?

  STATEMENT OF JIM LONE, CHAIRMAN, PACIFIC FISHERY MANAGEMENT 
                            COUNCIL

    Mr. Lone. Thank you, Senator, and Representative Hooley.
    My name is Jim Lone. I'm the Chairman of Pacific Fishery 
Management Council. Thank you for this opportunity to offer 
comments related to the West Coast groundfish fishery.
    This is a challenging time for fishery management on the 
West Coast. Several important groundfish stocks are in trouble. 
By federal definition, seven species have been designated to be 
in an overfished condition, with lengthy rebuilding timeframes 
ranging from 10 to 95 years.
    Three other major species have been determined to be 
significantly below a healthy population status, which is 40 
percent of original biomass. And I've appended a one-page 
attachment that identifies those seven species that were 
overfished and the three that are determined to be unhealthy.
    In the year 2000, the Pacific Council notified the 
Governors of the three West Coast states of a potential 
disaster in the groundfish fishing industry, and the U.S. 
Secretary of Commerce declared a commercial fishery failure in 
the West Coast groundfish fishery. In response, Congress 
appropriated $5 million in disaster relief. The most likely 
cause of this crisis is the combined effects of the change in 
the ocean environment, inadequate scientific data collection 
and analysis, and a national policy that encouraged capital 
infusion into the fishing industry.
    Problems in the groundfish fishery have far-reaching 
impacts. Collateral local businesses also suffer consequences. 
Many small, local fishing businesses are in danger of failing 
this year or in the near future, and the national seafood 
supply is negatively affected. It is likely these negative 
impacts will continue for the foreseeable future. While 
economic estimates of total impacts are not currently 
available, it is safe to say the total is enormous.
    What can and should be done about this serious problem? The 
Council's groundfish Strategic Plan offers the best hope for 
improving the fishery and preventing harm in the individuals 
and communities dependent on the resource. In 1999, the Council 
initiated development of a Strategic Plan to guide management 
of the West Coast groundfish fishery. This Plan was formulated 
to address current and future issues and concerns in the 
fishery. At its September 2000 meeting, after a series of 
public meetings, the Council adopted the Strategic Plan and 
approved a process for implementation of the Plan. I've also 
attached a document that identifies the various public hearings 
and processes that the Plan took, during its development.
    The Plan is intended to provide guidance for groundfish 
management in the year 2000 and beyond. It is intended to be a 
resource for Council efforts to rebuild depleted stocks and 
maintain healthy stocks. As a major feature, it provides 
guidance to reduce the size of the fishing fleet to a level 
that is both biologically sustainable for the resource and 
economically sustainable for the fishing community. The Plan 
also calls for conservative fishing policies, establishment of 
marine reserves, and better science.
    Overcapacity within the groundfish fleet is a paramount 
issue challenging the West Coast fishing industry and this 
Council. For years, national policy encouraged industry growth 
and development. As we Americanized the groundfish fishery, we 
did not recognize quickly enough we had achieved that goal.
    The Pacific Council initiated steps to inhibit growth in 
the fishery by establishing a groundfish license limitation 
program in 1994. We also took steps toward better management of 
the sablefish fishery by developing an individual fishing 
quota, IFQ program. We delayed action on that program in 
response to strong signals from Congress. With the 1996 
reauthorization of the Magnuson-Stevens Fishery Conservation 
and Management Act, we lost the ability to implement an IFQ 
program.
    We are disappointed to see an extension of the moratorium 
on IFQ programs but are very encouraged and thankful for your 
efforts to provide an exemption for permit stacking in the West 
Coast sablefish fishery. We ask that you now help by supporting 
buyback programs and capacity reduction tools.
    The Strategic Plan's vision for the future of the 
groundfish fishery assumes the Plan's recommended actions will 
be fully funded and implemented. While the funding need is 
significant, the benefits from implementation of the Plan 
warrant this expense. We have not calculated the total amount 
needed for full implementation of the Plan and are exploring 
cooperative arrangements. However, it is certain additional 
congressional appropriations will be needed. We will be happy 
to provide a total estimate in the near future. At this time, 
we concur with the estimates of $500,000 in each of the next 3 
years needed specifically for the Council to implement the 
Plan. Additional amounts will also be needed to fund West Coast 
research and data needs.
    And I've attached two letters that went back to D.C., one 
in 1998 regarding the year 2001 financial requirements for the 
Science Centers, the Regions, and the Council, and a similar 
letter that went back just this week to D.C. specifying our 
needs for 2003/2004.*
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    The Council recognizes the transition to the future 
envisioned in the Plan will require major changes to the 
structure and operation of the fishery, which will certainly 
have short-term adverse effects on current participants and 
local communities. However, there is a darker vision, which 
could easily occur if we are not able to strategically alter 
the course of current management; that is, we could continue 
attempting to manage an overcapitalized fleet in the face of 
declining resource abundance and the necessity to meet stock 
rebuilding mandates. This will most certainly result in even 
shorter fishing seasons, smaller trip limits, higher discard 
rates, and the continuous inability to accurately account for 
fishery-related mortalities.
    Many people now actively fishing will not be able to meet 
their basic financial responsibilities and will be forced from 
the fishery by a governed economic demise or outright 
bankruptcy. Impacts to coastal communities dependent on 
groundfish fisheries will be disastrous. The Council and 
participating agencies will be overwhelmed by the need to 
implement short-term fixes to long-term problems, with little 
or no chance to focus on the underlying problems of the fishery 
or to development of a long-term management strategy. The 
Council's Strategic Plan sets a course for steering clear of 
this squall.
    In summary, Senator Wyden, the Pacific Council faces a 
severe groundfish fishery problem in the near term, with 7 
species requiring rebuilding over the next 10 to 95 years and 
several other stocks hovering at threshold levels. Because 
depleted species are mixed with healthy stocks, all groundfish 
fisheries will be impacted by management measures aimed at 
rebuilding depleted stocks. We firmly believe the Groundfish 
Strategic Plan will, over the long term, help to rationalize 
the groundfish fishery by addressing the major groundfish 
issues.
    As I noted earlier, to implement the Groundfish Strategic 
Plan, we will likely need legislation and financial support to 
help reduce the number of fishing vessels that harvest fish off 
the West Coast and to collect the necessary--excuse me--and to 
collect the necessary data for competent management.
    We appreciate the efforts and attention Congress has given 
to improve or guide our management, most notably your current 
efforts to allow implementation of permit stacking in our fixed 
gear sablefish fishery. We know there are many other interests 
throughout the Nation competing for your attention and funding, 
and we hope our comments to you today have been helpful. I will 
try to be responsive to any other information or any points you 
may need.
    Thank you again for this opportunity.
    [The prepared statement of Mr. Lone follows:]

 Prepared Statement of Jim Lone, Chairman, Pacific Fishery Management 
                                Council

    My name is Jim Lone. I am chairman of the Pacific Fishery 
Management Council (Pacific Council). Thank you for this opportunity to 
offer comments related to the West Coast groundfish fishery.
    This is a challenging time for fishery management on the West 
Coast. Several important groundfish stocks are in trouble.\1\ By 
federal definition, seven species have been designated to be in an 
overfished condition, with lengthy rebuilding timeframes ranging from 
10 to 95 years. Three other major species have been determined to be 
significantly below (i.e., 60 percent below) healthy population status. 
In 2000, the Pacific Council notified the governors of the three West 
Coast states of a potential disaster in the groundfish fishing 
industry, and the U.S. Secretary of Commerce declared a commercial 
fishery failure in the West Coast groundfish fishery. In response, 
Congress appropriated $5 million in disaster relief. The most likely 
cause of this crisis is the combined effects of a change in the ocean 
environment, inadequate scientific data collection and analysis, and a 
national policy that encouraged capital infusion into the fishing 
industry.
---------------------------------------------------------------------------
    \1\ See Table 1.
---------------------------------------------------------------------------
    Problems in the groundfish fishery have far reaching impacts: 
collateral local businesses also suffer consequences; many small local 
fishing businesses are in danger of failing this year, or in the near 
future; and the national seafood supply is negatively affected. It is 
likely these negative impacts will continue for the foreseeable future. 
While economic estimates of total impacts are not currently available, 
it is safe to say the total is enormous.
    What can and should be done about this serious problem? The 
Council's Groundfish Strategic Plan offers the best hope for improving 
the fishery and preventing harm to the individuals and communities 
dependent on the resource.
    In 1999, the Council initiated development of a strategic plan to 
guide management of the West Coast groundfish fishery. This strategic 
plan was formulated to address current and future issues and concerns 
in the fishery. At its September 2000 meeting, after a series of public 
meetings,\2\ the Council adopted the Strategic Plan and approved a 
process for implementation of the plan.
---------------------------------------------------------------------------
    \2\ See Table 2. Strategic Plan Process Timeline and Schedule
---------------------------------------------------------------------------
    The plan is intended to provide guidance for groundfish management 
in 2001 and beyond. It is intended to be a resource for Council efforts 
to rebuild depleted stocks and maintain healthy stocks. As a major 
feature, it provides guidance to reduce the size of the fishing fleet 
to a level that is both biologically sustainable for the resource and 
economically sustainable for the fishing community. The plan also calls 
for conservative fishing policies, establishment of marine reserves, 
and better science.
    Overcapacity within the groundfish fleet is the paramount issue 
challenging the West Coast fishing industry, and this Council. For 
years, national policy encouraged industry growth and development as we 
``Americanized'' the groundfish fishery. We didn't recognize quickly 
enough we had achieved that goal. The Pacific Council initiated steps 
to inhibit growth in the fishery by establishing a groundfish license 
limitation program that took effect in 1994. We also took steps toward 
better management of the sablefish fishery by developing an individual 
fishing quota (IFQ) program. We delayed action on the IFQ program in 
response to strong signals from Congress. With the 1996 reauthorization 
of the Magnuson-Stevens Fishery Conservation and Management Act, we 
lost the ability to implement an IFQ program. We are disappointed to 
see an extension of the moratorium on IFQ programs, but are encouraged 
and thankful for your efforts to provide an exemption for permit 
stacking in the West Coast sablefish fishery. We ask that you now help 
by supporting buyback programs and capacity reduction tools.
    The Strategic Plan's vision for the future of the groundfish 
fishery assumes the plan's recommended actions will be fully funded and 
implemented. While the funding need is significant, the benefits from 
implementation of the Strategic Plan warrant this expense. We have not 
yet calculated the total amount needed for full implementation of the 
plan, and are exploring cooperative arrangements. However, it is 
certain additional Congressional appropriations will be needed. We will 
be happy to provide a total estimate in the near future. At this time, 
we concur with estimates of $500,000 in each of the next three years 
needed specifically for the Council to implement the plan. Additional 
amounts will also be needed to fund West Coast research and data 
needs.\3\
---------------------------------------------------------------------------
    \3\ The following letters document recent and future Council 
funding needs:
    (1) Letter of January 15, 2001 from Dr. Donald O. McIsaac, 
Executive Director, Pacific Fishery Management Council, to Ms. Penny 
Dalton and Dr. William Hogarth, NMFS.
    (2) Letter of December 22, 1998 from Mr. Lawrence D. Six, Executive 
Director, Pacific Fishery Management Council, to Dr. William Hogarth 
and Mr. Will Stelle, NMFS.
---------------------------------------------------------------------------
    The Council recognizes the transition to the future envisioned in 
the plan will require major changes in the structure and operation of 
the fishery, which will certainly have short-term, adverse effects on 
current participants and local communities. However, there is a darker 
vision, which could easily occur if we are not able to strategically 
alter the course of current management. That is, we could continue 
attempting to manage an overcapitalized fleet in the face of declining 
resource abundance and the necessity to meet stock rebuilding mandates. 
This will most certainly result in even shorter fishing seasons, 
smaller trip limits, higher discard rates, and the continuous inability 
to accurately account for fishery-related mortalities. Many people now 
actively fishing will not be able to meet their basic financial 
responsibilities and will be forced from the fishery by a governed 
economic demise or outright bankruptcy; impacts to coastal communities 
dependent on groundfish fisheries will be disastrous. The Pacific 
Council and participating agencies will be overwhelmed by the need to 
implement short-term fixes to long-term problems with little or no 
chance to focus on the underlying problems of the fishery or to develop 
a long-term management strategy. The Pacific Council's Strategic Plan 
sets a course for steering clear of this squall.
    In summary, Senators, the Pacific Council faces a severe groundfish 
fishery problem in the near term, with seven species requiring 
rebuilding over the next 10 to 95 years and several other stocks 
hovering at threshold levels. Because depleted species are mixed with 
healthy stocks, all groundfish fisheries will be impacted by management 
measures aimed at rebuilding depleted stocks. We firmly believe the 
Groundfish Strategic Plan will, over the long term, help to rationalize 
the groundfish fishery by addressing the major groundfish issues and 
helping move the fisheries toward recovery and prosperity.
    As I noted earlier, to implement the Groundfish Strategic Plan, we 
will likely need legislation and financial support to help reduce the 
number of fishing vessels that harvest fish off the West Coast and to 
collect the necessary data for competent management. We appreciate the 
efforts and attention Congress has given to improve and guide our 
management, most notably, your current efforts to allow implementation 
of permit stacking in our fixed gear sablefish fishery. We know there 
are many other interests throughout the nation competing for your 
attention and funding. We hope our comments to you today have been 
helpful, and we will try to be responsive to any other information or 
input you may need. Thank you again for this opportunity. I will be 
happy to answer any questions you may have.


                               Table 1. Groundfish Stocks--Overfished or Depressed
----------------------------------------------------------------------------------------------------------------
               Species                               Status                         Rebuilding Timeframe
----------------------------------------------------------------------------------------------------------------
Lingcod                               Overfished* (designated 1999)         10 years
----------------------------------------------------------------------------------------------------------------
Bocaccio                              Overfished (designated 1999)          38 years
----------------------------------------------------------------------------------------------------------------
Pacific Ocean Perch                   Overfished (designated 1999)          47 years
----------------------------------------------------------------------------------------------------------------
Canary Rockfish                       Overfished (designated 2000)          37 years
----------------------------------------------------------------------------------------------------------------
Cowcod                                Overfished (designated 2000)          95 years
----------------------------------------------------------------------------------------------------------------
Darkblotched Rockfish                 Overfished (designated 2001)          To Be Determined
----------------------------------------------------------------------------------------------------------------
Widow Rockfish                        Overfished (designated 2001)          To Be Determined
----------------------------------------------------------------------------------------------------------------
Shortspined Thornyhead                Below Target Biomass**                Not Applicable
----------------------------------------------------------------------------------------------------------------
Sablefish                             Below Target Biomass                  Not Applicable
----------------------------------------------------------------------------------------------------------------
Pacific Whiting                       Below Target Biomass                  Not Applicable
----------------------------------------------------------------------------------------------------------------
* Stocks below 25% of virgin biomass.
** Stocks below 40% of virgin biomass.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Wyden. That's very helpful. Let me thank you as 
well, Jim.
    I know the microphone is aggravating folks. I wonder if, 
because the acoustics in here are pretty good, we turn this off 
if people in the audience are going to be able to hear.
    Unidentified Audience Member: You're okay.
    Senator Wyden. Can you hear?
    Unidentified Audience Member: Yeah.
    Senator Wyden. Let's give it a try. Myself and 
Congresswoman Hooley will try to boom it up a little bit, 
because I know the back draft is hard to follow.
    Ms. Darm, as you know, in June of last year, the Congress 
passed $5 million in emergency appropriations, because the West 
Coast fisheries were in a disaster. Yet, as of today, as far as 
I can tell, 7 months later, not one single dime has gotten out 
to these communities that the federal government has said are 
constituted a disaster.
    Now, this is just completely unacceptable to me, and I'm 
not clear from your testimony. Are you saying it's the 
Governors' fault, that the Governors didn't send you some kind 
of application?
    I mean, we have been talking to the agency constantly. This 
was defined as a disaster. What is it going to take to get this 
money out? If you want to say it's the Governors' fault, I'd 
sure like to have you state that on the record. Because I can 
tell you it's not the fault of Oregon's Governor.
    Ms. Darm. No, Senator, I didn't mean to imply that it was 
the Governors' fault or anyone's fault, for that matter.
    We did develop a spending plan, in coordination with the 
Governors of all of the coastal states. And that spending plan 
is now complete. The next step then will be to receive the 
grant proposals from the states.
    While we were in the process of developing the spending 
plan, we also worked closely with the states. And Neal may be 
able to supplement this some. I'm not sure if you've been 
involved in developing those grant proposals.
    But we have been working with the states on the grant 
proposals, what sorts of projects ought to be proposed, as well 
as how to deal with this requirement for matching funds. 
Because as Neal mentioned in his testimony, some of the states, 
particularly Oregon, are really strapped for funds, and so we 
have been trying to work out whether in-kind contributions, for 
example, can suffice for the matching funds.
    And I don't know if--Neal, if you want to add something----
    Senator Wyden. Well, before we go into that, when will the 
money actually get out on the ground to the small communities? 
In fact, my staff was recently told it was going to get out 
this month. Now what you've described sounds like this is going 
to be like the marquis at the old movie house, where it says 
``Coming Soon,'' and it just never seems to quite get there. If 
this is a disaster, we've got to get the money out to people.
    Ms. Darm. Assuming that we get the proposals and we're able 
to process them, May is probably the soonest that we could 
expect to see money actually distributed.
    Senator Wyden. So, it's going to take a year? I mean, 
Congress passed this disaster appropriation in June of last 
year. And, you're telling me on the Oregon Coast it's going to 
be a year to get that money, even a small amount, to people on 
the ground? Do you think this is acceptable? Is this an 
acceptable way for NMFS to do business?
    Ms. Darm. Well, Senator, I'm not--I'm not familiar with all 
of the details----
    Senator Wyden. I'm just curious.
    Ms. Darm.--what's going on in the planning but----
    Senator Wyden. This is just a question of, I think, common 
sense. You are the point person for our Region. Is it 
acceptable to you that it takes a year to get this money out to 
the communities that are hard-hit? We call it a disaster. The 
federal government didn't say this is a garden-variety kind of, 
you know, let's now fund the committee on acoustics and 
ventilation.
    I mean, the U.S. Congress said it was a disaster. Just tell 
me, yes or no, is it acceptable to you that it takes a year to 
get that money out?
    Ms. Darm. A year does seem like a long time.
    Unidentified Audience Member: Evasive.
    Senator Wyden. It certainly does to me.
    We will follow this up with you. Because I can guarantee 
you I have heard from communities--I know we've been in contact 
with the state--that they have been trying to get this money 
for some time. I have not heard that now we're waiting for 
grant applications and the like.
    But this is one of the areas in which I think NMFS has got 
to change course. Your agency had a doubling of its budget 
recently. So, on one hand, for the agency there is a doubling 
of funds; and for the people in these coastal communities, 
after Congress moves to get out disaster appropriations, you 
told us it's a year to get a dime on the ground. You just can't 
defend that in the communities that we represent. You just 
can't.
    So I hope that we'll see some changes.
    Unidentified Audience Member: Can I raise an objection?
    Senator Wyden. No. This is a Senate hearing. We're going to 
take your comments at the end.
    Let me, if I might, go to this question of research. 
Because I think that you said something encouraging.
    I had not heard before that you all would move the surveys 
to every year. And, as you know, the fishing families are very 
concerned about this issue. Recently, I had one of the 
fishermen tell me that in 1995 the population survey for 
yellowtail rockfish showed fewer than ever before. But then in 
1998, NMFS found four times as many fish. And what the fishing 
family said is, ``Look, the Atlantic stocks get surveyed 
constantly. They get surveyed pretty much every year.''
    And if I heard you correctly--and I had not heard this 
before--this is going to be a change in the NMFS policy. Are 
you announcing today that groundfish stocks will, from this 
point on, be surveyed every year?
    Ms. Darm. I could ask Dr. Varanasi to speak on it more 
specifically. It's not a change in policy. It's a change in the 
funding that's available to us to actually conduct the survey--
--
    Senator Wyden. You haven't been doing it in the past.
    Ms. Darm. We haven't had the funding to do more than the 
triennial surveys. Beginning this year, we will be able to do 
annual surveys. We received additional funding this year for 
those surveys.
    Senator Wyden. How about the other changes in methodology, 
like looking at near shore areas and making sure that the 
fishing families are involved? These changes have been 
expressed to us, as well, as changes that are important in 
research.
    Ms. Darm. Would you mind if I asked Dr. Varanasi to join me 
at the table and answer the more specific questions?
    Senator Wyden. Doctor, why don't you come on forward, and 
we'll get you a microphone.
    Doctor, why don't you identify yourself for the record and 
your position at the agency.

  STATEMENT OF DR. USHA VARANASI, SCIENCE DIRECTOR, NORTHWEST 
              FISHERIES SCIENCE CENTER, NATIONAL 
                    MARINE FISHERIES SERVICE

    Dr. Varanasi. I am Dr. Usha Varanasi. I am Science Director 
for the Northwest Fisheries Science Center, National Marine 
Fisheries Service, NOAA.
    The question was how are we going to increase data 
collection and the surveys. This year we are going to get more 
funding. There is the increase that was in the appropriation 
but also National Marine Fisheries Service is reprogramming 
some of our funds, giving us some more funding, so that we 
could slowly start--or I shouldn't say reprogramming. I'm being 
a scientist. Sometimes I may not use the right word. They are 
reallocating some of our funding from the headquarter funds to 
do this work in the Northwest and the Southwest for integrating 
the surveys.
    So what we will be doing is we--we will continue our slope 
survey that we started with the--working with the charters that 
we had the last 2 years from the contract funds now to base 
funds. But we will have people dedicated for every year for the 
West Coast groundfish surveys. Because they will be now 
consolidated and done from the Northwest Fisheries Science 
Center. That allows us now to be starting every year.
    Senator Wyden. So will the methodology be changed so as to 
look, for example, at the near shore areas and involve more of 
the fishing families, as well?
    Dr. Varanasi. We are going to try everything possible to 
increase and improve the methodology and--and try to work--
first, what we are going to do is to do the surveys that we are 
doing right now already, on a regular basis. And then we will 
also be looking at all of the species that we need to work on. 
So there will be increased effort throughout the West Coast.
    Congresswoman Hooley. I just want to do a followup question 
for either one of you. And that is as we talk about increasing 
these to every year and doing a better job of research, there's 
been a lot of people that--I mean, they fish every single day. 
They've been fishing here for years and years and years. Their 
families fished here, their fathers, their grandfathers. They 
know a lot about the area. They've also said, you know, ``We're 
willing to use our boats, if people want to come out on our 
boats, if they want to come do research or observe.''
    How much do you talk with--as you do this research--and I 
understand what you do is very scientific. But the people that 
go out and fish all the time and their families have been 
fishing for decades and decades. They have pretty good 
knowledge of what happens out there.
    How much do you talk to them?
    Dr. Varanasi. We talk to them. We have a scientist project. 
We need to increase. Definitely we need to increase. But we 
have begun working--over the last 2 or 3 years, we have tried 
to increase operating research. We have tried to use some of 
the vessels----
    Congresswoman Hooley. So you actually----
    Dr. Varanasi. We will have electronic logbook----
    Congresswoman Hooley. Excuse me for just a moment.
    So NMFS actually puts people out in the field, and you sit 
down and talk with these fishing families?
    Dr. Varanasi. Not regularly. That is some--some of these 
things are going to be--now that we have a research plan that's 
outlined, as well as how to incorporate working together, we 
are hoping that with this new funding that we can do a number 
of these things.
    Congresswoman Hooley. Will you be doing that?
    Dr. Varanasi. Part of it we will be doing some of the 
port--working with the port biologists and the fishing 
families. We will try. And--and we will be--just what I'm 
saying is we are going to increase surveys, and we are going to 
increase the outreach and working with people.
    Congresswoman Hooley. And I know that science is different. 
But I would encourage you to talk to these families that have 
been fishing for years. And there are not only captains, but 
there are also people that have the large fishing vessels, as 
well as the smaller fishing vessels. I think they have an 
enormous amount of information that might be helpful in your 
research.
    Senator Wyden. Ms. Darm, understand that the fishing 
families tell us that there's nobody on the ground from the 
agency to consult with, which is why I wanted to emphasize I 
want you to get some of those folks out from behind the 
computers in Washington and Seattle and out in Coos Bay and 
Newport and in the community.
    I appreciate your concern here. But understand, Ms. Darm, 
that the words ``try'' and ``hope'' and the like, when the 
people of this community have watched again and again this 
agency not deliver, doesn't provide a whole lot of solace. As I 
listen to you about the research changes, I hope that you will 
pursue the research changes in a more efficient and expeditious 
way than you have pursued getting the disaster money out. 
Because we're looking now at a year to get the disaster money 
out. I was actually encouraged by your saying that you were 
going to do those surveys every year. Then, by the time 
Congresswoman Hooley had asked her very good questions, it was 
not clear to me at all what exactly is going to be done.
    So, I hope that the Senate Commerce Committee will not have 
to come back on the research question here in 6, 8 months and 
ask again has it, in fact, changed. In 6 or 8 months, 
concerning this research issue, I'll say, ``You got double the 
amount of money.'' I've got to see that these research changes 
are being put in place, or get some people at NMFS who will do 
it; and just be that blunt about it.
    Congresswoman Hooley, I have some additional questions for 
Ms. Darm, but I know your schedule is tight. I think what I 
would like to do is let you ask questions.
    We have some Senate rules here to follow with respect to 
Congresswoman Hooley's participation.
    Congresswoman, why don't you write out questions that you 
would have. I think all of you know that Congresswoman Hooley 
and I work very closely on these matters. I want folks on the 
Coast to know we really appreciate her leadership, and we'll 
comply with the Senate rules, as well.
    Ms. Darm, the question of overages, another area where 
there is substantial frustration, certainly on the part of this 
Senator, and on the part of this community, as well. The 
overage question is a fisheries version of the tobacco subsidy. 
It is just outrageous. What we have is this resource, regarded 
as precious, coming to shore and essentially being trashed.
    I have been trying since 1998 to bring NMFS kicking and 
screaming into setting up a program to make sure that that 
resource, consistent with sensible conservation policies, 
wasn't wasted. In fact, the most recent communication we had 
is--the Pacific Council had approved the pilot plan and thought 
that there was going to be finally a process for getting under 
way. In the middle of last year, we got a letter from NMFS 
saying why that was unacceptable to the agency and still 
allowing for the waste of this resource in such a flagrant kind 
of way.
    What can you all tell us now about what you're going to do 
on the issue of overages, so that we don't continue to waste 
such a dramatic amount of the resource? I think that the agency 
owes the people on the Coast a straight response on this issue 
and when the program is going to get off the ground.
    Ms. Darm. This is an issue I have heard something about, 
and I understand that we have had continuous conversations 
about it. I know it's something that you have been very 
interested in.
    My understanding of the concerns with getting an overage 
program into place immediately are that, first of all, 100 
percent observer coverage would be ideal to have, if we were to 
institute this sort of an overage policy. We do have--I'm happy 
to say we do have $2 million this year--and I think Neal 
mentioned, as well, in his testimony--for an observer program. 
Even that level of funding will only put observers on about 10 
percent of the vessels. So we are a long way yet from a hundred 
percent observer coverage.
    The other thing that is certainly getting the attention of 
the agency and the Council both, at this point, is rebuilding 
the overfished stocks. And at the moment, at least, that is 
our--that is our main priority, which is not to say that 
getting an overage policy in place or program in place is not 
also important. But our primary focus or primary priority, at 
this point, is to rebuild the overfished stocks.
    Finally, given the severely reduced limits, fishing limits, 
that are in place presently, the catch of all fish has been 
reduced dramatically, including the overage catches. So it's 
not as pressing of a problem, at this time.
    I realize that whole answer doesn't really address your 
continued concern about it. I'm afraid I don't have a really 
good answer for you, in terms of when we might be able to have 
some sort of a policy implemented in this regard.
    Senator Wyden. In the summer of 1998, the agency came to 
the Oregon Coast and committed to having a policy to reduce 
overages. You come here now, more than 2 years later, and you 
tell the Senate Committee that you've heard something about it. 
That's what you just told us.
    How many more years is it going to take the agency to do 
what the agency pledged to do more than 2 years ago? 4 years? 6 
years? Never?
    Ms. Darm. Well, I think everyone is committed to reducing 
bycatch and reducing overages. There are certainly many ways of 
getting at that. And it's often the case that what seems like a 
good idea and something that you should pursue and go forward 
with, when you actually try to flesh it out and develop it more 
fully, doesn't seem like it may be the best way to accomplish 
it or the highest priority, on further reflection after further 
developing the idea.
    Senator Wyden. Congresswoman Hooley asks the very useful 
question whether you can use the numbers you now have to make 
some assumptions regarding overages.
    Do you need everything imaginable, everything in your dream 
budget to start an overage program? I think it's a very good 
question.
    Ms. Darm. I'm sorry, numbers in terms of observers?
    Senator Wyden. You have some data, apparently, that asserts 
that overages are going down. I can tell you that the people of 
Oregon constantly see pictures of bycatch and overages with 
vast amounts of fish being brought to shore and trashed, in a 
state where we now lead the country in hunger.
    So Congresswoman Hooley asks the question about whether it 
would be possible to use the existing data, which you seem to 
think is good enough to be able to tell us that overages are 
going down, to set in place a real overage reduction program.
    Ms. Darm. Mr. Senator, I've asked Mr. Robinson to join me 
at the table, because this may be getting into more--I'm not--
I'm still not sure exactly that I--that I understand the 
question but----
    Senator Wyden. Ms. Darm, you have said overages are going 
down.
    Ms. Darm. Catch overall is going down.
    Senator Wyden. So that is obviously based on some data.
    Why not, as Congresswoman Hooley has asked, use that data 
to set in place what the agency committed to do in 1998? Isn't 
it possible to extrapolate from that data?

       STATEMENT OF WILLIAM ROBINSON, ASSISTANT REGIONAL 
    ADMINISTRATOR, SUSTAINABLE FISHERIES, NORTHWEST REGION, 
               NATIONAL MARINE FISHERIES SERVICE,
                    ACCOMPANYING DONNA DARM

    Mr. Robinson. Senator and Congresswoman, my name is Bill 
Robinson. I'm the Assistant Regional Administrator for 
Sustainable Fisheries for the Northwest Region of the National 
Marine Fisheries Service.
    We have to be quite honest. Very little data on the 
quantity of fish that are discarded----
    Senator Wyden. Was Ms. Darm right when she said the 
overages are going down?
    Mr. Robinson. Ms. Darm was right in saying that the catches 
are going down. We won't know whether the bycatch is going down 
or up, until we're able to get an adequate level of observer 
coverage in the fishery to tell us.
    Right now, the fishery is being managed on some estimates 
of bycatch that come from some very old studies and some--from 
some data from some newer studies, an enhanced data collection 
program that was run in cooperation with the Oregon Trawl 
Commission.
    But to get to your question about policies, what's happened 
is since 1998, through the Sustainable Fisheries Act, Magnuson 
Act Amendments, we have had seven species that have already 
been declared overfished, with a commitment for the Council to 
develop rebuilding plans for each of those species.
    The difficult part of the rebuilding plans--and what the 
Council and the agency have been wrestling with for the last 2 
or 3 years--is how to implement those rebuilding plans, the 
types of regulations that will rebuild the stocks, yet minimize 
the impact on the fishing community. That, to be quite honest 
with you, has subsumed almost all of the resources of both the 
Pacific Fishing Management Council and the National Marine 
Fisheries Service here on the West Coast, developing those 
rebuilding plans and developing the management measures to 
implement those in such a way that they'll both rebuild the 
stocks and allow the viability of the fishery to continue.
    Those management measures, many of them are designed to 
reduce bycatch and reduce overages. For example, the--we have--
or the Council has recommended we implement differential trip 
limits, where fishermen using bycatch-friendly gear can hunt 
higher limits. Certainly, a full retention program of some 
sort, in terms of reducing wastage, would be something that 
would be beneficial to develop and have. But at this point, it 
wouldn't provide either the money to fund research, because the 
limits are so low, and it wouldn't provide data on overages. 
Because we wouldn't have enough observer coverage in order to 
know that fishermen are truly keeping all of their bycatch or 
all of their overages. But principally----
    Senator Wyden. Can I ask you a question on this?
    In 1998, I was given a commitment by the agency to move 
forward with the program that allowed the sale of overages and 
the profits used to fund research. The Pacific Council approved 
a pilot project to get under way. NMFS still is not willing to 
go forward with the pilot project or anything else.
    Why not?
    Mr. Robinson. Senator, the bottom line has been that we 
have essentially diverted our resources to work on overfished 
stocks and rebuilding plants and reducing capacity. The Council 
determined those two areas to be the highest priority, and 
that's where all our resources have gone.
    Senator Wyden. So we've just dropped the overages issue. 
When the agency makes a commitment to communities and decides 
to change its mind, that's that?
    Mr. Robinson. In the Council, we have an above-the-line and 
below-the-line set of work priorities. Basically, in terms of 
what was above the line is what gets worked on are those issues 
of greatest impact and those required to comply with the 
statute.
    It doesn't mean that the Council or the agency didn't 
desire to work on other issues. But those issues fell below the 
line in the sense that there were not enough resources to do 
everything above the line and everything below the line as 
well.
    Senator Wyden. Well, this is all very interesting. But, the 
fact is the agency committed, in 1998, to do something about 
this issue. The Council agreed on a pilot project, and I think 
that this is just foot dragging.
    You know, Ms. Darm, if you want to get back to me within 30 
days on a specific plan to do what the agency said they would 
do, we can discuss it. If not, I'm going to push to get some 
folks down at NMFS who are going to do it. I think when you 
make a commitment to people, it's got to be adhered to; or I 
guess why would they trust their government?
    This is a serious problem. People see it constantly. It 
goes right to the heart of the credibility of government. You 
ask people to conserve, and yet they see these pictures of what 
amounts to just flagrant waste. Government comes to them and 
tells them that something is going to be done to change it, and 
nothing is done.
    So, I guess you're saying that it's Okay to do business 
this way. But, I will tell you that as a Member of the 
Committee with jurisdiction over your agency, I'm going to do 
everything I can to change business as usual at NMFS. It's not 
acceptable to take 11 months, to get out money for a disaster. 
It's not acceptable to tell us that you will try to do various 
things in the research area when your budget has been doubled, 
as we have noted here. And frankly, I can hardly make hide nor 
hair about what you all plan to do on the overages and bycatch 
issue, other than as little as possible, in spite of the fact 
that the agency made a commitment more than 2 years ago.
    So, I have only one other area, and that's this question of 
getting people out on the ground. What I'm told by fishing 
families in the coastal communities is that they have nobody to 
talk to with respect to feedback on a particular project; that 
they're working on a sustainability project, and there is no 
one there to turn to. Is that right? Are they factually wrong 
about that? Are there people in these communities that they can 
work with? And, if so, name them, because I think that people 
here would be just delighted to know who they can work with.
    Ms. Darm. We have a groundfish staff in the Northwest 
Region that's four people. Those people are located in Seattle. 
We do have staff at the Science Center who are located here, of 
course. But we do not have the staff who are located in the 
coastal communities.
    Senator Wyden. Do you think that's a good way of doing 
business?
    Ms. Darm. I'd love to have people out in the communities, 
but we don't have the resources or the staff to do that.
    Senator Wyden. Wouldn't it make sense to have at least a 
part of their time devoted to being out in the communities?
    Ms. Darm. Oh, absolutely, yes. Yes, most definitely.
    Senator Wyden. And maybe some of the people from Washington 
D.C. and some of the people from Seattle? Would you commit to 
doing that today?
    Ms. Darm. I'm looking at Bill, because these are people who 
report to him. And they work for him. And he is saying yes.
    Senator Wyden. Yes to what?
    Ms. Darm. Yes, we'd agree to having people out here.
    Senator Wyden. Once a year? Once every 6 months? I mean, 
this is a little bit like the old assessment from Adlai 
Stevenson when he didn't know whether to laugh or cry. We've 
got to get some changes here. There's a world of economic hurt 
out there in these communities. Congress doubled your budget, 
and what you're telling us is, as I've outlined before, is not 
something that gives these families a lot to take home and say, 
``Our government is responding to our concerns.''
    Are they going to come once a month? Once a year? Once 
every 6 months? What could you tell us, in terms of helping 
people on the ground? These are people who want to work with 
the agency. They want to get some feedback on what they're 
doing and what's working and what's not.
    Mr. Robinson. Senator, we certainly would like to interact 
with members of the fishing community in those communities. 
Because we have a small staff and a large regulatory workload, 
it's been difficult to do so. But I think we would like to do 
that and would respond affirmatively to requests to come to the 
fishing communities, perhaps once or twice a year, and make 
ourselves available to interact, and more often than that, as 
our regulatory duties would allow us to do. It's something we 
have not done enough, and I think all of us realize that.
    Senator Wyden. Well, I don't think one or two times a year 
is going to cut it. I mean, these are people who believe that 
their government ought to be out on the ground working with 
them and not in these regional and beltway offices. I had 13 
town hall meetings over the last 2 weeks, because people think 
I ought to be on the ground. That's what Congresswoman Hooley 
has been doing.
    I'm going to move on and ask some other questions. I am not 
going to just allow business as usual at this agency. This is 
not good enough. This is not good enough for all these families 
that are hurting this way. You don't reflect the kind of 
urgency and responsiveness and commitment that these families 
deserve and have a right to expect. So we'll move on. But 
suffice it to say, we're going to have extensive followup on 
these matters.
    Mr. Coenen, some questions for you, the first being the 
question of individual fishing quotas. As you know, we'll be 
dealing with the Magnuson Stevens Act in the Committee, and I 
know you all at the state are taking a look at that.
    What would be your position on that?
    Mr. Coenen. Yes, Senator Wyden. I think there's probably 
unanimity at the Council level--and having been on the Council 
when I was with the Oregon Department of Fish and Wildlife--
that individual transferrable quotas or individual fishing 
quotas--and there's been a moratorium since 1996, although it's 
just expired--are potentially a very useful and needed tool in 
the overall toolkit the Council has available to it to work 
with.
    Individual fishing quotas are not well understood by the 
public. And there is limited U.S. experience. I think there are 
four programs, sablefish and halibut in the North Council, and 
I believe a couple on the East Coast involving clams and 
wreckfish. They're much more--they have been much more used 
internationally in New Zealand, Australia, etc. They have 
advantages, because they have a certain market-based aspect. 
They will resolve race-for-fish problems, safety problems, 
capacity problems, etc.
    But I think it's fair to say as well there are a lot of 
legitimate concerns about how they are shaped. You have to 
consider the definition of the privilege that goes with the 
quota. There is the qualification criteria upon initial 
issuance. Transferrability and accumulation of shares become 
issues because of the equity concerns, the distribution of 
these rights, and even the available fish for landing and 
supporting the on-shore infrastructure.
    The Council is not unfamiliar with the pros and cons, 
having developed an IQ for sablefish, at one point, that became 
so cumbersome and conflicted, in terms of support, that it 
essentially died of its own weight. And part of that is the 
responsibility of an industry and management that could not 
come to a consensus on its shape.
    Nonetheless, I think the Council is looking, at this 
point--and I think the State of Oregon would support the 
Council--that it is a needed tool. The Congress asked the 
National Academy of Sciences to review IQs, and a report has 
come forth, I think, back to the Congress, which will be useful 
in reauthorization discussion. It makes a series of, I think, 
very substantive and practical recommendations for sideboards. 
The group that conducted the report held hearings around the 
country. They heard a lot of the pros and the cons. And one 
thing they did hear clearly from industry, managers, 
environmental groups is that a cookie-cutter approach, a one-
style-fits-all would not work. There are eight councils and a 
multitude of different fisheries. The Council needs the tool 
and needs to adapt it to specific situations where it's 
appropriate.
    Senator Wyden. The other one, Mr. Coenen, that we wanted to 
explore was the question of surveys of groundfishing state-
wise. As you know, the fish, of course, don't respect the 
boundary between state and federal waters. And, I was 
interested in any ideas you might have in which you could work 
cooperatively with NMFS and others to expedite getting quality 
research on states-wise.
    Mr. Coenen. Thank you, Senator. And that's a very good 
question.
    At a general level, I think this issue of fisheries work in 
either the territorial seat, the state jurisdiction, or just 
near shore--however that might be defined--is one that will 
come up over and over again, simply because the groundfish 
management job covering both state and federal waters is simply 
too large, and there will never be sufficient budget, I think, 
as a practical matter, to do the whole thing to the last 
degree. And so partly, the Council itself in its Strategic Plan 
has anticipated that an evolving relationship, a closer-
working, cooperative relationship, between industry both 
recreational and commercial, the states and the Council and the 
National Marine Fisheries Service needs to evolve with a 
particular focus on essentially beginning to delegate more 
research and management activity, not necessarily a delegation 
of authority, but with funding assistance to the states.
    Now with specific regard to survey work, the NMFS triennial 
trawl survey and the periodic shelf surveys have had problems, 
because they have not come into some of the shallower waters. 
The wide variety of west coast rockfish species, in particular, 
are distributed both north to south, and from near shore 
shallow areas to very deep areas on the continental slope. In 
Oregon the perhaps ten or twelve rockfish species that you 
might characterize as being predominantly inside forty fathoms 
(near shore and state jurisdiction), the areas typically not 
federally surveyed are ones that recreational and some 
commercial fisheries in particular rely on. And in Oregon, at 
least, we have only one fish of ten or twelve near shore that 
have ever had a quantified assessment. So the work is clearly 
needed.
    The State of Oregon, Representative Thompson, last session 
was critical in getting the $528,000 in general funds--this is 
not license fee revenues--added to the Department of Fish and 
Wildlife's budget. These funds support research projects that 
are being targeted on some of these species, as well as some 
shelf species. And--and my reference in testimony to the 
Governor maintaining that priority essentially is the State of 
Oregon's contribution to jump-starting particularly, some of 
this needed near shore work.
    Also in testimony I suggested an additional million dollars 
appropriated directly to each of the three states would allow 
them not only to participate in the observer program, but to 
ramp up in particular near shore research activity. This near 
shore research, is not a task I think that large federal 
vessels are going to come inside to shallow waters and do. You 
need smaller research vessels, the vessels the fishing families 
of Oregon own and operate.
    So that's just an approximate outline of what the State of 
Oregon is doing. It is a priority. We believe it will get 
increased attention and will be built on relationships of 
coordinated research.
    Senator Wyden. I think those are constructive suggestions.
    Mr. Lone, you all at the Council, at least your Strategic 
Plan this summer, is calling for an elimination of fifty 
percent of the vessels currently in the fishery. In the fall, 
the Council approved the Plan for groundfish and certainly some 
changes in that.
    Were the fishing communities notified and allowed to 
participate in the formulation of the Plan?
    Mr. Lone. Well, Senator----
    Senator Wyden. Pull that microphone toward you.
    Mr. Lone. As I mentioned earlier, we began the process 
about September 1999 with a Council meeting in Sacramento. At 
that time, the facilitator that we hired, the firm we hired to 
assist us, met with all the--our various panels and management 
teams and Council members and entire Council family, including 
the general public. And then each time throughout the year that 
we had a Council meeting where the Plan was on the Council's 
agenda for either action or update, there was public testimony 
allowed.
    In addition to that, we used our newsletter, the Web site, 
interviews with some local newspapers here in Oregon to try to 
get that word out; and recognizing that we can never get the 
word out to everybody, but I think we did a decent job; sort of 
culminating, then, at the time the Plan was adopted by the 
Council, where we went down prior to that, the month prior to 
that, to all three states and had public meetings; and then 
finally, when the Plan was adopted, the public evening session 
that week and then some more public comment during the day so--
of the adoption.
    So my sense was that we certainly tried to get the word out 
to have the public participate in that process. And during the 
Strategic Plan implementation committee meetings that were held 
in Gladstone, there were members of the public that attended 
those, too.
    Senator Wyden. We'll put you in contact with some folks 
from Coos Bay who were not all too pleased with the process.
    Mr. Lone. And we have one of the representatives from Coos 
Bay here in the audience who has been a participant all the way 
through. So I would be interested to hear about the others that 
weren't.
    Senator Wyden. Now, the Plan calls for buyout of 50 percent 
of the participants in the groundfish. Needless to say, I think 
all parties would say this would take a significant amount of 
funds from the federal government. As I think you know, the 
General Accounting Office put out a report this summer 
stipulating their view that federal buyout programs are 
ineffective, especially in what they describe as industries 
with latent capacity, which are essentially individuals that 
own permits but aren't actively fishing. Now, my understanding 
is that at present there are a fair number of people on the 
West Coast who have groundfish permits but aren't using them, 
because they think the harvest levels are too low to bother.
    What is your sense of how you would deal with this so-
called latent capacity issue, while trying to keep the price 
tag affordable? The reason I ask is that the Congress is going 
to insist on having this kind of information. Certainly, there 
aren't as many of us from the coastal states as we would like. 
And buyback proposals, by anybody's calculations, are pretty 
contentious, and people are going to look at the price tags.
    So if you would, please--you may want to get back to me for 
the record on this, as well. This is an important issue. 
Because for Congress to vote the funds on the buyback question, 
there's going to have to be a thoughtful response to what the 
General Accounting Office found.
    So if you would, take a crack at it here and feel free to 
amplify for the record on it. Because this is an important 
issue for the Congress.
    Mr. Lone. Okay. Well, my crack at it, Senator, would be 
that we did meet last week for the first time on our Strategic 
Plan Implementation Oversight Committee. You may be aware that 
what that process envisions is that members of the general 
public then will be involved in that process in implementation 
committees that deal with certain priorities.
    Part of the meeting last week was devoted to identifying 
the need for a package to go back to Congress that would spell 
out the kind of details that you've asked. So we are going to 
be quick putting that together in written form with adequate 
detail to provide that kind of information.
    Certainly, as the Council has deliberated this over the 
last year or so, we understand that the latent capacity and its 
impact on buyback and all that kind of stuff is real critical 
to having a buyback program be successful. So we will get that 
to you.
    Senator Wyden. Well, it's critical--apart from the issues 
you mentioned, it's critical right at the outset for us to 
generate the bipartisan support that we need in the Congress. 
Senator Smith and I will certainly be working on it on a 
bipartisan basis as part of our working agenda. And 
Congresswoman Hooley has consistently advocated for these 
fishing families. But, colleagues who don't represent coastal 
areas are going to be asking to see annual reports. We need you 
to get out--my mom always calls it the sharp pencil. You need 
to get out the sharp pencil and get us those numbers as soon as 
you can.
    Mr. Lone. We'll do that.
    Senator Wyden. I know Congresswoman Hooley has to go to 
other meetings in her district. I want her to know how much I 
appreciate her coming and feel badly about the constraints of 
the Senate rules in terms of questions. But we appreciate your 
leadership, and we'll be calling on it often.
    We'll--unless any of you would like to add anything 
further--do any of the panel members have anything further? 
We'll excuse you, at this time, and we'll bring forward Bob 
Eaton, Rod Fujita, and Ginny Goblirsch.
    [Whereupon, there was a break in the proceedings.]
    Senator Wyden. The Committee will come to order.
    We have a lengthy agenda to continue with. We welcome Bob 
Eaton, Pacific Marine Conservation Council, Rod Fujita, from 
Environmental Defense, and Ginny Goblirsch, Coordinator of the 
Groundfish Disaster Outreach Program.
    We thank all of you for your patience. Obviously, there are 
a lot of questions to ask the panel and try to move things 
along.
    Mr. Eaton, please go ahead.

          STATEMENT OF BOB EATON, EXECUTIVE DIRECTOR, 
              PACIFIC MARINE CONSERVATION COUNCIL

    Mr. Eaton. Thank you, Senator. I'm very thankful for your 
initiative in getting this hearing going here today. Thank you 
very much. And we appreciate Congresswoman Hooley's 
participation today and her commitment to these issues.
    At the risk of the precedent that was just set at going 
first and the grilling that the first person may take, I'm 
going to give this a shot anyway. My name is Bob Eaton. I'm the 
Executive Director of the Pacific Marine Conservation Council. 
We're located in Astoria, Oregon. We work in Oregon, 
Washington, and California on an agenda of sustainable 
groundfish fisheries. And we work with a growing group of 
commercial and recreational fishing men and women, marine 
scientists, and environmentalists in this agenda that is 
supportive of sustainable fishing and coastal economies.
    As you know, we don't have any throw-away industries, on 
the Coast and very little opportunity to backfill economically, 
if we do lose one. So the fishing industry is important to many 
and all of us.
    Yes, there is a crisis. And I don't want to mention crisis 
again just to continue the drama, but to sort of supplement the 
theme that you've created here, Senator, about the urgency of 
action in all of this. We are in a crisis, and we do need to 
have action that is dependable and timely.
    But let me frame this just a bit by saying there are 
different ways of looking at this crisis. Economically, we've 
got a situation where the dollars earned by fishermen over the 
last 10 years have reduced--the last 5 years have reduced by 
almost 50 percent. That's a pretty dramatic change.
    We also have some biological and management crises, as 
well. For instance, of the 83 species of federally managed 
groundfish caught off the coast of Washington, Oregon, and 
California, about 68 of those are listed as status unknown, 
which means that about 75 percent of the species managed we 
don't know much about. Of the 71 identified species of rockfish 
on the West Coast, the Council manages 55 of those. And of 
those, 47 are listed as status unknown or almost 85 percent. So 
there's a long way we have to go regarding the knowledge about 
these fish that we are ``managing.''
    When it comes to the management side of this thing, our 
current scheme is to ratchet down trip limits. And that 
probably exacerbates the problem you brought to our attention 
today, and that is with discards and overages. Because the 
fishing gears have not changed dramatically, there continues to 
be large catches. Fishermen are doing a great job of attempting 
to change their fishing behavior and where they fish and how 
they fish, but there is much more yet that needs to be done.
    So there are some bright spots, as mentioned. Going to 
annual surveys is a definite bright spot. The $2.3 million in 
the budget for fiscal year 2001 for an observer program is a 
bright spot. The Council's Strategic Plan, ``Transition to 
Sustainability,'' is a bright spot. We just need to have some 
momentum going now to get there.
    And ultimately, what this all boils down to is dollars. The 
fishing industry, whether it's commercial or recreational, is a 
public/private partnership. And quite honestly, from my 
perspective, the public and private investment in these 
fisheries over the years has been insufficient. And it's a pay-
me-now-or-pay-me-later situation. The fact that we now have a 
minimum of seven fish on rebuilding plans, another three or 
four are potentials, says to me that the bill is coming due 
here. And if we don't pay that, there's no way we can get to 
the sustainability that the Council's plan envisions.
    You've asked today what Congress could do to help, and I 
want to cut right to that, if I may, and say that first of all 
our organization, Pacific Marine Conservation Council fully 
supports any and all efforts to assist with coastal 
communities. And we encourage Congress to work with the states 
in developing a plan that begins to meet those needs.
    We also will support a buyback that removes the vessels, 
and removes the permits. We think that is a plus and is very 
important. And I know that the industry is working on a plan 
there. I don't know all the details. But I would encourage 
Congress to work with them on that.
    We feel that the observer program is only half funded, at 
this point, even though Congress has provided some funding. We 
would recommend another two-and-a-half-million dollars be 
included in supplemental appropriations to provide an observer 
program that will actually give us the coverage that's 
necessary on the West Coast.
    We also want to support the idea that Neal Coenen brought 
forward; and that is that an additional million dollars for 
each of the three states be added, so they can begin to do the 
work on near shore fisheries. The Council's Plan envisions that 
the states will take over the management on their shore. But 
they can't do that without some resources.
    An observer program is an integral part of all of this. And 
if I may, Senator, I want to read from a statement that was 
made by the Pacific Council's Groundfish Management Team at its 
meeting in November. It says, ``The Groundfish Management Team 
continues to remind the Council that lacking a comprehensive 
observer program or a verified full retention program, our 
estimates of total fishing mortality remain highly uncertain. 
Absent a tool to measure changes in fish mortality that result 
from management changes, the GMT has no resource, other than to 
review trawl log books, which contain no discard information, 
and then make guesstimates as to what extent measures, such as 
gear modification or changes in fishing behavior, have altered 
observed bycatch logbook rates. Moreover, for the non-trawl 
sector, the GMT has no logbook program or other information to 
gauge the bycatch consequences of the Council's management 
measures. The GMT strongly supports the rapid development of an 
observer program that will provide information on total 
mortality in the groundfish fisheries.'' Critical issue, very 
high on our agenda, and I hope it can be on yours as well.
    The last thing I want to say is that there is no way that 
the Pacific Council is in a position right now to implement its 
Strategic Plan, as good as it is, as visionary as it is and as 
far as it moves beyond the comfort level of a lot of people. We 
fully support an additional $500,000 per year for 3 years for 
the Council, so it can hire the additional staff necessary to 
begin implementing this plan; otherwise, it's going to go on 
the shelf. It's going to be a nice piece of work, and we're all 
going to be sitting here in 3 years having the same discussion 
all over again.
    So Senator, thank you very much for being here and for 
allowing us to testify.
    [The prepared statement of Mr. Eaton follows:]

  Prepared Statement of Bob Eaton, Executive Director, Pacific Marine 
                          Conservation Council

    Thank you, Mr. Chairman and Members of the Committee, for the 
opportunity to testify on West Coast groundfish issues. My name is Bob 
Eaton. I am the Executive Director of Pacific Marine Conservation 
Council, or PMCC. PMCC is a nonprofit, public benefit organization 
working with commercial and recreational fishermen, scientists and 
conservationists to conserve and sustain West Coast groundfish and the 
coastal communities that depend upon them. PMCC's mission is dual and 
focuses on maintaining the health of the resource as well as the 
economies of coastal communities. It is this mission, combined with 
concerns for the state of the groundfish resource, the maintenance of 
fleet diversity, and the sustainability of the groundfish fishery, that 
is the catalyst for this testimony.

Background
    The West Coast groundfish fishery is in a crisis. One year ago, the 
Secretary of Commerce issued a disaster declaration for this fishery. 
The current situation is incrementally worse. At least five species of 
groundfish have declined to levels where rebuilding plans are required; 
this month, two more species, dark-blotched and widow rockfish, are 
expected to be designated as over-fished.
    Exacerbating the process of rebuilding these weak stocks is the 
fact that they are often found where harvest of healthy stocks occurs, 
and the over-fished species are caught as bycatch. However, we lack 
reliable data regarding total mortality of these fish, because we 
currently have no mechanism to measure it. Fishery managers are 
compelled to impose trip limits and other restrictions on groundfish 
landings, lacking the necessary total mortality information.
    Coastal communities are reeling under the economic hardship 
resultant from groundfish stock declines and management responses. The 
disaster declaration is, unfortunately, deserved. Fisherman, fishing 
families and local businesses are all suffering. Some areas have 
already lost all or part of the infrastructure that supports the 
fishing industry. PMCC joins these communities in aspiring to the 
vision of sustainable fisheries.
    The Pacific Fishery Management Council is moving to implement their 
precedent setting five-year strategic plan for groundfish, titled 
``Transition to Sustainability.'' This thoughtfully-prepared transition 
envisions substantial capacity reduction, use of marine reserves as a 
management tool, exploring incentives to encourage less destructive and 
more selective gear types, and immediately implementing an observer 
program.

The Observer Program
    The cornerstone of possible recovery for the groundfish fishery is 
a mandatory at-sea observer program. Fishermen and scientists often 
disagree over the health of a particular species, but neither has the 
complete data to substantiate their case. Without an observer program, 
managers must continue to use approximations which, if overly 
conservative, result in unnecessary limitations on fishing efforts. 
Conversely, if fish populations are over-estimated, this inadequate 
data could result in allowing overexploitation--to the long-term 
detriment of the resource and our fishing communities.
    Current estimates of bycatch rates in West Coast groundfish 
fisheries are largely based on a study done in the mid-1980s. Making 
critical decisions based on outdated information is a disservice to the 
resource and the fishermen. From 1995-1998 a very limited observer 
program operated with voluntary cooperation from relatively few trawl 
vessel operators. However, the Enhanced Data Collection Project did not 
provide for random placement of observers. This fact and the voluntary 
nature of the program essentially rendered the results to be less 
statistically robust and applicable than a mandatory program would be.
    We've learned from extensive data collecting efforts in other 
fishery-dependent regions that an effective observer program must 
include these basic elements:

  <bullet> The observer program and placement of observers must be 
        mandatory.

  <bullet> Coverage must be coast-wide.

  <bullet> Observation of all gear types must be included, although 
        coverage need not be 100 percent in order to be statistically 
        valid.

  <bullet> Observers must be well-trained technicians with no conflict-
        of-interest.

  <bullet> Data must be consistently collected over a period of years 
        and used in a timely manner.

    Congress deserves congratulations for taking the affirmative step 
last month of appropriating $2.275 million to begin a West Coast 
observer program. These funds will help develop the structure and 
finance a rudimentary first year program. PMCC asks that another $2.5 
million be provided to the National Marine Fisheries Service (NMFS) 
through 2001 Supplemental Appropriations--earmarked for the West Coast 
observer program. This is the requisite beginning to getting the data 
needed for sound management. In addition we ask that $1 million each be 
provided to the states of Oregon, Washington and California to allow 
for observers and data gathering in near-shore and state-managed 
fisheries, recognizing that fish don't distinguish between state and 
federal waters.
    For fiscal year 2002, we ask that Congress appropriate $5 million 
for continuing the federally managed observer program. This is the 
right step to take to help move towards sustainable fisheries.
    The need to secure and protect adequate funding for West Coast 
observers is so vital to the effort to achieve sustainable fisheries 
that the $2.5 million 2001 Supplemental (plus $3 million for the 
states) and the $5 million for fiscal year 2002 should be stand-alone 
lines in the funding requests.
    The observer program is a high priority for the Pacific Council. At 
the November, 2000, Council meeting a PFMC Groundfish Management Team 
Report began: ``The GMT continues to remind the Council that lacking a 
comprehensive observer program, or a verified full retention program, 
our estimates of total fishing mortality remain highly uncertain. 
Absent a tool to measure changes in fish mortality that result from 
management changes, the GMT has no recourse other than to review trawl 
logbooks (which contain no discard information) and then make 
``guesstimates'' as to what extent measures such as gear modification 
or changes in fishing behavior have altered observed logbook bycatch 
rates. Moreover, for the nontrawl sector, the GMT has no logbook 
program or other information to gauge the bycatch consequences of the 
Council's management measures. The GMT strongly supports the rapid 
development of an observer program that will provide information on 
total mortality in the groundfish fisheries.''

Other Important Issues
    While the number one priority that I emphasize in this testimony is 
the need to adequately fund an observer program, I want to be clear 
that Pacific Marine Conservation Council fully supports funding for 
community relief. Many individuals within the fishing communities 
urgently need support and retraining as soon as possible. PMCC urges 
Congress to work with the states to provide adequate funds.
    Other research activities beyond observer data collection are 
needed to move this fishery to recovery. Basic information is not yet 
available for most of the 83 federally managed groundfish species on 
the West Coast. We urge Congress to appropriate funds for NMFS to use 
to fund groundfish research through both the Southwest and Northwest 
Fisheries Science Centers, to conduct additional at-sea surveys and 
expand cooperative research efforts with the fishing industry. In fact, 
these cooperative projects are an excellent way to involve fishermen in 
data gathering while simultaneously providing some economic relief.
    PMCC realizes the urgent need to support the Pacific Fishery 
Management Council, and encourages Congress to supplement the Council's 
budget with $500,000 for staff and resources to help implement their 
strategic plan.
    Finally, in the coming session, the Commerce Committee may have the 
opportunity to consider reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act. PMCC encourages the Committee to 
include language authorizing the Pacific Fishery Management Council to 
institute fee systems, should they choose, to enable industry 
participation for support of observer programs.
    I look forward to assisting you and your staff as changes are made 
to sustain our fisheries. I am prepared to offer any information you 
may need and I welcome your questions. Thank you once again for this 
opportunity to share my thoughts and the views of my organization.
    Respectfully submitted,

    Senator Wyden. Thank you, very helpful.
    Let us move now to Dr. Fujita.
    Dr. Fujita. Thank you very much, Senator.
    Senator Wyden. Nice to see you again.

             STATEMENT OF RODNEY M. FUJITA, PH.D., 
                     ENVIRONMENTAL DEFENSE

    Dr. Fujita. Nice to be here. Thanks for this opportunity to 
testify.
    I'm Rod Fujita, for the record, with Environmental Defense. 
I did my post-doctoral training here at the Hatfield Marine 
Science Center. I have been working on improving groundfish 
management for about 9 years now.
    In your letter, Senator, you asked us to respond to your 
question of what caused this fishery disaster. And from my 
perspective, it was inadequate science, risk-prone management, 
and poor ocean productivity acting together. There's not enough 
money to survey fish populations thoroughly enough. As a 
result, stock assessment scientists had to rely heavily on less 
reliable data, such as catch statistics and logbook records, 
just as Bob said. The most basic fishing statistic of all, 
total fishing mortality, remains unknown to this day, because 
no observers have been on the boats. All this added up to 
uncertainty about how many fish were actually out there in the 
ocean.
    The right way to deal with uncertainty is to be cautious 
with the resource. In 1990, the Council adopted a harvest 
policy that was thought to be conservative at time, but really 
it wasn't. This policy called for fishing at a constant rate 
that would eventually reduce the spawner-to-recruit ratio to 
about 35 percent of original levels. Morever, the Council did 
not adequately acknowledge concerns that reducing the absolute 
numbers of fish might lead to a decrease in young fish and a 
further decline in spawning, rather than leading to maximum 
sustainable yield, as predicted by theory.
    The Council didn't modify this harvest policy even when new 
studies published in 1993 indicated that it was too aggressive. 
The fishing industry, with few exceptions, emphasized how 
uncertain the stock levels were and argued that precautionary 
cuts in allowable catch would result in unjustifiable, short-
term economic impacts. Environmentalists, along with some 
scientists and fisherman, took a longer view, urging the 
Council to establish marine reserves to buffer against 
uncertainty, to adopt a more conservative harvest policy, and 
to make the precautionary cuts. The industry's arguments proved 
more persuasive, in most cases.
    In 1997, the Council finally adopted a more conservative 
harvest policy, at least for rockfish. But by then, at least 
five major stocks had fallen to less than twenty percent of 
their estimated unfished levels and were already exhibiting 
poor reproduction. Low ocean productivity probably exacerbated 
these declines. However, the fact that large populations of 
rockfish and other groundfish persisted throughout this period 
in de facto and regulatory marine reserves, where no fishing 
was allowed, indicates to me that fishing was probably the 
major cause of these declines.
    To put the groundfish fishery on a sustainable path, 
several steps ought to be taken, in my view. First, the federal 
government should provide more financial assistance to the 
communities and fishermen displaced by the failed policies of 
the past. Although many fishing industry representatives argued 
against the more conservative policies that would have averted 
this fishery disaster, it's the government's responsibility to 
protect the public trust. Thus, the government should be held 
accountable for this management failure. I also support Neal 
Coenen's request for funding, including more money to support 
the Council's Strategic Plan process for disaster relief and 
for enhanced research.
    The second priority, I think, should be to reduce fishing 
capacity as soon as possible, ideally by implementing a 
transferrable individual fishing quota program that comparts 
with national standards for equity, conservation, and social 
impact. As was mentioned before, the National Research Council 
recently issued a report requested by Congress on IFQs. This 
report recommends that Congress lift the moratorium on IFQ 
programs. Alternatively, Congress should authorize sufficient 
funds to buy a specific number of the existing groundfish 
vessels, not just the permits, to take care of the latent 
fishing capacity problem.
    Third, implement marine reserves in which all fishing is 
banned as soon as possible. Fish abundance and size are much 
higher in nearly all of the dozens of reserves that have been 
studied, including those that have been established on the West 
Coast, compared to fishing grounds. Reproductive capacity of 
rockfish and ling cod, many of which have been classified as 
overfished in recent years, has been documented to be twenty to 
fifty times higher in no-take marine reserves than in fished 
areas. This is probably because fish in the reserves can grow 
older, larger, and more productive than fish outside the 
reserves.
    Fourth, improve the scientific basis of fisheries 
management. Stock assessment scientists do the best they can, 
with very limited and often misleading data. Increased peer 
review will not solve the root problem. It's helpful, but it 
will not solve the root problem. We really need to increase the 
amount of data collected independently of the fishery. Surveys 
using underwater cameras and videos--some of those studies have 
been done out of this marine research station--may prove to be 
the most cost-effective way to obtain this sort of fishery-
independent data.
    Finally, I think we need to reform the management system. 
Reforming the management system may be the most difficult 
reform of all, but it is perhaps the most important. Some 
Council members and NMFS officials took courageous stands in 
favor of precautionary management. But it seems unreasonable to 
expect people who represent the fishing industry to 
consistently support long-term sustainability and ecosystem 
protection in the face of pressure from constituents to avoid 
short-term economic impacts, which are very real and which 
often accompany these policies. More scientists, 
conservationists, and consumer advocates should sit on the 
Council. NMFS should more rigorously implement the 
precautionary approach and provide objective, apolitical 
oversight over the Council's recommendations.
    Thank you very much for considering my testimony.
    [The prepared statement of Dr. Fujita follows:]

  Prepared Statement of Rodney M. Fujita, Ph.D., Environmental Defense

    Thank you for this opportunity to testify. I am a marine ecologist 
and senior scientist with Environmental Defense. Environmental Defense 
is a national non-governmental organization with over 300,000 members. 
We use science, law, and economics to craft durable and sensible 
solutions to environmental problems. I have been working to improve the 
management of west coast groundfisheries for about 9 years. In addition 
to my research and writing on the subject, I have served on the Pacific 
Fishery Management Council's Groundfish Advisory Panel, Habitat 
Steering Committee, Alternative Groundfish Management Committee, and 
Marine Reserve Committee.
Summary
    My view is that inadequate science and risk-prone management caused 
the west coast groundfish disaster. Stock assessment scientists could 
not produce reliable stock assessments because inadequate funding 
resulted in patchy sampling of fish biomass. As a result, scientists 
had to rely heavily on fishery-dependent data such as catch statistics, 
which are known to be misleading. In addition, the most basic fishery 
statistic of all, total fishing mortality, remains unknown to this day 
due to the lack of an observer program and reliable logbook records. 
Scientists advising the Pacific Fishery Management Council (PFMC) and 
the National Marine Fisheries Service (NMFS) failed to make the large 
amount of uncertainty associated with stock assessments and the theory 
of Maximum Sustainable Yield clear to managers, choosing instead to 
offer multiple alternative models.
    While some Council members called for precautionary management, too 
often the Council, as a whole, simply chose the models which supported 
status-quo catch levels, or, when cuts were called for, chose 
intermediate reductions in allowable catch. They sought to minimize 
short-term economic losses more often than they chose to err on the 
side of conservation. This tendency was reinforced by a management 
system that was captured, by and large, by the fishing industry. The 
fishing industry, with a few exceptions, emphasized the uncertainty 
inherent in stock assessments and opposed precautionary cuts in 
allowable catch, arguing that such cuts would result in unjustifiable 
short-term economic impacts. Environmentalists, along with some 
scientists and fishermen, took a longer view, warning that the PFMC's 
harvest policy was too aggressive given the uncertainty surrounding 
stock assessments. They urged the PFMC to establish marine reserves to 
buffer against uncertainty, adopt a more conservative harvest policy, 
and to make precautionary cuts when it became clear that many 
groundfish species were not as productive as once thought. However, 
these recommendations were generally ignored until recently.
    The solution is to reduce fishing capacity (ideally with an 
Individual Fishing Quota program), establish marine reserves where no 
fishing would be allowed, provide financial assistance to fishermen 
displaced by management policies, improve the scientific basis for 
management, and reform the management structure and process.
Diagnosis of a Fishery Disaster
    The west coast is the world center for rockfish diversity and was 
home to very large populations of many kinds of groundfish. They were 
mostly left alone prior to the 1960's, but fishermen started to catch 
more of them as the salmon fisheries declined. In the 1970's, 
groundfish landings began to exceed salmon landings. The groundfish 
fishery became very large and valuable.
    However, this fishery was based on fishing down large populations. 
Fishery scientists assumed that groundfish reproduction would increase 
as these populations were thinned out, reducing competition between 
fish for mates, food, habitat, and other ecological essentials. So they 
recommended that managers allow fishermen to harvest them at a constant 
rate, regardless of how abundant the populations were.
    The PFMC's scientists recommended a fixed harvest rate that would 
reduce the reproductive output of groundfish stocks to about 35% of 
their original levels, with the expectation that this would eventually 
result in maximum sustainable yield from thinned out populations. No 
minimum biomass threshold was recommended.
    Managers readily adopted this recommendation, despite great 
uncertainty about stock abundance and productivity. This uncertainty 
resulted mainly from the lack of systematic and reliable methods for 
estimating or predicting either of the two main quantities needed to 
set an allowable catch limit: the number or biomass of fish, and the 
actual number or weight of fish killed by fishing. Fish biomass was and 
is difficult to estimate because under-funded research efforts resulted 
in patchy and infrequent sampling. Furthermore, sampling gear may miss 
a lot of fish that live in rocky habitats, because it tends to snag in 
such habitats. Total fishing mortality, the most basic of all fishery 
statistics, remains unknown due to the lack of an observer program and 
reliable logbook records. Fishing mortality is hard to predict or 
control because it often depends on weather and markets. These 
uncertainties were compounded by natural variability in ocean 
productivity.
    Many environmentalists and scientists called for more conservative 
harvest rates. In fact, William Clark, the scientist who originally 
recommended the 35% level in a 1991 paper, later amended his 
recommendation to a more conservative 40% in a 1993 paper. However, the 
PFMC adopted the 35% policy in 1990 and reaffirmed this choice for most 
groundfish in 1997, four years after Clark published his amended 
analysis. To the PFMC's credit, they did adopt a more conservative 
harvest rate for rockfish in 1997, based on the emerging consensus that 
these fishes were particularly vulnerable to fishing due to their long 
lives and sporadic reproduction. But by then, several stocks had 
declined to very low levels, precipitating drastic cuts in allowable 
catch.
    There are indications in PFMC's publications that the Council was 
aware of the dangers of adopting the 35% policy. The main danger was 
that fishing at that rate could reduce average spawner biomass to 
unsustainably low levels, because fishing down the stock could result 
in reduced recruitment, which in turn could lead to less spawners--a 
vicious cycle of depletion. Environmentalists and some scientists 
certainly made their concerns clear. However, arguments for more 
precautionary management were often answered by arguments from the 
fishing industry that management was already too precautionary and that 
further cuts in allowable harvest would harm fishermen. The industry's 
arguments proved more persuasive.
    Unfortunately, it turned out that those calling for more 
precautionary management were right. The large populations of 
groundfish that existed prior to the fishery were probably necessary to 
sustain these species in a highly variable ocean environment. So, 
fishing them down to a fraction of their original levels was not a good 
idea. Furthermore, most of the reproductive capacity of these 
populations was probably concentrated in the older fish, which in many 
cases are not much larger than fish with much lower reproductive 
capacity. The fishery could not discriminate between these two size 
classes, by and large, so the most reproductively valuable elements of 
the groundfish populations were depleted. This probably reduced 
recruitment in turn, leading to a downward spiral exacerbated by 
generally poor ocean productivity off the west coast since about 1977, 
and further exacerbated by El Nino events that appeared to get longer 
and more intense in the 1980's and 1990's.
    This poor science and incautious management occurred against a 
backdrop of a heavily overcapitalized groundfish fleet. The fleet 
became overcapitalized partly in response to government subsidies, but 
also in response to the management regime itself. The abundant 
groundfish stocks attracted fishermen while the salmon fishery was 
collapsing. Open access to the groundfishery encouraged investment in 
more and bigger vessels. The implementation of allowable catch limits 
resulted in shorter seasons, creating an incentive to invest in still 
larger and more efficient vessels and gear. In such a fishery, there is 
little incentive to leave fish in the water for conservation purposes, 
since those fish will be caught by the next fishermen who comes along. 
The incentive is to engage in a ``fish arms race'' to win the 
competition for fish. As groundfish populations declined, the fishing 
industry could or would not adjust quickly enough. It has been 
estimated that the fleet had the capacity to harvest several times the 
allowable catch by the late 1990's. Thus, fishermen were right in 
arguing that cuts in allowable catches would hurt economically. 
Payments on vessels and gear purchased while fishing was good had to be 
made whether the fish were abundant or rare.
    Some environmentalists, scientists, and fishermen advocated the use 
of transferable Individual Fishing Quotas (IFQs) for harvest privileges 
to turn these incentives around. By dividing the allowable catch into 
transferable percentage shares, IFQ programs convert fishermen from 
resource users into investors in a healthy fish population, since their 
share values increase as the resource prospers. IFQs are especially 
effective at ending destructive and wasteful races for fish, and at 
bringing investment into alignment with allowable catch levels. IFQs 
also allow the industry a way to more quickly adjust to changes in fish 
abundance by buying and selling shares.
    The tragedy of the west coast groundfishery disaster is that it 
could have been avoided. The PFMC could have adopted a conservative 
harvest policy based on the precautionary approach, but it often chose 
to acquiesce to industry demands for less conservative policy choices. 
It could have instituted weak stock management for the multispecies 
groundfish fishery, shutting the fishery down when allowable catch 
limits for the least productive stock was reached. However, this was 
deemed too costly. It could have established marine reserves, where no 
fishing is allowed, to protect fish populations from uncertain stock 
assessments and management errors, but it did not.

Solutions

  <bullet> First, the federal government should provide financial 
        assistance to fishermen displaced by the failed policies of the 
        past and by policies intended to help rebuild the fishery, such 
        as reduced catch quotas and marine reserves.

    Although many fishing industry representatives argued against the 
more conservative policies that would have averted the disaster, it is 
the government's responsibility to protect the public's larger 
interests. Thus, the government should be held accountable for this 
management failure.

  <bullet> Fishing capacity should be reduced immediately, ideally by 
        implementing an IFQ program.

    The National Research Council recently issued a report requested by 
Congress on IFQs. This report recommends that Congress lift the 
moratorium on IFQ programs. The PFMC has already put considerable 
resources into developing an IFQ program for fixed gear sablefish. If 
an IFQ program is not adopted, the federal government should authorize 
sufficient funds to buy a significant number of the existing groundfish 
vessels, not just their fishing permits. Excessive fishing capacity not 
only reduces profits, it also creates a strong incentive to argue for 
less conservative policies.

  <bullet> Marine reserves in which all fishing is banned should be 
        implemented as soon as possible.

    Marine reserves demonstrably allow depleted fish species to recover 
more rapidly than in fished areas. A recent scholarly survey of 89 
scientific papers on marine reserves revealed that 90% of the reserves 
studied had more fish biomass compared with fished areas. Fish biomass 
within reserves was on average three times higher. Fish were also 
significantly larger in 83% of the reserves than in fished areas. These 
larger fish tend to have much more reproductive capacity than younger, 
smaller fish characteristic of fished areas. For example, one female 
Pacific ocean perch (Sebastes alutus) that is about 9 inches long 
generates 10,000 eggs, while one that is twice as long generates 
300,000 eggs (30 times more). Therefore, one would expect that a fish 
protected within a marine reserve would yield much greater reproductive 
``bang for the buck'' than a fish protected with fishery management 
(e.g., lower catch rates).

  <bullet> Improve the scientific basis of fisheries management

    The PFMC's response to uncertain stock assessments was to add 
another level of review to scrutinize the stock assessments. This did 
not address the root problem, however. Stock assessment scientists do 
the best they can with very limited and often misleading data. The 
interpretation of such limited data is often brilliant, but the fact 
remains that the data are limited in both quantity and quality.
    The way to reduce uncertainty in stock assessments is to increase 
the amount of fishery-independent data. The new observer program will 
help, but the observers can only count fish that are hauled to the 
surface during a fishing trip. Surveys of fish abundance that do not 
depend on the fishery at all are needed, because catch rates can remain 
high even as fish populations decline, due to the skill of fishermen at 
finding remaining fish aggregations. Existing fish surveys by NMFS need 
improvement, because they may miss a lot of rockfish species living in 
high relief rocky habitats that are relatively inaccessible to the 
sampling gear. They should also be done more frequently and over wider 
areas. Surveys using underwater cameras and video may be the most cost-
effective way to obtain fishery-independent data.
    Equally important, the theoretical basis for fishery management 
must be improved. The theory of maximum sustainable yield (MSY) has 
failed for many groundfish species. This theory posits the existence of 
a curvilinear relationship between spawner biomass and recruitment. 
Harvest policy recommendations based on the theory are very sensitive 
to the shape of this curve. However, actual data are highly variable. 
Hence, curves must be fitted to the data statistically, opening the 
door to uncertainty and various interpretations. This results in 
unreliable estimates of the catch rates and biomass levels expected to 
produce MSY. More effort should be directed at understanding the causes 
of variability in recruitment, including the influence of environmental 
conditions and ecological interactions. Fish populations cannot be 
modeled as if only spawner biomass mattered.

  <bullet> Reform the management system

    Reforming the management system may be the most difficult reform of 
all, but may be the most important. Some Council members took 
courageous stands in favor of precautionary management. But it seems 
unreasonable to expect people who represent the fishing industry to 
consistently support long-term sustainability and ecosystem protection, 
in the face of pressure to avoid short-term economic impacts that often 
accompany such policies.
    The make-up of the Pacific Fishery Management Council should better 
reflect the diversity of groups interested in the fisheries it manages, 
and in the ecosystems its policies affect. More scientists, 
conservationists, and consumer advocates should sit on the Council. 
NMFS should more rigorously implement the precautionary approach, and 
provide objective, apolitical oversight over the Council's 
recommendations.

    Senator Wyden. Dr. Fujita, thank you. And I--I just--I want 
to let Ms. Goblirsch testify. I just want to note, given the 
fact that you just said it, and I say this appreciating a lot 
of the good work that Environmental Defense does. As you know, 
we work extensively with them. I know an awful lot of fishing 
families--an awful lot of people in the fishing industry--who 
have a tremendous commitment to sustainability and to 
conservation. I just want it understood that a lot of them are 
doing it, because they're in it; because they want to have an 
approach for the long term that works, for the long term that 
works for both the viable natural resource and for economic 
needs. And, I just want to note for the record there are a lot 
of those folks out there, and I have been talking to them.
    Ms. Goblirsch, welcome. I really appreciate having you here 
today. You're on the front lines and help the families in all 
this economic hurt. And it is certainly needed.
    So you can proceed.

   STATEMENT OF GINNY GOBLIRSCH, MARINE EXTENSION AGENT WITH 
                OREGON SEA GRANT, PRESIDENT OF 
  NEWPORT FISHERMEN'S WIVES, AND BOARD MEMBER OF THE WOMEN'S 
                COALITION FOR PACIFIC FISHERIES

    Ms. Goblirsch. Thank you, Senator Wyden. We appreciate you 
being with us today.
    My name is Ginny Goblirsch, for the record. I am an Oregon 
Sea Grant Marine Extension Agent and have been with Sea Grant 
for the past 24 years. I'm also a partner in our family fishing 
business. My husband is a long-time Oregon commercial 
fisherman. I'm active in our community and currently serve as 
the President of Newport Fishermen's Wives and on the board of 
the Women's Coalition for Pacific Fisheries.
    I would like to ask that my more-detailed written testimony 
be included as part of the testimony----
    Senator Wyden. Without objection, so ordered.
    Ms. Goblirsch. And so I've abbreviated what I've submitted.
    I have been asked today to address community assistance 
needs during this groundfish crisis. As you know, the economic 
consequences of the cuts in allowable harvest are being felt 
throughout our communities, from fishing vessels, fish plants, 
ports, support services, charter boats, and the community at 
large. The change and uncertainty facing our industry now is 
unprecedented and will likely be even more traumatic than the 
salmon crisis.
    We are in a very difficult transition period. The fishing 
industry of the future will be very different than the industry 
of today. On the West Coast and in Oregon, most fishing vessels 
and their crew are small, family owned businesses. Most 
families and businesses operate without the traditional safety 
nets that benefit most other workers: Workers comp, retirement, 
minimum wage, health care, and most recently in Oregon, 
unemployment. But without these safety nets, a crisis such as 
this becomes even more difficult for industry families. Those 
who feel the most immediate and direct impact are vessel, 
plant, and support service workers, as the majority of their 
work is connected to groundfish.
    Oregon has created a safety net of sorts for people who 
find they want or must leave the industry. In fact, I would say 
the State of Oregon has done an outstanding job in supporting 
this industry and looking ahead to provide assistance, from the 
Governor's Office to state agencies. They're really ahead of 
the ball on this one.
    The Groundfish Disaster Outreach Program got under way last 
spring. It is to provide a way for the fishing industry to 
better connect with existing job retraining programs and other 
community services. I want to emphasize here that what we're 
doing is connecting industry members with programs that are 
already funded and already in place that benefit displaced and 
other workers. And traditionally, the fishing industry folks 
aren't used to working with some of these agencies. So we're 
helping to make that transition, helping the agencies 
understand this new client base for them.
    This program, the Groundfish Disaster Outreach Program, is 
based upon what we've learned from years of working with 
industry families and communities. Oregon Sea Grant is 
providing the leadership, in association with the Oregon 
Department of Community Colleges and Work Force Development, 
Oregon Economic and Community Development, and the Oregon 
Employment Department, Fishermen's Wives. Others closely 
associated with the industry serve as outreach peers and 
industry advocates. Currently, a fisherman's wife serves as the 
program coordinator. And that's not me. That's Connie. She's 
here today.
    Community services available are not always adequate or 
delivered equally coast-wide, nor is this an easy process for 
those seeking services. You have to want to make a change in 
your life and be motivated to do so to be successful. And those 
are the people we really want to work with.
    We are making progress in addressing barriers that have 
excluded the fishing industry from these services in the past. 
Fifty industry people, including some fishermen's wives, are 
currently seeking or receiving re-employment services of some 
kind or another. What we've found, however, is that the major 
barrier to fishermen and others in the industry who are 
interested in transitioning out of the industry through job 
retraining is a lack of income during training. Because most 
are considered self-employed, few fishermen or their wives are 
covered by state unemployment.
    Oregon's spending plan for the Community Assistance Funds 
appropriated by Congress--thanks to your efforts--addresses 
this barrier by establishing a transition income fund. No 
agency will take overhead expenses out of these funds. All 
funds go directly to people who need it.
    I also want to underline please followup on finding out 
where they are. A question was asked earlier about--did Oregon 
file the proper paperwork. We did the spending plan and, in 
fact,--got it in very quickly----
    Senator Wyden. You're talking about the disaster money.
    Ms. Goblirsch. The what?
    Senator Wyden. You're talking about the disaster money.
    Ms. Goblirsch. Yes, the disaster, the one point--I mean 
part of the $5 million.
    Oregon submitted a spending plan late in October. And we 
asked, at that time, if Oregon had to wait for the other two 
states, because we already had an outreach program in place. 
And NMFS was going to find out whether we had to be all 
together, before we could move forward. But anyway----
    Senator Wyden. Did they get back to you on that?
    Ms. Goblirsch. No.
    Senator Wyden. So you actually had discussions with them 
about getting Oregon's share of the disaster money, and Oregon 
was ready to go. They said they would get back to you, and you 
haven't heard anything.
    Ms. Goblirsch. We--yeah. We submitted a written spending 
plan, in addition to the discussions on how Oregon would 
administer the funds.
    Senator Wyden. If you would get me a copy of the written 
spending plan, I will submit that for the record. Because, of 
course, that runs contrary to what we heard NMFS say earlier. 
And I appreciate your telling me that.
    Ms. Goblirsch. Thank you--one of the reasons--one of the 
many reasons we look forward to your visit today.
    As you know, the Pacific Fishery Management Council 
released its Strategic Plan for groundfish last summer. That 
Plan calls for reducing the overall number of commercial 
groundfish vessels by at least 50 percent. As this unfolds, 
either in a planned, orderly way or through rolling bankruptcy, 
the ability to connect displaced fishery workers with community 
support services will be even more important.
    So as we look to next year and the following years, we 
expect that at least tripling Oregon's Community Assistance 
Funds for transition income will be needed. Again, I would like 
to emphasize that this is basic assistance, which makes 
community services already in place go a lot further to help 
displaced workers. We would like to continue to work with you 
and your staff to address these needs.
    But providing transition income support is only one part of 
how community assistance plans work. It's important to combine 
this with other approaches, such as fleet restructuring or 
buybacks and collaborative research. Both fleet restructuring 
and collaborative research will benefit by having--by 
partnering with the Groundfish Disaster Outreach Program, as 
again we will be able to leverage training funds and other 
necessary funding opportunities through other agencies to help 
industry workers either participate in collaborative research 
or, as part of the fleet restructuring, exit the industry. I 
have more remarks on that in my written comments.
    Senator Wyden. Okay.
    Ms. Goblirsch. During an industry downturn such as this, 
stress on families becomes intense. The potential for family 
breakups and worse increases without access to good family 
counselling. During the salmon crisis in 1994, the only access 
to family counselling here in Newport was by dialing 911 to get 
into the county emergency medical health system.
    We prefer to offer counselling long before a 911 situation 
arises. One of the reasons this industry does not have access 
to counselling is the high cost of these services. Usually, 
these costs are covered in a good health insurance plan. Over 
the years, several industry organizations have attempted to put 
together and administer a group health plan for at least a 
portion of the industry. The latest effort was by the Women's 
Coalition for Pacific Fisheries. We spent almost 4 years in 
data gathering, planning, and coordination for a group health 
plan for the entire West Coast fishing industry.
    This plan was unveiled in the fall of 2000 and was carried 
by the only major carrier capable of administering such a plan 
on the West Coast, Regence Blue Cross/Blue Shield. Other 
industry associations helped the coalition with significant 
financial contributions to get the plan off the ground. Sea 
Grant also provided a lot of funding for some of the data 
gathering, as did the Pacific States Marine Fisheries 
Commission.
    However, Blue Cross notified us that they were pulling out 
of the plan the Friday before Christmas, 2 months after they 
offered the plan up to the industry. The official reason given 
was that we did not have enough people enrolled in the plan to 
continue. But there was much more to it than that. We learned a 
lot about the business of health care, turf battles between 
various Blue Cross providers, competing costs of various plans 
within the same company, and health care politics.
    There's much more to this than I could talk about here on 
stage, but I encourage you, Senator Wyden, to continue your 
efforts to address the need for affordable health care for all 
citizens of the United States. We do appreciate your efforts.
    Had the Coalition been successful, two of the needs of the 
industry would have been covered, health care and counselling. 
This is something the industry tried to do for itself, did not 
ask for federal funding or assistance, and ran right into 
insurmountable barriers. We'd be pleased to provide you further 
details on it.
    Senator Wyden. Okay.
    Ms. Goblirsch. Thank you.
    [The prepared statement of Ms. Goblirsh and material 
pertaining to the aforementioned spending plan follow:]

  Prepared Statement of Ginny Goblirsch, Marine Extension Agent with 
  Oregon Sea Grant, President of Newport Fishermen's Wives, and Board 
         Member of the Women's Coalition for Pacific Fisheries

    Mr. Chairman, Members of the Committee, my name is Ginny Goblirsch. 
I have been with Oregon Sea Grant for the past 24 years, serving as a 
marine Extension Agent for the past 14 years. I have lived and worked 
in Newport, Oregon that entire time. I am also a partner in our family 
fishing business. My husband is a long time Oregon commercial 
fisherman. My work with the fishing industry is in the area of 
outreach, training and education. I'm involved in many facets of the 
industry from gear, technology and management to family and community 
issues and safety. In recent years, much of my effort has been in the 
areas of fishing family and community issues, and fishing vessel 
safety. I am active in our community. I serve on the Newport Chamber of 
Commerce Board of Directors and the Oregon Coast Community College 
Small Business Development Center Board of Directors. I am currently 
the President of Newport Fishermen's Wives and serve on the board for 
the Women's Coalition for Pacific Fisheries, a coast-wide (West Coast), 
multi-gear fishing industry support organization.
    I have been asked to address the potential short- and long-term 
solutions to aid fishing communities while the fishery recovers and to 
make comments on associated needs.

Background
    Groundfish have been the backbone of our fishing industry for some 
20 years. The economic consequences of the cuts in available harvest 
are being felt throughout our communities--from fishing vessels, fish 
plants, ports, support services and charterboats to the community at 
large. The change and uncertainty facing the entire fishing industry 
now is unprecedented and will likely be even more traumatic than the 
salmon crisis.
    The groundfish quota cutbacks over the last several years have 
resulted in families and businesses using up their savings, deferring 
maintenance on vessels (and at home), delaying payment of bills and 
taxes and otherwise trying to just hold on. Some of these families/
businesses have no reserves left. This means that the changes now 
occurring in the industry are even more difficult to absorb, causing a 
great deal of family stress. These situations tear families apart.
    No amount of aid will take the place of a business, a lifestyle and 
a livelihood that has defined and supported our coastal communities 
since the coast was first settled. The transition now occurring is and 
will be very hard on many families. These families and businesses 
operate without the traditional safety nets that benefit most workers 
in our society--worker's compensation, retirement, minimum wage, health 
care benefits, and, most recently, unemployment.
    The degree to which families and businesses depend on income from 
the groundfish fishery will directly impact their ability to transition 
through this period successfully. Those who will suffer the most 
immediate and direct impacts are family fishing businesses and fish 
processing plant workers where the majority of their work is connected 
to the groundfish fishery.
    Unfortunately, this situation is reminiscent of what happened to 
the farm families impacted by the farm crisis in the Midwest in the 
1980's. Obviously, financial problems were enormously difficult for 
these families and many delayed taking action and making decisions--
about staying in or leaving their industry--until all their options had 
run out and they had no choice. Farmers felt humiliated. They had lost 
control of their lives and their ability to make decisions. They were 
strong willed, independent people, much like fishermen. They felt self-
condemnation for their inability to take charge of their lives. Family 
and financial advisors, familiar with the industry, would have been 
very helpful for these families. Many families were too close to their 
own problems to be able to make good decisions early on. We believe we 
can and should learn from these farm families, the Government's 
response, and take some innovative approaches.
    We did just that in 1994 when Oregon Sea Grant provided funding for 
a unique peer outreach project called the Fishing Families Project 
(Project). We thought of the Project as ``support centers without 
walls.'' The Project worked directly with fishing families in Oregon's 
port communities to provide practical information on ways to deal with 
the economic, personal and social stresses that are a part of the 
``normal, cyclical nature'' of the commercial fishing industry. An 
important component of this project was the Fishing Family 
Coordinators. They were fishing family members who lived in coastal 
ports and, together with Oregon Sea Grant personnel, were able to 
identify and direct Project activities that directly addressed needs 
and interests of fishing families. These needs included budgeting in a 
cyclic industry; debt consolidation/taxes; diversification/business 
management; fishing marriage/absentee partner; coping skills/stress/
anger management; grants/direct aid; health insurance and communication 
skills.
    The Project also worked directly with community resource providers 
and agencies to enhance their understanding of the fishing community, 
needs of fishing families, and focused attention on the barriers 
fishing families encountered when attempting to obtain existing 
services. Concurrently, the Project brought information to fishing 
industry families about existing resources available in their 
communities to help with their business and family needs. The Project 
also conducted research on the importance of fishing community networks 
and provided fishing business and family members with training in 
forming or strengthening effective support networks.

Community-Driven, Short-Term Solutions
    The success of the Project's outreach model led to discussions in 
1998 with State-level community resource providers about how to 
incorporate this peer outreach methodology into fishery-related 
disaster relief plans. A team of state and local partners worked 
collaboratively for a year to create a possible approach. With the 
support of the team, the Community Services Consortium in Newport 
initiated a small pilot program in January 1999 where an ``Outreach 
Peer'' would reach out to those in the industry who were ready to 
transition out of the industry due to the ever-increasing groundfish 
cutbacks. Due to this pilot's success, by fall of 1999, we finalized a 
coast -wide pilot program in response to the anticipated West Coast 
groundfish disaster. Beginning in the spring of 2000, the ``Groundfish 
Disaster Outreach Program'' (GDOP) connected existing training 
resources and community programs to those impacted by the groundfish 
crisis. The GDOP is administered by the Oregon Sea Grant Extension 
Program with funding support from the Oregon Economic and Community 
Development Department, Oregon Dept. of Community Colleges and 
Workforce Development (WIA), and Oregon Sea Grant Extension. An 
Advisory Committee, with members from State and local Workforce 
Investment Act (WIA) service delivery areas, Oregon Economic and 
Community Development, Oregon Employment Department (OED), Oregon Sea 
Grant Extension and the GDOP Program Coordinator, provides guidance to 
the GDOP. The GDOP has been operating successfully now for 8 months.
    Industry members who find they either want to or have to transition 
out of the groundfish fishing industry--and want help in making the 
transition--can turn to the GDOP for that assistance. The purpose of 
the GDOP is to create, deliver and evaluate a peer outreach program 
that assists people in accessing support, resources and training and 
assists community resource providers in effective outreach through 
improved communication to this population who are in need of support.
    In May 2000, the Governor of the State of Oregon convened a meeting 
of State agency heads as well as community and industry leaders. The 
purpose of this meeting was to brief agencies on the groundfish crisis; 
to assess the crisis and make recommendations as to how each state 
agency can best participate in the GDOP through directing their 
services to help those needing assistance; and to identify barriers to 
services. The GDOP hosted follow-up port meetings with local service 
providers to brief them on the crisis, address industry barriers to 
services and identify how to link support services that they provide 
with the GDOP and the fishing community.
    The GDOP has a coast-wide (Oregon) Coordinator. The Coordinator is 
a fisherman's wife and family business partner. She works with people 
in groundfish fishing businesses who want to transition into the future 
industry as well as with those who want to transition out of the 
industry.
    There are Six GDOP Outreach Peers who are closely associated with 
the fishing industry and in the process of transitioning out of the 
industry themselves. Each Outreach Peer works part-time in one of seven 
regions along the coast informing and mentoring people in groundfish 
fishing businesses who want to transition out of the industry. They 
provide information about community support options for those wishing 
to remain in the commercial fishing industry of the future.
    The Outreach Peers mentor fishermen, fishermen's wives, processing 
plant workers, and others directly associated with the groundfish 
industry that want to leave the industry. The concept is to direct them 
to the assistance they need, and is available, be it personal or family 
support, re-employment counseling, or job retraining (as administered 
through WIA). In the short time period the GDOP has been operating, 
over 100 fishing family business members have been directly contacted, 
58 have been referred to agencies/resources and 29 are now enrolled in 
services.
    This is a community-driven program that seeks to connect services 
to a new audience for many of the community support agencies. We strive 
to get the most out of existing services and to see to it that these 
services meet, as much as possible, the needs of the fishing industry. 
The services available are not always adequate or delivered equally 
coast-wide. We are making progress in addressing the many barriers that 
have excluded the fishing industry from these services in the past.
    However, THE major barrier to fishermen, and others in the fishing 
community who are interested in transitioning out of the industry via 
job retraining is the lack of income during training. Because most are 
considered self-employed, few fishermen/wives are covered by state 
unemployment and there exist no other sources of income for them while 
in training. Because of this unfortunate situation, the State of Oregon 
submitted a Spending Plan for FY 2000 Emergency Appropriations for 
Oregon's share of the $5 million specifically earmarked for community 
assistance. To date, we have had no response from NMFS regarding when 
the funds will be released. The spending plan establishes a transition 
income (TI) fund for individuals to use to cover living expenses while 
transitioning out of the industry. TI will only be available for 
applicants who have developed an approved re-employment or retraining 
plan for their future in non-fishery related employment.

Target Audience for Transition Income
    It is challenging to accurately determine the number of people who 
might seek or need services because of the unusual rolling nature of 
this crisis and the various mechanisms people might or might not have 
to cope. This is not a plant closure where a set number of people know 
they will be unemployed on a given date.
    We do have data on the numbers of commercial fishing vessels in the 
State of Oregon having permits for groundfish or participating in the 
open access fishery. We also have data on other permits those vessels/
owners have which can, in some cases, help to mitigate the impact of 
the crisis. We estimate that 108 commercial fishing vessels/businesses 
are at high risk of bankruptcy (permits limited to groundfish only) and 
another 79 vessels/businesses are at moderate risk (depending on their 
success in other fisheries). This represents 40 percent of the 
groundfish fleet in the State of Oregon and an estimated 400 people. 
Since not all will seek or need services but others in the industry 
will, our best guess at this time is that the GDOP needs to be 
responsive to the needs of 400 Oregon applicants. The numbers could go 
much higher if fish plant closures occur. The numbers could go lower if 
conditions permit success in other fisheries in which some of these 
businesses might also be involved.
    Our target audience for transition income in FY 2001 is 220 
(roughly half of the 400 applicants that have no access to other 
income/assistance). We are estimating that 35 percent of these 
applicants will be single; 65 percent will have families.
    We expect that once the funds finally do arrive in Oregon, they 
will very quickly be dispersed. The Oregon Employment Department has 
agreed to disburse the funds directly to fishermen and other groundfish 
workers with no agency overhead taken out. That means ALL funds go 
directly to help industry individuals.

Long-Term Needs and Solutions
    As we look to community assistance needs for FY 01/02, we expect 
that tripling Oregon's community assistance amount for TI assistance to 
industry individuals displaced by the groundfish crisis is needed. We 
would respectfully request $6 million dollars to help support the GDOP 
and directly aid industry individuals who must/want to transition out 
of the fishing industry.
    The Pacific Fishery Management Council released a draft of its 
Strategic Plan for Groundfish in July of 2000. That plan calls for 
reducing the overall number of commercial groundfish vessels by at 
least 50 percent. The ability to continue to connect displaced fishery 
workers with community support services via the GDOP will be absolutely 
critical.
    In anticipation of the West Coast groundfish disaster declaration, 
a three-state committee was formed to recommend industry and community 
needs. This Committee met throughout 1999 with leadership provided by 
Oregon Coastal Zone Management Association. The recommendations of this 
Committee covered three major areas: 1) family and community 
assistance, 2) research, and 3) fleet restructuring. These three areas 
are interlinked and all are needed for the smoothest possible 
transition to the future of our industry.
    A good plan and funding for fleet restructuring/downsizing is an 
important component of providing a path for a smooth transition to the 
future of our industry. This would tie directly into the GDOP by 
providing assistance to those who find themselves part of the group 
either forced out or who willingly choose to leave the industry. 
Knowing that such a plan is in place would be very helpful to fishing 
families and businesses planning for their futures. As was illustrated 
with the farm crisis, people need good information with which to plan 
their futures or they are left to hang on, possibly until they have no 
resources left. This leaves people feeling like failures and bankrupt. 
This also places added pressures on already struggling community 
support programs. The ability of people to make good decisions early on 
about the course of their future is imperative for a smoother 
transition and is beneficial to local communities.
    Family and community assistance would derive huge benefits from 
collaborative research. Not only is this a way to get the data that is 
critical to proper management of the groundfish industry, it also 
employs fishermen and their vessels. An expanded research program could 
potentially tie in with the GDOP with training opportunities leveraged 
by the GDOP to utilize existing Department of Labor training funds  to 
obtain master's/mates licenses, small business development training and 
other necessary facets of transitioning a strictly commercial fishing 
business into one which continues to commercially fish but also is 
hired for research and charter projects. A program like this is getting 
underway on the East Coast and should be considered for the West Coast.
    In many of Oregon's coastal communities, access to personal, 
family, and financial counseling is limited. And, where it does exist, 
people are still unable to take advantage of it because of the high 
cost of such services. During an industry downturn such as this, stress 
on families becomes intense. Without access to good family counseling, 
the potential for family breakups and worse increases. During the 
salmon crisis in 1994, the only access to family counseling here in 
Newport was by dialing 911 to get into the county emergency mental 
health system. We'd prefer to offer counseling long before a 911 
situation arises. Lessons learned from the farm and salmon crisis 
illustrate the importance of access to good family and financial 
counseling.
    Because the industry has not had the benefit of group health 
insurance, many families cannot afford private counseling. They either 
do without any health care insurance or are inadequately covered.
    Recent research by Oregon Sea Grant indicates that 31 percent of 
fishing families are uninsured (this is almost three times the State 
average). And, although Oregon is fortunate to have the Oregon Health 
Plan and FIHAP, many fishing families do not qualify. For those who are 
insured, most have only major medical.
    Over the years, several industry organizations have attempted to 
put together and administer a group plan for at least a portion of the 
industry. The latest effort was by the Women's Coalition for Pacific 
Fisheries (WCPF). WCPF spent almost 4 years in data gathering, planning 
and coordination for a group health plan for the entire West Coast 
fishing industry. This plan was unveiled in the fall of 2000 and was 
carried by the only major carrier capable of administering such a plan 
on the West Coast--Regence Blue Cross Blue Shield. However, Blue Cross 
notified WCPF that they were pulling out of the health plan the Friday 
before Christmas. The official reason given was that we did not have 
enough people enrolled in the plan to continue but there was much more 
to it than that. WCPF learned a lot about the business of health care, 
turf battles between various Blue Cross providers, competing costs of 
various plans, and health care politics. There is much more to this 
than can be provided here but I encourage you, Senator Wyden, to 
continue your effort to address the need for affordable health care for 
all citizens of the United States. Had the WCPF plan been successful, 
two of the needs of industry would have been covered--health care and 
counseling. This is something industry tried to do for itself, did not 
ask for federal funding or assistance and ran right into insurmountable 
barriers. WCPF would be pleased to provide any and all information we 
can about this case to you.
    The farm crisis, the timber crisis and now the fisheries crisis 
have all shown that with appropriate support, people can successfully 
transition to the future.
    Thank you.
                                 ______
                                 
                     Oregon Department of Fish and Wildlife
                                   Portland, OR, September 22, 2000
Dr. Stephen Freese,
National Marine Fisheries Service,
Seattle, WA.

Dear Steve:

    With the assistance of Oregon Sea Grant Extension Specialists 
Flaxen Conway and Ginny Goblirsch, we have prepared the enclosed 
request and spending plan for the FY 2000 emergency appropriation in 
response to the West Coast groundfish fishery disaster.
    As you are aware, the conservation measures and commensurate 
reductions in groundfish harvest opportunities in 1999 continued in 
2000, and the latest stock assessments indicate further reductions will 
be necessary in 2001. The Pacific Fisheries Management Council's draft 
Strategic Plan for groundfish calls for at least a 50 percent reduction 
in fleet capacity to scale fishing back to match future expected 
harvests now that the fishery has gone through an extensive fishing 
down process. In recent years, many individuals and families have 
already had to make hard choices out of economic necessity and 
desperation. Council members and state fishery managers expect these 
conditions to persist during the foreseeable future.
    Federal appropriations for disaster relief are needed as soon as 
possible to assist those transitioning out of the industry. The 
$1,750,000.00 of federal funds will help provide the necessary support 
in direct benefits to qualified candidates to help them with the steps 
of the difficult process of leaving one's livelihood, retraining, and 
transitioning to other jobs. The Department has identified appropriate 
match dollars and is prepared to commit its share of the $583,333.00 
needed. Details of the different state match sources will be outlined 
in Oregon's full grant proposal. Additional matching funds will also be 
available from Oregon Economic and Community Development Department, 
Oregon Sea Grant Extension, and Oregon Coastal Zone Management 
Association.
    I want to thank you in advance for consideration of this proposal 
for disaster relief. I look forward to working with you to implement 
this much-needed program.
        Sincerely,
                                            James W. Greer,
                                                          Director.
                                         cc: Roy Hemmingway
                                              Doris Penwell
                                              Flaxen Conway
                                            Ginny Goblirsch
                                                Neal Coenen
                                                 Jim Golden
                                 ______
                                 
Spending Plan For FY 2000 Emergency Appropriation In Response to the 
        Disaster in the West Coast Groundfish Fishery

State of Oregon
Situation

    The National Marine Fisheries Service (NMFS), on behalf of the 
Secretary of Commerce, declared a commercial fishery failure in the 
Pacific Coast Groundfish fishery on January 19, 2000.
    Congress appropriated funding of $5,000,000 in response to the 
disaster in the West Coast groundfish fishery. The states were 
specifically directed to use the funds to: 1) pay compensation to 
individuals who have suffered a direct negative impact from the West 
Coast groundfish fisheries disaster; 2) provide direct sustaining aid 
to such fishermen; and 3) provide assistance to communities that are 
dependent on the West Coast groundfish fisheries and have suffered 
losses from such disaster.
    Congress directed that the states of California, Oregon and 
Washington divide the funds between the three states in proportion to 
the impact of the disaster in each state. Discussions were held with 
the three State Fish and Wildlife Directors at the August 28-30, 2000 
meeting of the Pacific States Marine Fisheries Commission and, with 
input from industry and congressional representatives, the states 
agreed to allocate the funds as follows: 35 percent each to California 
and Oregon, and 30 percent to Washington. This represents a sum of 
$1,750,000.00 to Oregon. A 25 percent ($583,333.00) matching amount 
from Oregon is required to receive these funds.
    Oregon's point of contact for its disaster aid program is James 
Greer, Director, Oregon Department of Fish and Wildlife. The funds are 
to be administered by the National Marine Fisheries Service in 
cooperation with the Oregon Economic and Community Development 
Department and/or Oregon Employment Department, and Oregon Sea Grant 
Extension.

Background
    In anticipation of the West Coast groundfish disaster declaration, 
a three-state committee was formed to recommend industry and community 
needs. This committee met throughout 1999 with leadership provided by 
Oregon Coastal Zone Management Association. Further assistance was 
provided by Oregon Department of Fish and Wildlife and Oregon Sea Grant 
Extension. The recommendations of this committee covered three major 
areas: 1) family and community assistance; 2) research and 3) fleet 
restructuring.
    The experience and expertise brought to this group by Oregon Sea 
Grant Extension addressed the family and community assistance portion 
of the recommendations. Since 1994, Oregon Sea Grant has provided 
funding for a unique peer outreach project called the Fishing Families 
Project (Project). The Project worked directly with fishing families in 
Oregon's port communities to provide practical information on ways to 
deal with the economic, personal and social stresses that are a part of 
the commercial fishing industry. An important component of this project 
was the Fishing Family Coordinators. They were fishermen's wives who 
lived in coastal ports and, together with Sea Grant personnel, were 
able to identify and direct project activities that directly addressed 
needs and interests of fishing families. Needs identified by the 
families included budgeting in a cyclic industry; debt consolidation/
taxes; diversification/business management; fishing marriage/absentee 
partner; coping skills/stress/anger management; grants/direct aid; 
health insurance and communication skills. The Project also worked 
directly with community resource providers and agencies to enhance 
their understanding of the needs of fishing families and address 
barriers fishing families met when attempting to obtain services. 
Additionally, the Project brought information to fishing industry 
families about resources available in their communities to help with 
their business and family needs. The Project also provided family 
members with training in forming or strengthening effective support 
networks. This training bolstered three Oregon fishermen's wives 
organizations and helped to form the region-wide, multi-gear, multi-
fisheries network called the Women's Coalition for Pacific Fisheries.
    The success of the Project's outreach model led to discussions in 
1998 with community resource providers about how to incorporate peer 
outreach into fishery-related disaster relief plans. A team of state 
and local partners worked collaboratively to come up with a possible 
approach. With the support of the team, the Community Services 
Consortium in Newport initiated a small pilot program in January 1999. 
In fall of 1999, the plan was finalized for a coast wide pilot program 
in response to the anticipated West Coast groundfish disaster. 
Beginning in April 2000, the state of Oregon provided funding for a 7-
month, coast-wide pilot program called ``Groundfish Disaster Outreach 
Program'' (GDOP), a continuing program that promotes existing training 
resources and community programs. The GDOP is administered by the 
Oregon Sea Grant Extension Program with funding support from the Oregon 
Economic and Community Development Department, Oregon Rapid Response 
Program, and Oregon Sea Grant Extension.
Innovative Response
    The purpose of the GDOP is to create, deliver and evaluate a peer 
outreach program that assists people in accessing support, resources 
and training and assists community resource providers in effective 
outreach through improved communication to this population who are in 
need of support. The audience includes people in the groundfish fishing 
business including fishermen, business partners (wives), fish plant 
workers, industry support service workers (gear stores, fuel docks, 
etc.), charterboat workers and local, state and federal resource 
providers.
    The leadership team of Flaxen Conway, OSU Department of Sociology, 
and Ginny Goblirsch, Marine Extension agent (and fisherman's wife), 
both with Oregon Sea Grant Extension, will continue to direct the GDOP. 
In addition, GDOP employs a full time Program Coordinator, Connie 
Kennedy. The GDOP Coordinator, a fisherman's wife, works with people in 
groundfish fishing businesses who want to transition into the future 
industry as well as with those who want to transition out of the 
industry. Six GDOP Outreach Peers (much like the Fishing Family 
Coordinators, closely associated with the fishing industry and in the 
transition process themselves) work part-time in seven regions along 
the coast informing and mentoring people in groundfish fishing 
businesses who want to transition, out of the industry. They also 
provide information about community support options for those remaining 
in the industry. An Advisory Committee, with members from the Oregon 
Rapid Response Program, local Workforce Investment Act (WIA) service 
delivery areas, Oregon Economic and Community Development, Oregon 
Employment Department (OED), Oregon Sea Grant Extension and the GDOP 
Program Coordinator, provides guidance to the GDOP.
    In May 2000, the Governor convened a meeting of state agency heads 
as well as community and industry leaders. The purpose of this meeting 
was to brief agencies on the groundfish crisis; to assess the crisis 
and make recommendations as to how each state agency can best direct 
their services to help those needing assistance; and to identify 
barriers to services. The GDOP has also hosted port meetings with local 
service providers to brief them on the crisis, address industry 
barriers to services and identify support services available. The 
outreach peers mentor fishermen, fishermen's wives, processing plant 
workers, and others directly associated with the groundfish industry 
that want to leave the industry. A key service is job-training programs 
for dislocated workers administered through WIA. In the short time 
period the GDOP has been operating, 97-odd industry members have been 
directly contacted, 52 were referred to agencies/resources, and 29 are 
now enrolled in services.
    The State of Oregon proposes to support the continuation of the 
successful Groundfish Disaster Outreach Program past the pilot ending 
date of October 31, 2000. In this way, the state will not be creating a 
new program and development expenses will be kept to a minimum. Except 
for the Program Coordinator salary, all funds will go directly to 
people impacted by the disaster. The state supports that no 
administrative costs be incurred for this FY 2000 Emergency 
Appropriation.

Lessons Learned and Future Needs
    Three key things we've learned are substantiated by the success of 
the program. First, we have learned that working collaboratively to 
create this program has resulted in a response that is innovative and 
community-driven. Second, we've learned that THE major barrier to 
fishermen and others interested in transitioning out of the industry 
via job training is the lack of income during training. Most are 
considered self-employed, few fishermen/wives are covered by state 
unemployment and there exist no other sources of income for them while 
in training. Third, we've learned that peer outreach works.
    State funding for the Outreach Coordinator ends on October 31, 
2000. We believe that the Oregon Rapid Response Program will continue 
to provide funding for the outreach peers for as long as they can and 
they see benefits to their programs. Oregon Sea Grant Extension will 
continue to support GDOP project leaders Conway and Goblirsch.
    Because of the previous successes with peer outreach through the 
Fishing Families Project and the pilot GDOP, the State of Oregon 
proposes to use Oregon's share of the disaster assistance funds to: 1) 
continue supporting the GDOP (not start a new program) through funding 
the Program Coordinator, and 2) provide transition income (TI) to 
industry members who want to transition out of the industry and who 
have accessed resources to help them develop a WIA/OED training plan 
for their future.

Target Audience for Transition Income
    As previously stated, the target audience for the GDOP includes 
anyone directly associated with the groundfish industry that has 
suffered significant impacts (loss of revenue) as a result of the 
groundfish crisis. This includes commercial fishing businesses (vessel 
owners, operators and crew); their business partners (wives); fish 
plants (owners, managers and workers); charterboats (owners, operators 
and crew); and all support services (workers in gear stores, fuel docks 
and the like).
    How many people are we talking about here? Because of the unusual 
rolling nature of this crisis and the various mechanisms people might 
or might not have to cope, it is impossible to accurately determine the 
number of people who might seek/need services. This is not a plant 
closure where a set number of people know they will be unemployed at a 
specific time. We do, however, have data on the numbers of commercial 
fishing vessels in the State of Oregon having permits for groundfish or 
participating in the open access fishery. We also have data on other 
permits those vessels/owners have which can, in some cases, help to 
mitigate the impact of the crisis. Therefore, we estimate that 108 
commercial fishing vessels/businesses are at high risk of bankruptcy 
and another 79 vessels/businesses are at moderate risk (depending on 
their success in other fisheries). This represents 40 percent of the 
groundfish fleet in the State of Oregon and an estimated 400 people. 
Since not all will seek or need services but others in the industry 
will, our best guess at this time is that the GDOP needs to be 
responsive to the needs of 400 applicants. The numbers could go much 
higher if fish plant closures occur. The numbers could go lower if 
conditions permit success in other fisheries in which some of these 
businesses might also be involved.
    Our target audience for transition income is 220 (roughly half of 
the 400 applicants that have no access to other income/assistance). We 
are estimating that 35 percent of these applicants will be single; 65 
percent will have families.
Spending Plan

GDOP Program Coordinator
    $66,000.00 is needed to support the full-time Program Coordinator 
for 12 months. Included in this amount are salary and associated 
expenses (such as travel, phone, fax, email, postage and mailing) for a 
12-month period. The Program Coordinator would continue the work as 
previously described.
    Funding would flow from NMFS directly to Oregon Sea Grant Extension 
in the amount of $66,000.00 for a 12-month period. No administrative 
costs (overhead) will be incurred during this period.

Transition Income
    $1,684,000.00 would be used to establish a fund for transition 
income (TI) for individuals (a type of individual TI account) to cover 
living expenses for those transitioning out of the industry. TI will 
only be available for applicants who have developed a WIA/OED training 
plan for their future in non-fishery related employment. Criteria for 
this TI assistance distribution process and the assistance are:
    Design a process that is flexible and readily changed when 
improvements can be identified.
    NMFS disbursements should be made at least quarterly ($421,000 per 
quarter with the first allocation up front) so that the entities that 
administer this program do not have to use state funds and process 
reimbursement requests.
    Qualified applicants must certify that they are part of the 
groundfish industry either as a fisherman, business partner (wife), 
fish plant worker, charter boat worker, or support service worker and 
have been negatively impacted by the groundfish crisis. TI assistance 
will be limited to 6 months to 9 months or less per applicant depending 
on the job-training plan established.
    TI assistance will be based on a simple income verification 
process. For example, our recommendation is that an applicant with a 
family could receive $1,500/month if they had no other access to 
support (unemployment insurance). If the applicant has access to other 
support (unemployment under $1500/month) their TI allotment would be 
only the difference bringing them up to $1,500/month. For a single/non-
married applicant, the allotment would be $1,000/month (with the same 
situation regarding access to other support). The recipients would be 
responsible for self-certifying their continued participation in the 
training plan and their need for this TI (through calling in and/or 
filling out forms on a bi-weekly or monthly basis).
    Final qualifying criteria and program administration arrangements 
will be specified in the State of Oregon grant application to NMFS.
    Funding will flow from NMFS directly to the Oregon Employment 
Department or to the Oregon Employment Department via the Oregon 
Economic and Community Development Department in the amount of 
$1,684,000.00. No administrative costs (overhead) will be incurred 
during this period.

State Matching Contributions
    Since the commercial fishery failure in the Pacific Coast 
groundfish was declared on January 19, 2000, the State of Oregon has 
provided (and will continue to provide) a combination of in-kind and 
state direct matching funds in the amount of $583,333.00.
Suggestions for State Match:
    The State of Oregon will document in its grant application to NMFS 
both in-kind and, possibly, direct matching funds. Here, the state has 
a number of options it will pursue:

    1. Program, Support Development and Fishery Research Contributions

    If expenditures since January 19, 2000 are allowed, the state can 
document up to $83,000.00 of in-kind expenditures developing a disaster 
relief response related to direct assistance and income support. In 
addition, the state can document approximately $124,000.00 in funding 
explicitly reviewed and appropriated by the Oregon legislature for 
groundfish research in response to the disaster. These funds for 
research have already been reviewed in a Groundfish Research Plan 
submitted to the Department's legislative oversight committee and 
approved for projects initiated for the Spring and Fall of 2000, and 
the Spring of 2001.

    These projects focus on the areas of maturity by catch, gear and 
genetic studies designed to improve stock assessments. The amount 
identified includes only the amounts expected to be paid directly to 
fishermen for at-sea contract charters and do not include the 
Department's personnel services or overhead costs. These costs, if 
allowed, would represent an additional $247,000.00 in direct matching 
expenditures. The total above represents a matching amount of 
$454,000.00.

    The state can also document $35,000.00 of direct matching funds 
for the GDOP Program Coordinator salary and expenses from May 1, 2000 
until October 31, 2000 from the Oregon Economic and Community 
Development Department.
2. Expected In-Kind Contributions
   Other in-kind contributions following grant approval are expected 
throughout calendar year 2001 in amounts similar to program development 
costs (i.e. $83,000.00).
3. Emergency Appropriations Board Direct Allocation
   The state's third option for match is to approach the 
legislature's Emergency Appropriations Board for a direct allocation. 
In this event, the direct payments for those individuals transitioning 
out of the groundfish fishery would extend Oregon's proposed program.

Suggestions for Timeline
    The Pacific Fishery Management Council has just announced further 
harvest reductions expected for the fishing year beginning January 1, 
2001. The State of Oregon's objective is to bring this assistance 
program online at that time. Our goals and timeline are as follows:

    1. October 15, 2000 or before: Appropriation Committee release of funds to NMFS.
    2. October 15, 2000 to November 30, 2000: State of Oregon grant 
application process to NMFS (with Oregon documentation).
    3. December 30, 2000: NMFS grant approval.
    4. January 15, 2001: Start Oregon program delivery.

Findings for Supplemental Appropriations Guidance and MSA S.312 (a) 
        Compliance
Authorized Appropriations Purposes in Bill and Report Language

    The State of Oregon's proposed spending plan will provide direct 
compensation to individuals and families for lost income resulting from 
significantly reduced fishing opportunities. The state's program 
intends to sustain this aid over a period of time needed and suitable 
to obtain job training for alternative occupations outside the fishing 
industry.
    In the event of additional, larger appropriations, the state's 
program could be expanded to compensate for the other types of losses 
and community assistance programs such as job development.
MSA Section 312(a) requires that disaster assistance prevent a future 
fishery failure and assist a community or restore the fishery 
and assist a community.
    The State of Oregon program seeks to prevent a future fishery 
failure and assist a community. The usual declining fishery cycle often 
results in fishers waiting for an upturn in one fishery by shifting to 
other fisheries or related activity. While this may have worked in the 
past, present circumstances indicate no flexibility exists in other 
major West Coast fisheries (salmon, crab, and shrimp). Therefore, the 
state's program seeks to permanently remove fishers from the industry. 
This will result in less competition for the limited remaining jobs in 
fisheries and prevent future conflict and failure.
    In addition, the community of individuals and families dependent on 
the fishing industry will be aided directly through training for 
alternative occupations. The community at large will also benefit 
directly and indirectly by having displaced workers prepare to continue 
as productive employed members of the community.

    Senator Wyden. Ms. Goblirsch, thank you very much. You're 
an excellent advocate for the families, and we really 
appreciate that.
    Senator Wyden. Mr. Eaton, a couple questions for you, first 
on this observer issue. My understanding is that there are some 
differences of opinion between how the big boats and the small 
boats look at this issue. The larger boats have some concerns 
about having to have to pick up some of the costs for the 
observers, and some of the smaller boats not having the same 
responsibilities with respect to observers.
    What do you think the ramifications of this are? Is this 
going to hinder the ability to get good data to not have folks 
on these small boats? And, I gather you probably can't get 
another body on some of these small boats, just in a physical 
sense.
    Mr. Eaton. Thank you, Senator. That's a good question. My 
understanding is that there are national standards that are 
established for observers and the vessels that they will go out 
on. And I think it is true that in most cases the larger 
vessels wind up taking the most observers.
    On our coast here, the larger vessels probably also catch 
the most fish. For instance, I've seen a number which indicated 
that trawl vessels, which are going to be the largest on our 
coast, catch 90 percent of the fish, or something like that. So 
you know, practically speaking, there probably ought to be more 
observer emphasis placed on this.
    In 2000, last year, there was a U.S./Canada observer 
conference held in St. Johns, Newfoundland. Our organization 
attended that. We were the only non-profit organization from 
the West Coast. We were the only conservation group from 
anywhere in the United States to attend that conference. And we 
were specifically invited to be there.
    Over 3 days we learned an awful lot about observers. One of 
the things was that in terms of implementing an observer 
program that reaches through all of the fleets, the vessel size 
does not have to be a limiting factor; there are models around 
the world that can be used to observe smaller vessels where you 
can't actually put somebody on board.
    The other thing I might add is that we were asked to make a 
presentation about the observer program on the West Coast. And 
our presentation was basically, ``We want a program, but we 
don't got one.'' There were other countries at the conference 
smaller, third-world countries whose fleets were 100 percent 
observed. And they could not believe that we on the West Coast, 
with a fishery that was forty years old and as important as our 
fishery is, did not have an observer program in place. They 
couldn't believe it. So we've got a long ways to go.
    Senator Wyden. I thank you. I thank you for your testimony, 
and this is helpful. I obviously want to be fair to both the 
big boats and the small boats, in terms of funding this and 
structuring. We'll be asking for your input on it.
    Mr. Fujita, a number of the fishermen have told me that by 
modifying their trawl here, there are areas of the ocean that 
are not fished and are essentially marine reserves right now. 
This is at least how they would define it.
    In your judgment, are these areas significant in size, and 
would it be possible to create new reserves to incorporate them 
and recognize some of what the fishing families are doing now 
and accommodate some fishing elsewhere?
    Dr. Fujita. Thank you, Senator. I can't comment on the 
significance of the size of these de facto reserves. I 
understand from fishermen that they have been successful. The 
trawl footrope regulation has apparently been successful at 
keeping trawl gear out of those rocky areas. And those are 
areas that are important biologically. I don't know how big 
they are. But I would advocate incorporating those areas into a 
marine reserve system. Certainly it makes sense from an 
economic point of view, if they're already being avoided. And 
biologically, it makes sense, because they probably incorporate 
very productive habitats.
    Senator Wyden. I would just like to have recognition for 
what the fishing families are doing now. It seems to me your 
ideas are certainly worth exploring. I think you've heard me 
throughout this hearing say that I want us to figure out a way 
to have a sustainable fishery that's sensitive both to 
environmental and economic needs, which is obviously easier 
said than done. But, it seems to me that when the fishing 
families are making headway, through modification of gear and 
those kinds of approaches, it ought to be recognized in some 
kind of way.
    The World Wildlife Fund is involved in gathering various 
places around the world in vessel buyout programs and efforts 
to be part of again an industry environmental coalition to find 
the funds for these programs. Where does your organization 
stand with respect to buyback and helping with the trawlers and 
others to build this kind of a coalition?
    Dr. Fujita. Well, Environmental Defense, in general, favors 
market-based approaches to reduce fishing capacity. If you 
consider buyback programs and ITQs as different ways to 
approach essentially the same problem, reduced fishing 
capacity, we prefer to see ITQs with standards put in place. We 
think they're more efficient.
    But we recognize that given the ITQ moratorium, buyback of 
the trawl fleet would be faster, if the funds could be made 
available. I think that if they're properly constructed with 
some conservation-oriented sideboards and also address the 
latent capacity and reduce the number of actual fishing 
vessels, not just the permits, we would be supportive and would 
join in the coalition to push the proposal.
    Senator Wyden. We'll be working frequently with you. You 
can be sure of that.
    Ms. Goblirsch, you were here when the National Marine 
Fisheries Services said that they might be able to get the 
disaster assistance to all these families in 11 months, 11 
months time. You know Congress passed the legislation, and I 
gather that you all sent them applications quite some time ago.
    What's your reaction to what you heard from NMFS today?
    Ms. Goblirsch. I'm shocked. We actually naively thought 
perhaps we'd see the funds as--by mid-November or certainly--or 
the end of November. Because we had funding in place, state 
funding in place, to continue on that went so long.
    A lot of this is timing. The funds available from the other 
agencies have their own fiscal year. So in order to be the most 
beneficial to the most people all at the same time, timing is 
critical. And we're getting way out of kilter here. The longer 
this goes on, the more difficult it's going to be.
    But to say disaster relief funds take a year to reach the 
site of the disaster is pretty bizarre, I think.
    Senator Wyden. Well, I can tell you I'll be following this 
up with Senator Smith right away. I want you to know, as you 
leave here today, that we are just going to go after this in 
every way possible. It just seems to me to send the worse 
possible message that here is an agency that has its budget 
doubled by the U.S. Congress and now will come on in and 
basically say they will try to get disaster assistance out in 
about a year.
    I was not aware of the fact that you all sent application 
materials in November. Of course, we were led to believe 
earlier in this hearing that that wasn't the case; that we were 
still awaiting grant applications.
    Ms. Goblirsch. We got on it right away.
    Senator Wyden. Pardon me?
    Ms. Goblirsch. We got on it right away, as soon as we heard 
back from your office that they had been appropriated.
    Senator Wyden. I just want you to know that we are going to 
be very aggressive in staying after this. We are going to 
liberate those dollars----
    Ms. Goblirsch. Thank you.
    Senator Wyden.--for where they were intended to go. And 
that's to families that are hurting.
    I also want you to know I'm going to followup on this 
health care issue. Health care has been sort of my special 
passion since my days as Director of Oregon Gray Panthers.
    My understanding is that in that case, in the example that 
you were talking about, there was never any money allocated 
from the government to assist in this. You were just trying to 
get a private plan using essentially the group, in order to 
make sure they had some bargaining power and some leverage.
    Ms. Goblirsch. Representing 50,000 families on the West 
Coast and Alaska, yes.
    Senator Wyden. Because I think as you're aware--and they're 
still working out some of the developmental details--Senator 
Kennedy was actually able to get some funds for fishing 
families in New England. They haven't gotten the Plan yet, 
because of some bureaucratic problems, but it seems to me that 
what you're asking for should again, utilizing the marketplace 
kinds of principals, be something doable. And, I'll follow that 
up.
    Ms. Goblirsch. We did think a little bit about asking for 
some assistance. But what was happening with groundfish and all 
the needs, funding needs, we didn't want to come in and ask for 
more money. And we felt that given a fair plan, that we could 
be successful. What we had the most problem with was basically 
the politics of the companies.
    Senator Wyden. What is your sense about why Blue Cross and 
Regence pulled out at the end?
    Ms. Goblirsch. You know, I'd really rather not testify to 
that on stage, because we're still in some negotiations with 
them.
    Senator Wyden. Why don't I offer up that----
    Ms. Goblirsch. I think it needs to be addressed again.
    Senator Wyden.--if you want a United States Senator to help 
spur the discussion----
    Ms. Goblirsch. That's why I brought it up.
    Senator Wyden. I hereby volunteer.
    Ms. Goblirsch. Thank you.
    Senator Wyden. All right. The last question that I have for 
you, Ms. Goblirsch, involves a policy issue. Apparently, in New 
England some of the fishing families have been successful in 
qualifying cooperatively as researching an emerging industry, 
which has made them eligible for assistance.
    Are you interested in trying to do the same sort of thing 
on the Oregon Coast?
    Ms. Goblirsch. My colleague, Flaxen Conway, and I were in a 
telephone discussion with David Bergeron, who is with the 
Massachusetts Fisherman's Partnership, and we talked to him 
last week. He was talking about collaborative research funds 
that are coming into the East Coast or the Northeast, where 
fishermen have to be involved in 75 percent of the research. 
And because they have been able to define collaborative 
research--get this--as an emerging industry, they could 
leverage Department of Labor funds to provide training to crews 
to do the research or to get masters or mates licenses, in 
running a small business, to diversify the fishing business to 
something that other--that commercial fishes but also does 
research and charters. And so yeah, emerging business.
    Senator Wyden. We will get on that----
    Ms. Goblirsch. So we thought there was potential on the 
West Coast to do something similar.
    Senator Wyden.--with you as well. My understanding was that 
it was moving forward on the East Coast, and I think we ought 
to take a look at it.
    Unless you all have anything further, we'll excuse you now. 
Thank you all.
    The third panel, Steve Bodnar, Coos Bay Trawlers; Michelle 
Longo Eder, who is a lawyer and from a private fishing family; 
Ralph Brown, groundfish trawler; and Rod Moore, seafood 
processor.
    Senator Wyden. Welcome all of you, and thank you for your 
patience. I'm going to adhere to the time rules, so I can get 
questions for the audience. We'll look forward to talking to 
all of you.

    STATEMENT OF STEVE BODNAR, EXECUTIVE DIRECTOR, COOS BAY 
                  TRAWLERS' ASSOCIATION, INC.

    Mr. Bodnar. My name is Steve Bodnar. I represent the Coos 
Bay Trawler's Association. And this is my anecdotal testimony 
today. And I present it that way, because usually anything that 
fishermen say is anecdotal.
    Perhaps this is the never-ending question, because--the 
question of what caused the decline. It's a never-ending 
question, because it depends on one's own perspective. First, 
addressing the official term environmental groups had submitted 
into the Magnuson-Stevens verbiage, ``overfishing,'' points to 
the harvesters as the culprits of the depleted stocks. However, 
the Magnuson-Stevens Act now requires overfishing terms to be 
used any time the stock--a stock is depleted, no matter what 
the cause.
    The government's and managers' willingness to blame the 
fishermen and appease the environmental groups leads the 
industry to believe that Congress is so gullible that it is 
willing to hold no managers accountable for fishery 
mismanagement. Fishermen have only done what the law and the 
managers have allowed us to do for over 20 years. The fishermen 
of this nation feel that the partnership created to free our 
waters of foreign fleets has backfired in our faces, and the 
government has set us adrift to fend our ourselves.
    The managers are the real culprits of the fishery demise, 
because they are not held accountable for decisions. What would 
the public's perception be today if the official term that was 
put in the Magnuson-Stevens Act was mismanaged species for any 
depleted stock?
    Another perception conveyed by the budget structure that 
affects how fishermen feel about management and--and their 
scientists is the fact that the majority of--a major part of 
the National Marine Fishery Service's budget is derived from 
Saltonstall-Kennedy funds, which comes from tariffs on imported 
fish. Instead, their money should come from the successful 
management of U.S. fisheries and not imported fish at all. The 
perception fishermen have is that National Marine Fisheries 
Service deliberately lowers quotas to increase the imports to 
increase their budget.
    The level of science that managers use to determine harvest 
levels could fit into a thimble; and yet, they call it the best 
science available. The science community is as scattered as the 
fishing fleet itself. Oceanographers rarely talk to the 
biologists and visa versa.
    If the science is to be believable, then the fishermen need 
to be an integral part of the data collection system. Most 
managers in science believe that fishermen cannot be trusted to 
gather the data, whether they do it all alone or while there's 
an agency personnel on board. Data gathering used for fishery 
evaluation is mostly done by non-fishermen, agency personnel, 
where very small samples are taken and extrapolated to paint a 
picture of the entire ocean. The data is then manipulated with 
computer synthesis, and the final results of the evaluation 
studies are presented as gospel by people that rarely, if ever, 
go out to sea. The results are often on the other end of the 
spectrum of what fishermen see every day on the ocean. So 
fishermen have a hard time believing what they hear, rather 
than what they see.
    Ocean conditions may have had a hand in the declining fish. 
Warming oceans and shifts in the warm spot locations change the 
upwelling and currents. Fish move when conditions warrant it, 
and they cannot be found in their usually places. Just because 
fish aren't where they were last year doesn't mean the fish 
have disappeared off the earth. They have just moved and left 
no forwarding address.
    Impacts, every entity that fishes is impacted by the 
managers' decisions. Sports fishermen as well as commercial 
fishermen are impacted. The coastal communities are also 
impacted in every way imaginable. Fishermen may have brought in 
$20 million to a community just 6 years ago. But today, that 
same community may only realize $5 million. That kind of money 
removed from small communities has very hard impact on, not 
only on community government, but also on schools, families, 
and most of the lives of the community, whether they fish or 
not.
    Short- and long-term solutions. The infrastructures of the 
communities are melting away. Processors, watching the quotas 
get lower and lower, have virtually removed the latent 
processing capacity from each community. Successful processors 
have lowered the price of fish, which has forced the small 
processors out of business. The more powerful processors buy 
out the now defunct plants, gut them, and close the doors 
forever. Jobs are lost and never replaced.
    The structures are left to rot as they--rot as they refuse 
to sell; because if they do sell it, they only increase their 
own competition. With the competition gone, lower prices are 
offered for the fishermen for their product. And when we try to 
resist the lowering of prices, we are told by the processors 
the processor can't pay more, because the imported fish sells 
for less, and there is plenty of imported fish coming into this 
country.
    U.S. fish have to compete with foreign--with countries that 
subsidize their own fish efforts and with countries that have 
very little to no environmental regulations. The government 
needs to provide incentives to discourage imported fish of 
undermining the American fish-based economy.
    Our fishing--our fishery managers--managers have to change 
their relationship with fishermen. We need to be true partners 
in fishing management. We need to communicate with each other. 
We need to brainstorm together. We need to work together to 
improve the renewable resource. And we need to move beyond who 
is to blame and how--to how we can fix the system.
    The frustration level has reached such a high level that 
managers are starting to bail out of the system, and fishermen 
are going broke and being forced out of business. Scientists 
and managers say they don't have enough information available 
about the whole fleet's fishing practices. They proclaim that 
there are holes in data or data they don't have a clue about. A 
law that requires all commercial fishermen to keep logbooks on 
all fishing trips. However, only the trawl fleet is forced to 
keep these records. All fishermen should be required to keep 
logbooks.
    Some of the holes in the data are data fishermen could 
record in their logbooks to help provide missing information. 
But, you know, Senator, we have never been asked to keep 
discard data. The managers' answer is not mandatory logbooks 
for everyone with the required recorded data but an 
elaborative, expensive observer program.
    If the entire fleet were to require to have the new 
electronic logbooks operational on our books, then the managers 
would have 100 percent fleet coverage of logbook information 
real time and, if utilized properly, would provide a vast 
amount of data that the managers don't currently have, which 
could remove some of the uncertainty in our fishery management.
    We programs that would train fishermen and their families 
for new careers. We need to encourage replacement industries to 
move into these communities to take advantage of these 
displaced workers. We need tax relief for these--to these 
communities, so that they can take charge of the revitalization 
of their industrial areas that provide good family wage jobs.
    We want to thank you for working on amendments to the 
Capital Construction Fund, which was the first step to help 
some that feel that they are captured in the industry and can't 
get out. One thing that can be done that is not a solution, but 
rather a reaction to management, and that is to reduce the 
fleet to a level that is more consistent with the harvest 
level.
    To most of us, the most important thing that needs to be 
done to ward off bankruptcy of fishing businesses is to help 
reduce the fleet through a buyback program. While the states 
need to cap the open-access fishery, all the fleet need to do--
all the fleets need to be reduced. There is not enough fish to 
allocate the entire buyout, so some form of federal assistance 
is needed.
    About discards, the fishing industry has worked with you 
and brought forth a 20 percent rollover. We'd like to call this 
a soft trip limit. And I think that a soft trip limit should be 
implemented immediately with a 20 percent rollover, so that we 
can reduce the discards, which is--which we can't go along 
with. There's no overage program right now, because they cannot 
believe a fisherman would bring in some of their catch or 
proclaim their catch; and so the only way that an overage 
program will be allowed to go through with this Council is if 
an observer is on board, which is kind of absurd.
    Senator I have been working with Sonitrol, working with a 
surveillance camera that we are going to fund and put on a 
fishing vessel to see if a surveillance camera that's non-
tamperable with 960 hours of record time can be used to look at 
the discard problem without putting expensive observer on 
board.
    Right now, for prevention and future, money must be made 
for the groundfish research that utilizes the true partnership 
of the science and fishermen. And we need to conduct a fleet 
buyback program.
    And I have a question that I can't find an answer for. I 
was wondering what's the ratio between fishermen and managers 
currently? And if we have an observer program, how is that 
going to change? I think that the Nation would probably be 
astounded by the ratio of managers to fishermen. And I 
certainly would like to know what that is.
    I've also written a proposal to a private funding company 
for a ride-along program. Because we feel that it is important 
to get the scientists out or the managers out from behind their 
computers and on to more fishing vessels. We need to have the 
managers have greater acceptance for what fishermen say, 
instead of writing everything off that we have to offer as 
anecdotal.
    And about the Strategic Plan, you've made comment about 
that. Sure, there was plenty of public meetings up and down the 
Coast. And I've attended every Strategic Plan meeting there 
was. And if I couldn't make it, my boss went. And I must say 
that even though the hearings were there, they certainly 
limited the kind of input that they accepted. They heard, but 
they would not accept, no matter how often I got in their face.
    Thank you.
    [The prepared statement of Mr. Bodnar follows:]

   Prepared Statement of Steve Bodnar, Executive Director, Coos Bay 
                      Trawlers' Association, Inc.

    What were the causes of the decline?
    Perhaps this is a never ending question because the causes are many 
and dependent on one's own perspective. First, addressing the official 
term environmental groups had submitted into the Magnuson-Stevens Act 
verbiage, OVERFISHING, points to the harvesters as the culprits of 
depleted stocks. However, the Magnuson-Stevens Act now requires the 
overfishing term to be used any time a stock is depleted, no matter 
what the cause. The government's and managers' willingness to blame the 
fishermen and appease the environmental groups leads the industry to 
believe that congress is so gullible that it is willing to hold no 
managers accountable for fishery management. FISHERMEN HAVE ONLY DONE 
WHAT THE LAW AND MANAGERS HAVE ALLOWED THEM TO DO FOR OVER TWENTY 
YEARS. The fishermen of this nation feel that the partnership created 
to free our waters of foreign fleets has backfired in our faces and the 
government has set us adrift to fend for ourselves. The managers are 
the real culprit of our fishery demise because they are not held 
accountable for their decisions.
    Another perception conveyed by the budget structure that effects 
how the fishermen feel about management and their scientists is the 
fact that a major part of NMFS's budget is derived from Saltonstall/
Kennedy funds which comes from tariffs on imported fish. Instead, their 
money should come from the successful management of US fisheries not 
imported fish. The perception fishermen have is that the NMFS 
deliberately lowers quotas to increase imports.
    The level of science that managers use to determine harvest levels 
could fit into a thimble, and yet they call it the best science 
available. The science community is as scattered as the fishing fleet 
itself. Oceanographers rarely talk to the biologist and visa versa. If 
the science is to be believable then the fishermen need to be an 
integral part of the data collection system. Most managers and 
scientist believe that fishermen can not be trusted to gather the data 
whether they do it alone or with an agency personnel. Data gathered and 
used for fishery evaluation is mostly done by non-fishermen agency 
personnel where very small samples are taken and extrapolated to paint 
a picture of the entire ocean. The data is then manipulated with 
computer syntheses and the final results of these evaluation studies 
are presented as gospel by people that rarely, if ever, go out to sea. 
These results are often at the other end of the spectrum of what 
fishermen see everyday out on the ocean so fishermen have a hard time 
believing what they hear rather than what they see.
    Ocean conditions may also have had a hand in the decline of fish. 
Warming oceans and shifts in the warm spot locations changed the up-
wellings and currents. Fish move when conditions warrant it and can not 
be found in their usual places. Just because fish aren't where they 
were last year, doesn't mean the fish have disappeared off the earth, 
they just moved and left no forwarding address.

Impacts
    Every entity that fishes is impacted by the managers decisions. 
Sport fishermen as well as the commercial fishermen are impacted. The 
coastal communities are also impacted in every way imaginable. 
Fishermen may have brought in 60 million dollars to a community just 
six years ago, but today that same community may only realize 20 
million dollars. That kind of money removed from small communities has 
a very hard impact not only on the community government but also on 
schools, families and most that live in the community whether they fish 
or not.

Short/Long term solutions
    The infrastructures of the communities are melting away. 
Processors, watching the quotas getting lower and lower, have virtually 
removed the latent processing capacity from each community. Successful 
processors have lowered the price of fish which has forced smaller 
processors out of business. The more powerful processors buy out the 
now defunct plants, gut them and close the doors for ever. Jobs are 
lost and never replaced. The structure are left to rot as they refuse 
to sell because if they do they just increase their competition. With 
the competition gone, lower prices are offered to the fishermen for 
their products. When we try to resist the lowering of prices we are 
told the processors can't pay more because imported fish sells for less 
and there is plenty of imported fish coming into this country. U.S. 
exported fish have to compete with countries that subsidize their own 
fish efforts and with countries that have very little environmental 
regulations. The government needs to provide incentives to discourage 
imported fish of undermining the American fish-based economy.
    Our fishery managers have to change their relationship with the 
fishermen. We need to be true partners in fishery management. We need 
to communicate with each other, we need to brainstorm together, we need 
to work together to improve this renewable resource. We need to move 
beyond who is to blame to how can we fix the system. The frustration 
level has reached such a high level that managers are starting to bail-
out of the system and fishermen are going broke and being forced out of 
business.
    We need programs that would re-train fishermen and their families 
for new careers. We need to encourage replacement industries to move to 
these communities to take advantage of these displace workers. We need 
tax relief to these communities so they can take charge of the 
revitalization of their industrial areas that provide good family wage 
jobs.
    We want to thank you for working on amendments to the Capitol 
Construction Fund which was the first step to help bring some relief to 
some that feel they are captured in the industry and can't get out.
    One thing that can be done that is not a solution but rather a 
reaction to management measures, is to reduce the fleet to a level that 
is more consistent with the harvest level. To most of us this is the 
most important thing that needs to be done to ward off bankruptcy of 
fishing business is to help reduce the fleet through a buy-back 
program. While the states need to cap the open access fishery, all of 
the fleet needs to be reduce. There is not enough fish to allocate the 
entire buy-out so some form of federal assistance will be needed.

Future Prevention
    Money must be made available for groundfish research that utilizes 
a true partnership with the scientist and fishermen.

    Senator Wyden. Well, I thank you. You make a number of 
points. I'll have some questions for all of you.
    Clearly, it just defies common sense to not have asked you 
to voluntarily go out and collect overage data. If you just 
listen to some of this, it just takes your breath away that 
it's just so obvious. Some of your people could do it, and some 
of your people couldn't. Some of the data would be good, and 
some of the data would not be so good. But, at least there 
would be an effort to try some fresh approaches; same thing 
with things like these surveillance systems. Again, I don't 
want to advocate that the federal government go out and spend 
vast sums of money on something without documentation, but they 
ought to be working with all of you to test some of these kinds 
of ideas out.
    Your testimony is very good, and I think you heard me ask 
in some detail about this question of putting people on the 
ground. I don't think it's acceptable to say that once or twice 
a year you're going to send somebody to local communities, and 
the rest of the time everybody is going to be at a laptop in 
Seattle.
    So, we'll work closely with you. Excellent testimony and I 
agree with many of the points that you've made.
    Michelle Longo Eder has been helpful to the Committee and 
this Senator on a number of occasions.
    Welcome.

          STATEMENT OF MICHELLE LONGO EDER, SABLEFISH 
FISHERMAN'S WIFE, VICE PRESIDENT OF NEWPORT FISHERMEN'S WIVES, 
   AND MEMBER OF THE WOMEN'S COALITION FOR PACIFIC FISHERIES

    Ms. Longo Eder. Thank you, Senator Wyden.
    For the record, my name is Michelle Longo Eder. And I'm a 
fisherman's wife, as well as a practicing attorney representing 
commercial fishing businesses. I serve as Vice President of 
Newport Fishermen's Wives, and I'm a member of the Women's 
Coalition for Pacific Fisheries.
    Before I get into the bulk of my testimony, Senator, I 
would first like to thank you for your efforts in obtaining an 
exception to the extension of the moratorium on individual 
fishing quotas for fixed-year sablefish on the West Coast. 
Fishermen in Oregon, Washington, and California owe you a debt 
of gratitude for your efforts as to obtaining an exception to 
allow stacking and to also make an exception so that the season 
length, previously 9 days over the last couple of years, will 
be able to be extended. That will help safety. That will help 
quality. It will help price. And it will enable--with the 
declining quotas, it will enable fishing businesses to combine 
some of these permits to reduce negative impacts on other 
groundfish for which there can be bycatch in some of these 
fisheries. And it will also allow us to economically combine 
some of these permits to make it financially a little bit 
better for some of the fisheries. And for that, we thank you. 
You made a commitment to help this fishery. The Pacific Council 
made a commitment to help this fishery, as well. And we are 
very appreciative.
    The sad news, though, is that National Marine Fisheries 
Service has indicated to us that it may have trouble 
implementing stacking for this upcoming season. And I know 
they're going to make their best efforts to do so. They have 
told us that because of problems with the Paperwork Reduction 
Act that they may not be able to implement all of it for 2001. 
That is a discouraging message to us. I know that there are 
Council members and others constituents who are going to meet 
with National Marine Fisheries Service this week. And hopefully 
whatever roadblocks there are are going to be removed, so that 
we can get the relief in this fishery this year that we 
desperately need.
    In a second issue in regard to charter work, we have a 
couple of vessels, a small one, a 40-foot, and little bit 
bigger one, a 66-foot vessels. Both of these vessels have 
previously participated in doing research, both with the State 
of Oregon and their scientists, as well as some charter work 
with the federal government.
    However, that research and those opportunities are few and 
far between. And although there are many individuals who are 
pursuing research programs that can be of value to both the 
fishing industry and the resource as a whole, we don't think 
there are enough of them. And we would support and encourage 
your efforts in encouraging National Marine Fisheries Service 
to respond to industry efforts for collaborative research.
    Having said that, the bulk of my testimony, Senator, will 
relate to capital construction fund issues. My husband, Bob 
Eder, and I own two vessels that are engaged in the groundfish 
fisheries on the West Coast, as well as shrimping and crab. We 
employ seven crew. Sablefish is one of the 83 groundfish 
species that is managed by the Pacific Council. And we use 
species-specific baited traps. Habitat-kind and resource-
friendly in the deployment of this gear, there is virtually no 
bycatch of other species. And we also fish for pink shrimp with 
trawl gear, impacting the groundfish resource, as a result of 
the bycatch of species other than shrimp. My husband also 
fishes with traps for Dungeness crab.
    Bob has been a commercial fisherman for over 25 years. It's 
been his entire career. Our two sons, now 20 and 18, though 
pursuing their further education, have fished since they were 
young boys. Fishing is an indelible part of our family, our 
culture, and our community. We don't intend to stop.
    Given that reality, I would like to direct my comments to 
ways in which the federal government can assist fishing 
businesses and the groundfish resource in the face of declining 
stock assessments.
    Our first priority would be to amend the Merchant Marine 
Code and the Internal Revenue Code to first allow fishermen to 
rollover funds from capital construction fund accounts into 
retirement accounts; second, allow fishermen to use capital 
construction funds to purchase limited entry-permits and/or 
individual fishing quotas or to fund buyback plans; and then 
third, allow fishermen who choose to remove their vessels and 
permits from the fishery to withdraw their funds from the CCF 
accounts without payment of penalty for non-qualified 
withdrawals.
    Why is this important? The capital construction fund was 
created in 1970 to allow vessel owners to defer income tax on 
profits from vessel operations, if the money is set aside in a 
special account that would be used to purchase or reconstruct a 
vessel. This program has had a significant effect on 
capitalization in the fishing industry.
    According to a report in July 1999 of the Federal Fisheries 
Investment Task Force, as of 1995, the last year for which data 
was available from NMFS, over $1.82 billion had been deposited 
into the program and about $1.58 billion withdrawn. There were 
3,500 active CCF agreements, and the net balances were about 
$250 million.
    These balances and the strict requirements for withdrawals 
create too much pressure to make new capital investments in 
fisheries at a time when the fishing industry is generally 
perceived to have excess fishing capacity. Congress could help 
by first removing those penalties for non-qualified withdrawals 
for those who choose to retire vessels and permits from the 
fishery.
    Second, by providing more flexibility in the use of these 
accounts, such as rollovers into IRAs; and third, allowing 
those who choose to stay in fishing a mechanism to fund market-
based solutions, such as individual quotas and buyback plans, 
in order to support fleet reduction.
    In no way am I suggesting a termination of the Capital 
Construction Fund program. Fishing is a capital intensive 
business and requires a large amount of funds be available for 
reconstruction when necessary. Often, the capital requirements 
may exceed a given year's profits. Dangers inherent in fishing 
make it crucial that vessel owners be able to make necessary 
changes to their vessels, regardless of the success or failure 
of a particular year. Vessels can require large, non-
discretionary capital expenditures at unpredictable times. 
Banks aren't always friendly, and they are never fast. Failure 
to promptly make the necessary adjustments to the vessel can 
jeopardize not only the existence of the business, but the 
safety of the crew as well.
    The CCF program has provided a means of meeting the unique 
needs of the fishing industry for the last 30 years. It's now 
time to make some adjustments to the program that will allow 
fishermen to end their careers and to remove capacity from the 
fishery, if that is their choice, but to also provide 
flexibility to those who remain.
    During the last session of Congress, you, Senator, 
introduced a bill that would have allowed both the rollover of 
CCF funds into retirement accounts without penalty and would 
have allowed fishermen to withdraw their funds, if they removed 
their vessel and permits from the fishery.
    This session, I'd like to ask you to go one step further: 
Add to the bill language that will allow fishermen to use the 
funds for permit purchases, quota purchases, and buyback 
programs.
    [The prepared statement of Ms. Longo Eder follows:]

Prepared Statement of Michelle Longo Eder, Sablefish Fisherman's Wife, 
Vice President of Newport Fishermen's Wives, and Member of the Women's 
                    Coalition for Pacific Fisheries

    Mr. Chairman, Senator Wyden and Members of the Committee:
    I am a fisherman's wife, as well as a practicing attorney 
representing commercial fishing businesses. I serve as Vice President 
of Newport Fishermen's Wives and am a member of the Women's Coalition 
for Pacific Fisheries.
    My husband, Bob Eder, and I own two vessels, 66 ft and 40 ft in 
length, that are engaged in the groundfish fisheries on the West Coast. 
We employ seven crew members and in 2000, had a crew payroll in excess 
of $400,000.00.
    We fish for sablefish, one of the 83 groundfish species managed by 
the Pacific Fishery Management Council, using species-specific baited 
traps. Habitat-kind and resource friendly, in the deployment of this 
gear, there is virtually no bycatch of other species. We also fish for 
pink shrimp with trawl gear, impacting the groundfish resource as a 
result of the bycatch of species other than shrimp. My husband also 
fishes with traps for Dungeness crab.
    Bob has been a commercial fisherman for over 25 years. It has been 
his entire career. Our two sons, now 20 and 18, though pursuing their 
further education, have fished since they were young boys. Fishing is 
an indelible part of our family, our culture and our community. We 
don't intend to stop. Given that reality, I would like to direct my 
comments to ways in which the federal government can assist fishing 
businesses and the groundfish resource in the face of declining stock 
assessments.
    Amend the Merchant Marine Code and the Internal Revenue Code to:

    1) Allow fishermen to rollover funds from Capital Construction 
Fund accounts into Retirement accounts;

    2) Allow fishermen to use Capital Construction Funds to purchase 
limited entry permits and/or individual fishing quotas or to fund 
buyback plans

    3) Allow fishermen who choose to remove their vessels and permits 
from the fishery to withdraw their funds from the accounts, without 
payment of penalty for a non qualified withdrawal;

    Why is this important? The Capital Construction Fund was created in 
1970 to allow vessel owners to defer income tax on profits from vessel 
operations if the money was set aside in a special account that would 
be used to purchase or reconstruct a vessel. This program has had a 
significant effect on capitalization in the fishing industry.
    According to a report in July 1999 of the Federal Fisheries 
Investment Task Force, as of 1995, the last year for which data was 
available from NMFS, over 1.82 billion had been deposited in the 
program and about 1.58 billion withdrawn. There were 3,500 active CCF 
agreements, and the net balances were about 250 million dollars.
    These balances, and the strict requirements for withdrawals, create 
too much pressure to make new capital investments in fisheries at a 
time when the fishing industry is generally perceived to have excess 
fishing capacity. Congress can help by first removing those penalties 
for non qualified withdrawals for those who choose to retire vessels 
and permits from the fishery; secondly, by providing more flexibility 
in the use of these accounts, such as rollovers into retirement 
accounts; and third, allowing those who choose to stay in fishing a 
mechanism to fund market based solutions to fleet reduction.
    In no way am I suggesting a termination of the Capital Construction 
Fund program. Fishing is a capital intensive business and it requires 
large amounts of funds to be available for reconstruction when 
necessary. Often the capital requirements may exceed a given year's 
profits. Dangers inherent in fishing make it crucial that vessel owners 
be able to make necessary changes to their vessels regardless of the 
success or failure of a particular year. Vessels can require large non-
discretionary capital expenditures at unpredictable times. Banks aren't 
always friendly, and they are never fast. Failure to promptly make the 
necessary adjustments to the vessel can jeopardize not only the 
existence of the business, but the safety of the crew as well.
    The CCF program has provided a means of meeting the unique needs of 
the fishing industry for the last 30 years. It's now time to make some 
adjustments to the program that will allow fishermen to end their 
careers and remove capacity from the fishery, if that is their choice, 
but to also provide flexibility to those who remain.
    During the last session of Congress, Senator Wyden introduced a 
bill that would have allowed both the rollover of CCF Funds to 
retirement accounts without penalty, and would have allowed fishermen 
to withdraw their funds if they removed the vessel and the permits from 
the fishery. This session, I'd like to ask you to go one step further-
add to the bill language that will allow fishermen to use the funds for 
permit purchases, quota purchases, and buyback programs. Then pass it.
    Thank you for the opportunity to testify.

    Senator Wyden. Let us do this in the interest of time. I 
will make a commitment to you to look at that.
    Ms. Longo Eder. Thank you.
    Senator Wyden. Mr. Brown--again, I'm going to have to limit 
you and Mr. Moore, just because I want to give the folks in the 
audience a chance to speak. In fact, I think what I'm going to 
do with this panel is waive questions, as well, to give time 
for the audience.

       STATEMENT OF RALPH BROWN, GROUNDFISH TRAWLER AND 
                     PACIFIC COUNCIL MEMBER

    Mr. Brown. Thank you. I'm Ralph Brown. I currently own two 
trawlers. And I have been a member of the Pacific Fishing 
Management Program for about 4 years. It's been observed that 
the problems with the groundfish started at about the time I 
got on the Council. That means I'm to blame. So if you want to 
know what happened, that's apparently what happened. So if me 
getting off it would help, I'll certainly volunteer to be part 
of that solution. It hasn't been fun.
    Earlier I read over my written testimony. It's just 
absolutely inadequate. And I'm going to try to supplement that 
a little bit.
    A year ago, a group of us got together to try to figure out 
what to do over the short term with this groundfish fishery. We 
came up with essentially a three-legged approach. The first 
would be improve research. The second would be community 
assistance. And the third is fleet reduction. It's absolutely 
imperative.
    Just before I came up, I downloaded from the Pacific 
Fishery Management Council's site an economic--a summary of the 
economic subcommittee's scientific and statistical committee 
report on overcapitalization on the groundfish issue. I'd like 
to read two statements that I think are actually in a 
memorandum that was included with the report. The first, 
``Overcapitalization is the single most serious problem facing 
the groundfish fishery.'' The second statement, ``Problems 
associated with overcapacity will not be resolved by waiting 
for vessels to leave the fishery.''
    The reason for that last statement have to do with the 
latent capacity we dealt with earlier. And I don't think it's a 
secret to most of you that I'm a proponent of a buyback 
proposal that would not only buy groundfish permits, but buy 
vessels, groundfish permits, and any associated state permits 
that might go with that.
    I'm not going to go into great detail on what the elements 
of the program are. I am asking for your help in trying to get 
this implemented. I will address the one question you asked 
earlier, ``Why do I think this program will work, when other 
buyback programs haven't worked around the country?'' And the 
primary reason is simply the degree of capacity we're taking 
out compared to other programs around the country.
    The main program that people use for examples is what 
happened on the East Coast, where the buyback program really 
didn't have much impact. But we need to look at the absolute 
numbers. You'll hear from the program people that they took out 
20 percent of the active capacity. But keep in mind that they 
say 20 percent of the active capacity. What they ignore is the 
1,500 other permits down there waiting to come in. The 
difference in this program we have--we don't have 2000 permits 
out there. We have a total of 500 permits, roughly, in the 
groundfish fishery here. And our proposal is actually take two-
thirds of those permits out, two-thirds, not half.
    The degree of reduction is so much greater than any other 
proposal, any other program, that we are taking the latent 
capacity out with it. We're also, in our program, preventing 
spill-over into other fisheries, which was contentious in a 
previous program that we had.
    Why one third rather than one half as the Council Strategic 
Plan? The Council Strategic Plan basically said it takes about 
half to get to where we are now. We think we need to look ahead 
at some things that are coming down the road that we think are 
likely to happen that will further reduce the amount of 
available resource for the fleet. And we need to plan for 
those.
    So we started with the half, and we reduced it by an 
additional 20 percent to account for the need for reserves 
(Marine Reserves) that we think will happen. We've reduced the 
other amount to account for the fleet funding observers. We 
reduced an additional amount to account for the fleet funding 
part of the science program. And we reduced an additional 
amount in order to simply return some dollars to the U.S. 
Treasury. When you get finished with all that, you end up with 
a third.
    We fully believe that eventually this fleet is going to 
have to basically fund its own management, or it's not going to 
be a net gain to--the fishery will not be a net gain to the 
United States. It will be a net loss. And we have to become a 
net gain. I'll stop at this point.
    [The prepared statement of Mr. Brown follows:]

   Prepared Statement of Ralph Brown, Groundfish Trawler and Pacific 
                             Council Member

    Good Afternoon Members of the Committee,
    I am Ralph Brown, from Brookings, Oregon. I have been involved with 
the fishing industry since I was a child, and I currently own two 
trawlers that fish out of the Port of Brookings-Harbor. I have also 
been a member of the Pacific Fishery Management Council for the past 
four years.
    Like every one involved with the groundfish fishery, I have spent a 
great amount of time thinking about our problems and I am not really 
sure that I know what happened.
    Because we know that what we did do hasn't worked, we need to be 
open to other kinds of management measures and avoid the temptation to 
do ``more of the same. I have several ideas for approaches that we 
might try, but in the interest of time I will not go into them and 
instead focus on the one program that I think could accomplish the most 
at the least cost.
    We need to reduce this fleet. Capacity reduction was first 
identified as the councils top priority in 1994. Our strategic plan 
identified capacity reduction as the top priority. Last week our 
strategic plan implementation team met for the first time and once 
again recommended that capacity reduction be the highest priority 
issue. In fact, capacity reduction has been named the number one 
priority in nearly every fishery in the world, and yet it is the one 
aspect of management that this council has little ability to address. 
We need your help on this.
    Specifically, I am asking for your help in getting a fleet buy-back 
proposal implemented.
    We propose that the groundfish fleet be reduced to one third of its 
current size by purchasing the vessels and all associated permits, 
including permits for state managed fisheries. We propose that the 
funding for this program be share between the federal government and 
the industry with half coming from each. The federal government would 
need, additionally, to provide a loan to the industry that would be 
paid back over time in order for the program to be implemented quickly.
    The industry portion of the program would be split among the 
beneficiaries of the program. The primarily beneficiaries are the 
pacific groundfish, pacific pink shrimp, and dungeness crab fisheries. 
While the specific amounts that each would be required to pay could 
still be subject to negotiations, the general theme is that each would 
pay relative to the benefit received.
    At this time we estimate the cost of the program at around 50 
million dollars but we need to do much more analysis to better pinpoint 
the true cost.
    We know that buy-back proposals have not been very successful in 
some areas of the country. The primary reason for this is that they 
have not been large enough to remove enough of the capacity in a 
fishery to achieve the intended benefit. We believe that this program 
is.
    In the past the trawl fleet had proposed that an industry funded 
buy-back be established that would have only removed groundfish 
permits. Opponents to that proposal pointed out that since vessels 
would not be removed they would go into other fisheries. We have not 
only addressed that issue, but are actually proposing that other fleets 
be reduced along with the groundfish fleet.
    We are asking for the government to help fund part of this program 
because frankly, the industry doesn't have the ability to do it alone 
given the current state of the fishery.
    We first publicly presented this proposal in November at the 
Pacific Fishery Management Council Meeting. We have tried to get it to 
every segment of the fishery along the coast. The comments that we have 
received back have been overwhelmingly supportive. Many of these 
comments were from people that opposed our last buy-back proposal. We 
literally have only heard of one negative comment.
    In the interest of time I won't discuss the benefits that we 
believe could be derived from this program but I do want to shortly 
address the cost. We believe that this could be the cheapest thing that 
the government could do to fix problems in the fishing industry. I will 
use one example to demonstrate.
    Senator Wyden was able to secure funding for an observer program 
last year in the amount of 2.5 million dollars. This is a program that 
we all agree that we need and we thank him for this. If that is all we 
do however, after ten years we will have spent 25 million dollars and 
still have the need for federal assistance for observers, as we will 
have done nothing to make the fleet more able to bear the cost of 
observers. If instead we spend the 25 million on fleet reduction, we 
can make the fleet profitable enough that they shoulder the cost of 
observers and therefore get fleet reduction and observers both.
    We have actually tried to plan a level of fleet reduction such that 
the fleet would have the ability to shoulder more of the cost of 
management than just the observer program but I think that this example 
is enough to demonstrate the cost effectiveness of the program.
    In closing I know that this was an extremely short presentation of 
a big idea, and I would be happy to answer any questions. I would be 
extremely happy to work with your staff members to make this happen, 
and once again ask for your help on this.
    Thank you

          STATEMENT OF ROD MOORE, EXECUTIVE DIRECTOR, 
           WEST COAST SEAFOOD PROCESSORS ASSOCIATION

    Mr. Moore. Thank you, Senator. For the record, my name is 
Rod Moore. I'm Executive Director of the West Coast Seafood 
Processors Association. Our members process the majority of the 
groundfish, Dungeness crab, pink shrimp, sardines and squid 
that are landed on the West Coast.
    We talk a lot about disaster. What are we talking about? 
There's two parts to it, really. Part one is that we don't know 
how many fish are out there, and we don't even have the tools 
to figure out how many fish are out there.
    Part two is the suite of economic and social effects that 
occur from precautionary management that's adopted in response 
to the fact that we don't know how many fish are out there. So 
it's a two-part problem, and it's going to require a whole 
multitude of solutions, many of which we've heard today. That's 
one of the things about being last. A lot of people have 
already said things that you were going to put in your 
testimony. By the way, for the record, I do have some written 
testimony for the record, Senator----
    Senator Wyden. Without objection, it will be entered in its 
entirety.
    Mr. Moore. Thank you, Senator.
    Reduced harvests not only affect fishermen, they also 
affect seafood processors, my members, who are integral part of 
the communities in which they operate. Workers are laid off. 
Capital investments are kept idle. Utility usage--lights water, 
power--reduced, which could be great since the Governor is 
calling for energy conservation, but I don't think he means 
this way.
    But that exacerbates the pricing structure problems for 
local utility companies and residential customers. Thinking 
about groundfish processing, you have to keep in mind that the 
same plants that process groundfish also process crab, shrimp, 
and other species. If those processors disappear, it will not 
only be the groundfish fleet that has no place to go. It'll be 
the crab fleet and the shrimp fleet. Groundfish is the keystone 
that holds the West Coast fishing communities together. Take it 
away and everything collapses.
    So what do we do? Well, I have a few suggestions that I'll 
summarize here briefly. First of all, we have to spend more 
effort on understanding ocean environmental processes. There's 
a lot of talk about regime shifts and things going on in the 
ocean and so forth and so on. We're not paying a whole lot of 
attention to it. It's about time--especially in regard to 
Pacific groundfish--that we start looking at some of those 
things and seeing if by looking at ocean productivity we can 
have better predictions on what's going to happen in the future 
and adjust our harvest levels accordingly.
    We need to get serious about collaborative research between 
the industry and the National Marine Fisheries Service. Last 
August, on behalf of several industry groups, I presented 
proposals asked for by the National Marine Fisheries Service 
and the Northwest Fisheries Science Center. After talking to 
them about it for quite awhile, they sent it on to Silver 
Spring. It's now disappeared into a black hole. How do you 
expect the industry to have any respect for collaborative 
research and the National Marine Fisheries Service, if they get 
this kind of attention? It's similar to what we're facing with 
the disaster relief fund that you covered earlier.
    We need to rectify the tremendous imbalance between 
spending on salmon recovery and spending on groundfish 
conservation and management. I don't want to impugn those 
interested in salmon, but a nearly 1,000:1 ratio of spending on 
salmon recovery versus spending on groundfish conservation and 
management is somewhat embarrassing. As one of my members put 
it, with the amount we're spending on salmon recovery in the 
Columbia and Snake systems we could dig a whole new river, free 
of dams, pollution, and so forth, and recover the salmon. 
Congress and the new Administration need to kind of get their 
priorities straightened out on this.
    We already talked about getting the money for disaster 
relief, and I appreciate the comments that you made and your 
pointed questioning of Ms. Darm, in terms of making sure we get 
the money for disaster relief, Senator. We appreciate it.
    We need to improve data collection. On the good news front, 
the Northwest Fisheries Science Center should be commended for 
pursuing efforts to develop electronic logbooks and recording 
systems. The Center has also taken steps to improve collection 
and analysis of economic and social data, an area in which this 
region is lacking. Unfortunately, those efforts will be for 
naught, unless follow-through funding is made available.
    There are other--however, there are other data collection 
problems that need to be fixed, and most of these are at the 
state level, so I won't go into them here. They're covered in 
my written testimony.
    We need to fix the law so it reflects reality. You can't 
simultaneously recover two or more species of fish that compete 
for the same ecological niche. You can't recover a stock to 
levels that are no longer supported by existing carrying 
capacity. You can't precisely calculate MSY and establish it as 
a constantly fixed point with no allowance for natural 
fluctuation. Unfortunately, that's what the law and the 
implementing regulations expect us to do.
    Our Association, along with several other groups, including 
commercial and recreational interests around the country, 
developed some proposed changes to the Magnuson-Stevens Act 
which addressed these problems; they are attached to my 
testimony. And I would like to point out, in reference to Rod 
Fujita's remarks, that of the 14 members of the Pacific Fishery 
Management Council, there's one working commercial fisherman, 
one working processor, and two working charter operators. So 
this strange influence that the industry seems to have over the 
Council process kind of baffles me.
    On the issue of individual quotas, we need to address them, 
but we need to recognize the investments made by processors and 
keep them economically viable. We appreciate, as Michelle said, 
your efforts on fixed gear sablefish. Unfortunately, I know 
your efforts on the processor side of that were unsuccessful, 
due to objections from some of your other colleagues that 
didn't get straightened out until the last minute. But we 
appreciate your work on this, Senator. We need to look at both 
sides of the equation, both the harvesting side and the 
processing side.
    And finally, Senator, I know this is an issue that you're 
familiar with, because you and Senator Smith have helped us in 
the past. This is the issue of the discriminatory tariff that 
the European Union imposes on pink shrimp. I know you've tried 
very hard to work with the existing U.S. trade representative. 
We now have a new one coming on board. And perhaps during his 
confirmation hearing he might be asked about this. We'd 
appreciate that.
    Thank you, Senator. I'll save the rest.
    [The prepared statement of Mr. Moore follows:]

Prepared Statement of Rod Moore, Executive Director, West Coast Seafood 
                         Processors Association

    Mr. Chairman, Members of the Committee, my name is Rod Moore. I am 
the executive director of the West Coast Seafood Processors 
Association. WCSPA represents seafood processors and associated 
businesses in Oregon, Washington, and California. Collectively, our 
members process the majority of the Pacific groundfish, Dungeness crab, 
pink shrimp, squid, and sardines landed in those states. I also 
currently serve as the chair of the Pacific Fishery Management 
Council's Groundfish Advisory Subpanel and as Industry Vice-Chair of 
the Department of Commerce's Marine Fisheries Advisory Committee 
(MAFAC).
    When looking at the groundfish ``disaster'' on the west coast, 
there is a natural tendency to compare it to events that occurred in 
the northeastern United States over the past several years. There are 
similarities: the social and economic effects are certainly the same 
and the remedies sound familiar. However, the underlying problems that 
caused the ``disaster'' are somewhat different.
    New England has been blessed with a strong scientific 
establishment, a wealth of historic data on fish populations and 
environmental conditions, and support--albeit recent--for cooperative 
research (there are advantages to being close to Washington, D.C.). On 
the west coast, however, we have been in the scientific Dark Ages, 
still using witchcraft to try to predict what is happening in a complex 
ecosystem. It is time for the Renaissance to begin.
    Of the 82 species of Pacific groundfish managed under the Pacific 
Fishery Management Council's groundfish fishery management plan, we 
have stock assessments on fewer than 25 percent. Most of those 
assessments are conducted once every three years; for some species, 
there has been only one assessment and for most, none. Our fisheries 
surveys have been conducted every three years and most of those did not 
cover the entire coast. In fact, the area south of Point Conception in 
California has never been surveyed to the best of my recollection. 
While efforts have been made recently to conduct annual surveys, the 
results of those annual efforts are still not fully utilized, as there 
is a need to reconcile different survey methods, gear, and vessels 
used.
    The result is that we are making management decisions based on 
conditions that existed in the ocean five to ten years ago.
     Just to give an example, the allowable harvest levels for Dover 
sole in 2001 are based on a stock assessment done in 1998, which in 
turn used data from 1997 and before. Now, compound this with the 
occurrence of El Nino and La Nina events and what appears to be a shift 
in ocean environmental regimes, and the result is that we don't really 
have the slightest idea of what we are doing.
    Of course, the management response to this tremendous uncertainty 
is to use a precautionary approach, to be conservative in response to a 
lack of good information. In practical terms, reduce harvest levels.
    And, to further confuse the problem, add in a decision by the 
Council to change its basic harvest policy in terms of how MSY is 
calculated and statutory changes which were both written and 
implemented in a way that defies logic and you have a true recipe for 
``disaster.''
    What's even more amazing is that this ``disaster'' occurred in a 
fishery that has been subject to fairly strict management and in which 
harvest levels were set based on the recommendations of the scientists 
themselves. Here is where there is a major divergence from the 
situation in New England, which for many years had no upper bounds on 
its harvest levels, no catch reporting, and little enforcement and 
where--some contend--scientific advice was ignored. On the west coast, 
we tried to do things right.
    So what are the practical effects of what's gone on? Reduced 
harvests means lower income for vessels and the communities in which 
those vessels are based. It means vessels will attempt to find other 
fisheries in which to participate, risking a domino effect of 
overcapitalization. It means social and economic burdens that others 
can better describe than can I.
    Reduced harvests also affect seafood processors; my members, who 
are an integral part of the communities in which they operate. Workers 
are laid off; capital investments are kept idle. Utility usage--lights, 
water, and power--is reduced, exacerbating pricing structure problems 
for local utility companies and their residential consumers.
    Our Association took an informal survey of our members, asking them 
to compare certain economic yardsticks between 1997 and 2000. The 
complete results are not yet available, but the information we have so 
far is both interesting and chilling:

  <bullet> a 7 percent reduction in the number of filleting stations 
        available;

  <bullet> a 44 percent reduction in the number of available filleting 
        stations used;

  <bullet> a 20 percent increase in the average cost to produce 
        finished groundfish product;

  <bullet> a 34 percent reduction in the number of skilled employees; 
        and

  <bullet> a 14 percent reduction in the number of unskilled employees.

    And, while this is looking only at groundfish processing, you need 
to keep in mind that the same plants that process groundfish also 
process crab, shrimp, and other species. If those plants disappear, it 
will not only be the groundfish fleet that has no place to go, it will 
be the crab fleet and the shrimp fleet as well. Groundfish is the 
keystone that holds the west coast fishing community together. Take it 
away, and everything collapses.
    So what do we do to try and improve conditions? There are so many 
things that can and should be done, it's hard to know where to begin. 
Some of the problems can be addressed by NMFS, some by the Congress, 
some by the States, and some by the industry. I will try to list them 
here:

    1. LExpend more effort on understanding ocean environmental 
processes.

    NOAA has a long term research effort to examine ocean conditions 
and their effect on fish productivity, known as GLOBEC. On the east 
coast, GLOBEC is looking at groundfish; in Alaska, GLOBEC is looking at 
groundfish; and on the west coast? GLOBEC is looking at salmon. Now, 
there is certainly need to look at the effect of ocean productivity on 
salmon, but to tally ignore Pacific groundfish? This makes no sense 
whatsoever. Perhaps we could actually save a few taxpayer dollars if we 
combined Pacific groundfish into the mix.

    2. Get serious about collaborative research between the industry 
and NMFS.

    Last summer, a professor from Oregon State University hosted an 
international meeting on collaborative research. At the meeting, I 
volunteered on behalf of the Oregon seafood industry to propose a 
process by which NMFS and the industry could evaluate collaborative 
research projects so that we could all be comfortable that projects 
being proposed were necessary, cost effective, and would not waste 
scarce research dollars. That proposal was submitted to NMFS on August 
1, 2000. To date, we have received some favorable initial response from 
the Northwest Fisheries Science Center, but other than that--nothing. 
As far as we know, the proposal--and again, this was a proposal simply 
to establish a review process--is languishing somewhere in the bowels 
of Silver Spring. Mr. Chairman, how can the industry expect to have any 
confidence in working with NMFS if we get treated like this? Many of us 
have volunteered time, money, and labor to see if we can get some more 
useful data. We get lots of praise for doing so, but little ever gets 
done. It's time for NMFS to be serious about collaborative research; 
they can't afford not to be.

    3. Rectify the tremendous imbalance between spending on salmon 
recovery and spending on groundfish conservation and management.

    I've already given you the horror stories on lack of data; some of 
you have heard it before. I don't mean to impugn those interested in 
salmon, but a nearly 1000:1 ratio of spending on salmon recovery versus 
spending on groundfish conservation and management is embarrassing. As 
one of my members put it, for the amount we're spending on salmon 
recovery in the Columbia/Snake system, we could dig a whole new river, 
free of dams, pollution, etc. It is only in the last few years that we 
have seen even meager increases in the groundfish research budget, 
thanks to the work of the Oregon delegation. The Congress and the new 
administration need to get their priorities straightened out.

    4. Show us the money.

    In FY 2000, $5 million was appropriated in emergency funding for 
groundfish disaster relief. We have yet to see a penny of it. If this 
were a flood or a hurricane or a tornado, Oregon, Washington, & 
California would be swarming with bureaucrats from FEMA, SBA, and who 
knows where else. Instead, we are met with deafening science while real 
people needs go unmet.

    5. Improve data collection.

    On the ``good news'' front, the Northwest Fisheries Science Center 
should be commended for pursuing efforts to develop electronic logbooks 
and reporting systems. The Center is also taking steps to improve its 
collection and analysis of economic and social data, an area in which 
this region is lacking. Unfortunately, those efforts will be for naught 
unless follow-through funding is made available.

    On the ``bad news'' front, it is time to start fixing data 
collection problems. I am tired of getting calls from my member plants 
asking why there are seven data samplers hanging around to collect 
salmon data, but no one ever comes around to collect groundfish data. 
I'm tired of hearing from the Oregon Department of Fish and Wildlife 
that ``we've got federal money for salmon data collection but none for 
groundfish.'' And I'm very tired of listening to discussions before the 
Groundfish Management Team and the Council every year on how the 
recreational catch data is unreliable and ``we can't do any in-season 
management'' of the recreational fishery. Recreational fishermen are as 
concerned as commercial fishermen about sound conservation and 
management. NMFS, the States, the Council, and the Pacific Marine 
Fisheries Commission need a concerted effort to get their act together.

    6. Fix the law so it reflects reality

    This suggestion is in two parts: biological and economic. From the 
biological perspective, the entire complex of overfishing/rebuilding 
provisions needs to be modified. You can't simultaneously ``recover'' 
two or more species that compete for the same ecological niche. You 
can't ``recover'' a stock to levels that are no longer supported by 
existing carrying capacity. You can't precisely calculate MSY and 
establish it as a constant, fixed point, with no allowance for natural 
fluctuation. Yet that's what the law and the implementing regulations 
expect us to do. Our Association, along with several other groups of 
commercial and recreational interests around the country, developed 
some proposed changes to the Magnuson-Stevens Act which address these 
problems. They are included as an attachment to my testimony.

    On the economic side, you will hear from representatives of the 
harvesting sector on the need for and suggestions on how to accomplish 
a vessel and permit buyback program. While that will help resolve some 
of the problems facing the harvesting sector, it does nothing to 
address the other half of the fisheries equation--the processing 
sector.

    At some point, this committee needs to address the long term issue 
of an individual quota (IQ) system. An essential part of any IQ system 
will be a need to recognize the investments made by processors and to 
keep them economically viable. This can be done in a number of ways: 
the ``two-pie'' proposal advocated by the Bering Sea crab fleet; a 
means of establishing cooperatives such as was provided for the Alaskan 
pollock fleet under the American Fisheries Act; creating a closed class 
of processors such as we suggested in conjunction with the fixed gear 
sablefish fishery on the west coast. All of these ideas must be on the 
table. Simply providing for the economic welfare of the fishing fleet 
while leaving the processing sector in economic disarray is not going 
to solve the problem.

    7. Get serious on free trade

    One of the few alternatives available to groundfish trawl vessels 
is the pink shrimp fishery. The shrimp found off our coast--Pandalus 
jordani--compete in the marketplace with other cold water shrimp--
Pandalus borealis--caught in Canada and Scandinavia. We used to have a 
competitive market in Europe for our shrimp. However, after certain 
Scandinavian countries joined the European Union, we found that their 
shrimp could enter Europe at a duty rate of 7 percent, while our shrimp 
enters at a duty rate of 20 percent. To make matters worse, eastern 
Canada has enjoyed several successive years of high shrimp harvests. 
While Canada was initially able to take advantage of a special 
exception for a certain amount of their shrimp to enter Europe at a 
reduced duty, that quota is now being filled by Iceland and Greenland, 
leaving Canadians no choice but to put their shrimp in the U.S. market. 
Thus, the discriminatory tariff practices of the European Union 
threaten not only one, but two markets available for west coast pink 
shrimp. Perhaps when the new U.S. Trade Representative comes before the 
Senate for confirmation, the urgency of resolving the European shrimp 
issue could be stressed.

    I hope this testimony and these suggestions will be helpful to the 
Committee. I would be happy to answer any questions. Thank you.
                                 ______
                                 
Changes to the Magnuson-Stevens Act Proposed by the Seafood Coalition
Best Scientific Information Available
    Section 3 (16 U.S.C. 1802) is amended by inserting a new paragraph 
(_) as follows:

    ``(_) The term `best scientific information available' means 
information that--

    ``(A) is directly related to the specific issue under 
consideration;
    ``(B) is based on a sufficient statistical sample such that any 
conclusions drawn are reasonably supported and not mere speculation;
    ``(C) is consistent with information that has been peer-reviewed 
and published in applicable and appropriate scientific publications;
    ``(D) has been collected within a time frame that is reasonably 
related to the specific issue under consideration;
    ``(E) is consistent with information that is available from other 
reliable sources;
    ``(F) has been collected and presented in a manner that is not 
calculated to favor any particular point of view; and
    ``(G) may consider, but is not based exclusively on, anecdotal 
information collected from the harvesting and processing of fish.

    ``Information that does not meet this definition shall not provide 
the basis for fishery management decisions and shall not be accorded 
deference during judicial review.''

Peer Review
    Section 302(g) (16 U.S.C. 1852(g)) is amended by adding the 
following--

    ``(6) Each Council shall establish one or more scientific review 
committees to conduct peer reviews of all stock assessments prepared 
for fisheries under the Council's jurisdiction. Committees established 
under this paragraph shall, at a minimum, consist of at least one 
member from each of the committees established under paragraphs (1) and 
(3) of this subsection, one member who is not affiliated with the 
authors of the stock assessments under review, and such other members 
as the Council considers appropriate.''

    Section 302(h) (16 U.S.C. 1852(h)) is amended--

    (1) by striking ``and'' at the end of paragraph (5);
    (2) by redesignating paragraph (6) as paragraph (7); and
    (3) by inserting the following--

    ``(6) conduct a peer review of any stock assessment prepared for a 
fishery under its jurisdiction, utilizing the committee established 
under subsection (g)(6); and''

Essential Fish Habitat
    Section 3 (16 U.S.C. 1802) is amended by inserting a new paragraph 
(--) as follows:

    ``(_) The term ``habitat areas of particular concern' means an 
area that is a discrete vulnerable subunit of essential fish habitat 
that is required for a stock to sustain itself and which is designated 
through a specified set of national criteria which includes, at a 
minimum, a requirement that designation be based on information 
regarding habitat-specific density of that fish stock, and growth, 
reproduction, and survival rates of that stock within the designated 
area.''

    Section 303(a)(7) (16 U.S.C.(a)(7)) is amended to read as follows:

    ``(7) describe and identify essential fish habitat and habitat 
areas of particular concern for the fishery based on the guidelines 
established by the Secretary under section 305(b)(1)(A), minimize to 
the extent practicable adverse effects on habitat areas of particular 
concern caused by fishing which prevent a stock of fish from sustaining 
itself on a continuing basis, and identify other actions to encourage 
the conservation and enhancement of such habitat.''

    Section 305(b)(1) (16 U.S.C. (b)(1)) is amended by inserting ``and 
habitat areas of particular concern'' following ``essential fish 
habitat'' each time it appears in subparagraphs (A) and (B).
Overfishing/Rebuilding
    Section 3 (16 U.S.C. 1802) is amended--

    (1) by amending paragraph (29) to read as follows:

    ``(29) The terms `overfishing' and `overfished' mean a rate or 
level of harvest that jeopardizes the ability of a stock of fish to 
produce maximum sustainable yield on a continuing basis.''; and (2) by 
inserting the following:

        ``(_) The term `carrying capacity' means the maximum 
        population level of a stock of fish that the current state of 
        the environment will support while allowing for the removal of 
        surplus production.''
        ``(_) The term `maximum sustainable yield' means the largest 
        annual catch or yield in terms of weight of fish caught by both 
        commercial and recreational fishermen that can be continuously 
        taken from a stock under existing carrying capacity, and which 
        is adjusted as carrying capacity changes.''
        ``(_) The term `surplus production' means the biomass of fish 
        that can be removed from a stock of fish without harming the 
        stock's ability to sustain itself.''

    Section 304(e) (16 U.S.C. 1854(e)) is amended--

    (1) in paragraph (1)--

        (A) by striking ``(1)'' and inserting in lieu thereof 
        ``(1)(A)'';
        (B) by striking ``fisheries'' each time it appears and 
        inserting in lieu thereof ``stocks of fish'';
        (C) by amending the last sentence to read as follows--

        ``A stock of fish shall be classified as approaching a 
        condition of being overfished if, based on the best scientific 
        information available and other appropriate factors, the 
        Secretary estimates that the stock of fish will become 
        overfished within two years.''; and
        (D) by adding at the end the following--

        ``(B) If the Secretary determines that insufficient 
        information is available on which to conclude that a stock of 
        fish is approaching a condition of being overfished, the 
        Secretary shall immediately notify the appropriate Council and 
        within six months of such notification implement a cooperative 
        research program designed to provide the information needed to 
        determine whether or not the stock of fish is approaching a 
        condition of being overfished.'';

     (2) by amending paragraph (2) to read as follows--

        ``(2) If the Secretary determines at any time that a stock of 
        fish is overfished, the Secretary shall immediately notify the 
        appropriate Council and request that action be taken to end 
        overfishing and to implement conservation and management 
        measures to rebuild the stock of fish. In the case of a fishery 
        which harvests more than one stock of fish, such conservation 
        and management measures shall not require that fishing be 
        reduced for those stocks of fish which are not overfished. The 
        Secretary shall publish each notice under this paragraph in the 
        Federal Register.'';

    (3) in paragraph (3)--

        (A) by striking ``Within one year'' and inserting in lieu 
        thereof ``Within three years''; and
        (B) in subparagraph (A) by striking ``to end overfishing'' and 
        inserting in lieu thereof ``to address overfishing'';

    (4) in paragraph (4)--

        (A) by striking ``For a fishery that is overfished'' and 
        inserting in lieu thereof ``For a fishery involving a stock of 
        fish that is overfished''; and
        (B) by amending subparagraph (A) to read as follows--

        ``(A) specify a time period for addressing overfishing and 
        rebuilding the overfished stock or stocks in the fishery that 
        is as short as possible, taking into account the status, 
        biology, and carrying capacity of any overfished stocks, the 
        best scientific information available, the needs of fishing 
        communities, recommendations by international organizations in 
        which the United States participates, and the interaction of 
        the overfished stock or stocks within the marine ecosystem;'';

    (5) in paragraph (5)--

        (A) by striking ``within the one-year period'' and inserting 
        in lieu thereof ``within the three year period'';
        (B) by striking ``that a fishery is overfished'' and inserting 
        in lieu thereof ``that one or more stocks of fish in a fishery 
        are overfished''; and
        (C) by striking ``regulations to stop overfishing'' and 
        inserting in lieu thereof ``regulations to address 
        overfishing'';

    (6) in the second sentence of paragraph (6), by striking ``to stop 
overfishing of a fishery'' and inserting in lieu thereof ``to address 
overfishing of a stock or stocks of fish in a fishery'';

    (7) in paragraph (7)--

        (A) in the first sentence by inserting ``and the best 
        scientific information available related to the fishery 
        management plan, plan amendment, or regulations'' before ``at 
        routine intervals'';
        (B) in the second sentence by striking ``ending overfishing'' 
        and inserting in lieu thereof ``addressing overfishing, 
        sufficient data collection,'';
        (C) by striking ``or'' at the end of subparagraph (A);
        (D) by striking the period at the end of subparagraph (B) and 
        inserting ``; or''; and
        (E) by adding a new subparagraph as follows--

        ``(C) design and implement a cooperative program to collect 
        the best scientific information available for such fish 
        stocks.''.
Fish as Food
    Section 2(a) (16 U.S.C. 1801(a)) is amended by adding the 
following:

        ``(11) Fish are an important natural renewable resource of 
        food and fisheries have played a traditional and essential role 
        in providing high quality protein for human use.
        ``(12) Fish are an important source of essential nutrients, 
        particularly Omega-3 fatty acids, and there is agreement among 
        medical scientists that some of the world's most serious 
        diseases can be attenuated by increased fish consumption.''

    Section 2(b) (16 U.S.C. 1801(b)) is amended--

        (1) by striking ``and'' at the end of paragraph (6);
        (2) by striking the period at the end of paragraph (7) and 
        inserting ``; and''; and
        (3) by adding at the end the following:

        ``(8) To promote fisheries conservation and management that 
        will enhance our nation's food supply, income, and economic 
        growth.''

    Section 2(c) (16 U.S.C. 1801(c)) is amended--

        (1) by striking ``and'' at the end of paragraph (6);
        (2) by striking the period at the end of paragraph (7) and 
        inserting ``; and''; and
        (3) by adding at the end the following:

        ``(8) that conservation and management measures shall 
        contribute to the food supply, economy, and health of the 
        Nation.''
Observers
    Section 303(a) is amended--

    (1) by striking ``and'' at the end of paragraph (13);
    (2) by striking the period at the end of paragraph (14) and 
inserting ``; and''; and
    (3) by adding the following--

        ``(15) to the extent that observers are deployed on board 
        United States fishing vessels or in United States fish 
        processing plants under the provisions of a fishery management 
        plan or regulations implementing a fishery management plan, 
        comply with the goals and objectives required under subsection 
        (e).''

    Section 303 is further amended by adding the following--

    ``(e) OBSERVER PROGRAMS.--

        ``(1) Prior to establishing a program under this Act which 
        utilizes observers deployed on United States fishing vessels or 
        in United States fish processing plants, the Council with 
        jurisdiction over the fishery (or in the case of a highly 
        migratory species fishery, the Secretary) in which the 
        observers will be deployed shall establish a set of goals and 
        objectives and an implementation schedule for the program and a 
        statistically reliable method for achieving the goals and 
        objectives.
        ``(2) The goals and objectives required under paragraph (1) 
        shall ensure equity among the various harvesting and processing 
        sectors in the fishery; shall ensure that the costs of the 
        program are appropriately shared by all beneficiaries, 
        including participants in other fisheries; and shall ensure 
        that those fishing vessels and processing plants where 
        observers are deployed are not put at a disadvantage with 
        respect to other harvesters or processors in that fishery or in 
        other fisheries.
        ``(3) No observer program may be established until the 
        provisions of paragraphs (1) and (2) are met.''
Cumulative Impacts
    Section 301(a)(8) (16 U.S.C. 1851(a)(8)) is amended to read as 
follows--

    ``(8) Conservation and management measures shall, consistent with 
the conservation requirements of this Act (including the prevention of 
overfishing and rebuilding of overfished stocks), take into account the 
importance of fishery resources to fishing communities, and the 
cumulative economic and social impact of fishery conservation and 
management measures on such communities, in order to (A) provide for 
the sustained participation of such communities, and (B) to the extent 
practicable, minimize adverse economic impacts on such communities.''

Optimum Yield Cap
    Section 3(28(B) (16 U.S.C. 1802(28)(B)) is amended by striking 
``reduced'' and inserting in lieu thereof ``modified''.

Effect on Fishing
    Section 305(b)(2) (16 U.S.C. 1855(b)(2)) is amended--

    (1) by striking the period at the end of the subparagraph and 
inserting ``; or'';
    (2) by inserting ``(A)'' following ``any action''; and
    (3) by adding the following--

    ``(B) authorized, funded, permitted, or undertaken, or proposed to 
be authorized, funded, permitted, or undertaken, by such agency that 
may adversely affect the catching, taking, harvesting, or processing of 
fish in any fishery managed under this Act.''

    Senator Wyden. Very helpful. What I'm going to do for this 
panel, because I want to give our open mike period an 
opportunity, is we'll have some questions for you all in 
writing, Okay? There are a number of areas I wanted to ask you 
about. This is excellent testimony that I'd like to ask 
questions about.
    We'll excuse you, unless you would like to add anything 
further.
    Mr. Moore. Thank you for coming, Senator Wyden.
    Senator Wyden. I want to repeat essentially opportunities 
for folks to participate. The hearing record is going to be 
open for 10 days. If anyone wants to submit written testimony, 
it should be sent to the Senate congressional Committee in 
Washington D.C. For e-mail purposes--I know many e-mail to me 
regularly--I want this to go to the Committee, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="82efe3f0e5e3f0e7f6ddf1f2f0ebece5c2e1edefefe7f0e1e7acf1e7ece3f6e7ace5edf4ac">[email&#160;protected]</a> We'll have that available 
for the folks as well for e-mail.
    And, let us say we've now got eight folks signed up for the 
open mike period. Let's try to have folks take just a minute or 
two, again the chance to amplify as well, in terms of written 
comments. But, I do want to allow some time.
    We've got Donna Leach and Tom Leach signed up. Did you both 
want to testify?
    Mr. Leach. Yes.

    STATEMENT OF DONNA LEACH, HOMEMAKER AND FISHERMAN'S WIFE

    Ms. Leach. I've written you numerous times. I've contacted 
your office and talked to your members. I've also talked to 
Senator DeFazio. And I don't know if he gave you a copy of this 
pertaining to the meeting I had requested----
    Senator Wyden. Right.
    Ms. Leach. He's still working on it. Emily Jenkins, I sent 
her copies of the petitions. I also gave your office copies of 
the petitions asking for NMFS' Stock Assessment Scientists to 
be fired, due to their negligence.
    I do not feel that there is a lack of fish. There is a lack 
of science. You've also agreed with me on this matter. The 
people of America asked, when we were at a meeting, for a 
survey to be done at no cost to the government. And instead of 
getting a yes, I was told by Usha she had to talk to Rick 
Methot. At that meeting, Rick Methot told me he did not think 
it could be done. I contacted him later from our property in 
Eastern Oregon. He told us it could not be done. Then I come 
home to Coos Bay. Usha tells me that they made an effort, but 
none of the boats that volunteered were ever asked to do that 
survey. And the government hired a gentleman named Bob Shone 
who is supposed to be a liaison between the people and National 
Marine Fisheries and NOAA.
    The people of America right now ask that this Committee not 
give another dime to National Marine Fisheries, Oregon 
Department of Fish and Wildlife, NMFS, any of them, until NMFS' 
scientists come and go out on the commercial fishery boats on a 
month-to-month basis for practical, realistic data--no more 
playing games, no more wasting tax dollars. They have wasted 
our time for over twenty-some years. They have wasted the 
government's time. And it's time it ends. You have sat here and 
listened to them. How many years does it take them to 
accomplish something? Would you wait to balance your checkbook 
for over a year? I don't think so.
    My husband had a heart attack. Would I go to a plumber, or 
would I go to the very best? These people are supposed to be 
qualified to do this job. You hired people that are not 
qualified and should be fired? And I, as a servant--and I do 
have petitions right here with me from the people of America--
fire these people and get people that will do the job. Do not 
give them another dime.
    Senator Wyden. Mr. Leach, do you want to followup?
    Mr. Leach. Yes.
    Senator Wyden. Did you want to speak, sir?

          STATEMENT OF TOM LEACH, COMMERCIAL FISHERMAN

    Mr. Leach. Yes. Senator, I want to thank you for coming, 
thank you for inviting us. And when I saw you about a week ago, 
I believe it was at Coos Bay, and you said how do we take care 
of my problem. You're doing it. I thank you.
    And I got some stuff I kind of want to rebuttal here. Of 
course our metric tons, our landings, are falling from what the 
National Marine Fisheries said, because over the last 10 years 
they've cut our harvest guidelines. They've cut our optimum 
yield. How could it stay where it was? And ever since they 
started cutting and cutting our discards have increased. That's 
a total shame.
    On the observers, Steve touched on it, but I want to 
retouch on it again. I heard $5 million. I'd like to have that 
contract. I don't know if that was for 1 year or whatever. But 
for about $4,000 we can get these videos put on the boats, like 
he testified to. If you take that times two hundred boats, 
that's $800,000. I don't know what it would cost--it couldn't 
cost a million dollars to have somebody sit at a desk and watch 
the hour--you know, the hour meter thing like they talked 
about. Because I suppose the average tow is six, 7 hours long. 
And you've got an hour's time on the deck. And if you took that 
times 200 boats, which there's about 200 boats fishing, it 
shouldn't take that long.
    We want to do the research. We've been doing it the last 3 
years--well, 2 years, excuse me--well, actually the last 3 
years. The scientists that's on our boats, government 
scientists, say the data is better. They're getting more 
accurate data. Why that would be I don't know. But the 
scientists themselves want to go on our boat. They don't want 
to go on the Miller-Freeman. And we can have four boats per day 
for the price that that Miller-Freeman costs us each day. We 
can have four boats to do that same survey the Miller-Freeman 
does. So don't give them any more money for that Miller-
Freeman.
    It was brought up here that--that they let us talk to them 
at the meetings and all this. That's a bunch of baloney, 
because I have been going for 5 years. They don't let us talk. 
They don't even listen to us at the meetings when we're there. 
I have been called a liar, and I have been told that I needed a 
PAC before they would even think of listening to me. And I have 
40 years experience, and I know damn well I know more what's 
out there than they do. I want to read a little part that I'm 
going to give you for total testimony here.
    Senator Wyden. The only thing I'd say, Mr. Leach, is we've 
got another six people we have to get in. So, if I could maybe 
read that, I think you've said that real well.
    Mr. Leach. You don't want to hear about the discard thing?
    Senator Wyden. Why don't you touch on it real briefly.
    Mr. Leach. Well, Okay. I'll skip over this here.
    If there's such a shortage, why did I catch 2 months 
complex--2 months--in 61 hours towing time, 61 hours towing 
time for 2 months complex. And they have a shortage of fish. 
And out of that I threw away 1,000 pounds of shore spine, which 
the government says there is none out there. And it's the same 
thing with the black cod. We only bring in the mediums and 
large. We don't keep any smalls or extra smalls. And it goes 
right on down the list.
    The last thing is that I hope that the buyback program does 
go through. But I think it's going to be way more costly than 
what anybody images. Because if you're going to get rid of the 
top producers, it's going to cost you millions, not a million 
but millions.
    Senator Wyden. Thank you. And, it was good to talk with you 
all in Coos Bay last week as well.
    [Material provided by Donna and Tom Leach follows:]

 Material of Tom Leach, Commercial Fisherman and Donna Leach, Homemaker
                                                    October 3, 2000
Donna Leach,
Coos Bay, OR.

Dear Donna:

    Thank you for forwarding me the petitions regarding fisheries 
management. I was disappointed to hear from my staff that you did not 
want to meet with senior National Marine Fisheries Service (NMFS) 
officials to discuss the decline of the groundfish fishery. As I 
indicated at the Coos Bay town hall meeting, NMFS needs to better 
understand how inadequate stock assessments affect fishers and their 
families along the West Coast and you have the data and personal 
experience to make a good case.
    In addition to trying to facilitate a meeting between you and 
senior NMFS officials, I have also contacted House Committee on 
Resource Chairman Don Young to request a hearing on the management of 
the groundfish fishery. Unfortunately, in the rush towards adjournment, 
it is unlikely that a hearing can be scheduled in the next three weeks.
    In the absence of a hearing, if you continue to want to bring your 
concerns before Congress and Senior Commerce Department officials, I 
will attempt to arrange meetings with appropriate Members of Congress 
and Administration officials. However, I hope you will reconsider 
meeting with senior NMFS officials in the Northwest.
        Sincerely,
                                             Peter DeFazio,
                                                Member of Congress.
                                 ______
                                 
                             Press Release
To: The World Newspaper
Attention: Kathy Erickson, Editor
Date: Dec. 12, 2000
         Re: Fake data forces closure to West Coast fishery
From: Tom/Donna Leach

    Tom Leach, a 40 year veteran of fishing, claims that ``the U.S. 
government is forcing us to shut down our West Coast fishery,'' he 
announced at a recent community meeting. ``Plain and simple, the 
government encouraged us to build bigger boats, to overspend, and 
overcapitalize 20 years ago. Now they are cutting us back by another 25 
percent.''
    Leach, who owns the Jamie-K, and fishes out of Coos Bay, Oregon 
says'' Dr. Rick Methot made the model and he's putting incorrect data 
into it. He's employed by a government agency, the National Marine 
Fishery Service, and he has free rein over everything we do.
    The Magnuson-Stevenson Act calls for Economic Impact Studies to be 
done before quota's are cut. However, no such studies have been done, 
prior to past quota cuts. Why? If the National Marine Fishery Service 
were a private business, it would be liable for law suits for not 
following the law. Why are they exempt?
    ``Six Years ago, in Sept. of 1994, our fishery hired Nancy Douglas, 
a consultant, to advise us on what we should do to protect our ocean 
resources. We were concerned about the proper data being used to 
evaluate the status of our current fish stock off the coast of Oregon, 
Washington, and California. Douglas advised us to request a Task Force 
to review the way that Stock assessments are done. She sent letters to 
President Clinton, Vice President Gore and others. With the help of 
Congressman Pete DeFazio, Senator Mark Hatfield and Representative 
Elizabeth Furse, we obtained the Task Force Review; and we won it.''
    Six Scientists from around the World went over everything with Dr. 
Methot, and the National Marine Fishery Service. They told Methot to 
throw his Model away, because it doesn't work. They suggested using the 
fishermans Log Books, and talk to the fishermen. 6 months later, in 
Feb. of 1995, Dr. Methot announced ``We don't have anything else to 
use, and that's what we're going to use anyway'', and that is what we 
are doing.'' said Leach.
    I asked Dr. Methot about where he gets his net mortality. He 
replied ``oh, it's just a known Fact''. We've done studies ourselves 
with Black Cod, and we can have them up on deck for 15 minutes, then 
place them in water and go back 2 days later and they are still alive.
                                 ______
                                 
For: Tom Leach
By: Nancy Douglas
Date: 12/12/00

    I want to thank Mayor Verger and the representatives that are here.
    My name is Tom Leach, and I have a problem. What I want to know is, 
I guess, is ``How can you help us? That's what I want to know. I don't 
know who to turn to.'
    Are there any loggers here? It's just like when you were run out of 
the woods because of the spotted owl. We are under the same thing. We 
are getting shut out on bad data. Plain and simple.
    Loggers, Remember how you had to clean the streams years ago? Now 
they're getting paid for putting logs back in. Now they are forcing us 
to go to an 8 inch footrope, and we'd like to go back to a 14 inch 
footrope, before we tear up the bottom of the ocean.
    The same thing with the salmon. Another government mistake. The 
government used to see to it that ODFW used to put in 50 million fish a 
year in the hatcheries. Private aqua-culture came along and said to the 
senators and ODFW, ``Look at how much money we can save you.'' ``We'll 
put in the 50 million fish a year'' and they did. But they tampered 
with the genetics of the fish, consequently they were coming back in 
two years instead of three. They were also undersized, and too small 
for our commercial fishing industry. We've never had a natural wild 
stock of silvers, it's been hatchery fish, and it always has been.
    The Magnuson-Stevenson Act calls for economic impact studies before 
quota's are cut, however no such studies have been conducted prior to 
past quota cuts. Why? If the National Marine Fishery Service were a 
private business, it would be liable for law suits for not following 
the law. Why are they exempt?
    I am concerned about the proper management of our fisheries. I feel 
that the industry needs to be involved at all levels of management to 
insure that the stock assessment process is accurate and sound. We 
fishermen need to be involved at all levels of future planning. I feel 
that a year-round fishery s needed for us, the fish companies, and the 
people.
    Now we'll get back to the background on the data. The Miller 
Freeman is a 215 foot vessel that is used by the government to conduct 
research. They went out and made tows, and they didn't catch anything, 
because their tows were all mudded down. This went on for several 
years, so they said ``there is no fish'', because they couldn't catch 
anything. So they put a fisherman on board the boat. Gerald Gunnari 
went, and he wasn't out there for very long, and he showed them all the 
mistakes they were making! He told them all the stuff that he felt 
needed changing, and they actually went out and caught fish!
    They said ``That's great''. The next year Jimmy Burns went out, but 
I think he worked more on the speed they needed to do, before they 
could catch fish, and they caught fish! They said ``well, I guess the 
fish were always there, but we'll just pretend that they were always 
there now.'' So, now the data went from no fish to there were always 
fish there.
    We mark our wires, so we know where the gear is. I found more stuff 
that is wrong but we wont get into that, but anyhow all their data has 
been bad before we got two fishermen To go out on their boat.
    Six years ago, Nancy Douglas was hired, as a consultant, to help us 
save our fishery. It was her suggestion to write letters to President 
Clinton and others, asking for a task force to review the way that 
stocks were being done. We were very concerned about the data that was 
being used to determine the status of our current fish stock, off the 
coast of Oregon, Washington and California. With the assistance of Pete 
DeFazio, Senator Mark Hatfield, and Representative Elizabeth Furse, we 
got the review we asked for.
    We got 5 scientists from around the world, none of ours, and we 
went over all the stuff with Rick Methot. When they got it all done, 
they told Rick to ``throw your models away, because it doesn't work, 
and it doesn't fit. Use the fishermen's log books, use the fishermans 
data and talk to them.''
    Six months later Rick Methot said ``Well, we don't have anything 
else to use, and so that's what we're going to use anyway''. That's 
what there doing.
    Prior to 1992 Dover Thorny Heads Sable Fish (DTS) were wide open. 
In 1993 we were cut to 90,000 pounds. In 1994 we were cut to 60,000 
pounds, a 33 percent cut. In 1995 we were cut to 50,000 pounds, a 15 
percent cut from the previous year. In 1996 we were cut to 30,000 
pounds, a 40 percent cut from the previous year. In 1997 there were no 
cuts. In 1998 we were cut by 18,500 pounds, 40 percent cut from the 
previous year. The total was 128 percent cut in the last 5 years.
    The most meaningful true conservation measures in effect today were 
imposed by the commercial fishers as: increasing mesh size in our trawl 
gear, insuring the escapement of juveniles and small adult fish 
insuring a sustainable fishery for our future; increased our footrope 
size allowing more escapement of small fish under our trawl gear, being 
more selective in the larger fish on the bottom, reducing our discards. 
These measures make our operations less efficient but more 
conservation-oriented for the future. We are the ones with vested 
interest in having fish for the future. Managers/regulators have no 
vested interest whether there are fish or not.
    Interpretation seeming to be torqued to lower harvest levels below 
profit levels for the west coast harvesters.
    Inflexibility resulting in zero fishing mortality is not in the 
West Coast's best interest. 10 Year rebuilding schedule is unrealistic 
for some species.
    How they arrived at these numbers was through going through their 
interpretation of the Magnuson Act. This meant that we had to regulate 
this on the conservative side. So they would take a figure, like 3,000 
metric tons, that would be high and 2,000 tons would be low, and you'd 
think that it would be fine.
    Then the first committee, a statistical one, said ``well, let's 
take that 2,500 figure and we'll cut it by 10 percent, so we'll be 
safe. Then they would pass it up to the next committee, and the next 
committee would say the same thing. FOUR committees later it would go 
through, to bite the dust. They cut between 3,000 and 2,000 and each 
one of those 4 would take another bob off from that, for being 
conservative. I think that they have over-conservatized it all the way 
back to the precautionary side.
    Well, a little more on the data background. I've offered me boat to 
them and they refused. I've asked them to go with me, and they've 
refused. John Broac, said he was going with me, (he's the Dover author/
scientist), but he never showed up. I've offered to tag black cod for 
them, at no cost, and they never brought the tags.
    I've fished in this one place for 25 years, now there's four boats 
fishing in the same place, and there's just as many fish there now as 
there was then.
    Now I will get into some actual facts about data. I went out this 
time for our two month complex, 61 hours towing time. I had most of my 
two month complex. And I threw away over 1,000 pounds of sort spine 
thornyheads in the 61 hours. I'm only allowed to sell 1,000 pounds of 
them, and I did.
    I don't rockfish, I never have. I could catch a lot of rockfish now 
too, I think they're allowing us to catch 4,000 pounds too.
    The last few years we haven't been bringing any black cod in that 
are small. We bring in a dollar a pound fish on the big ones, and 80 
cents for the medium ones. That's not the right figure, but we throw 
away the 40 cent ones. So what did the scientists say? ``Gee, there are 
no recruits, no small ones!''
    I have gone to the meetings for 4 and a half years, and I tell 
them, and tell them, But what do they say? ``You don't have a PHD, and 
we won't talk with you.'' It just seems that to me common sense would 
tell them, (and who ever is out there to listen to us), that if there 
was a shortage of fish out there, we would have to spend more that just 
61 hours to catch our DTS, our two month complex.
    On the short spine, that's the one we're regulated on. Everything 
is supposedly a factor on the DTS. We don't know how far out there that 
they go, their out there for 28 miles to 30 miles, and they are still 
there. They may go from here to China. Nobody knows, or from here to 
Japan. We've never found and end to them. Why they've got us regulated 
on that, I just don't know.
    Rumor is, according to the last 2 years, that scientists have been 
going out on our vessels and they said there were an awesome level of 
trends and increases already. They have seen it, but I'm not going to 
say that for a fact. I don't know. I wasn't there, but at least it's 
not going DOWN.
    The way that they do their study for their data is they don't pick 
a spot, and they keep going to that one spot. What they do is they pick 
a different spot each year, and they say that this is where you are 
going to tow. We tell them that ``Fish don't even live there.'' It's 
like going into the middle of Los Angeles and looking for a herd of 
Elk. Well, that's the way they do their research, no wonder it hasn't 
been going very well.
    Now, next years cut. We're going to get cut by another 25 percent, 
that's their proposal right now. 50 percent On short spine hardheads. 
It's unbelievable. 61 Hours towing time for the two month complex, and 
they are going to cut us some more.
    I guess the conclusion is that the government wants to replace us. 
The government encouraged us to build bigger boats, to over-spend and 
to over-capitalize. Let's get rid of the foreign fleet and you guys can 
catch them all. They encouraged that 20 years ago. We got rid of the 
foreign fleet alright, and now we're getting rid of ourselves.
    My thoughts are we need your help. We need you to tell the 
government that you created this problem, and now we need the buy-back 
program for industry. If that's your goal, and we need to get rid of 50 
percent of the boats.
    I want to know, who do we need to see, and who do we need to talk 
to? How do we get this thing stopped?
    I have told Rick Methot that his model is truly probably one of the 
best models in the world. His first equation is Q. It stands for 
quantity, and he doesn't have a clue. (Where do we find fish?)
    The other one is Net Mortality. I asked him ``where do you get your 
net mortality, Rick?''
    ``Oh, it's just a known fact'' he said. Maybe it is, I don't know. 
I don't have any idea of how they came up with it. We've done studies 
on it ourselves. Black Cod, you can have them up on deck 15 minutes, 
and put them in a pot, and put them back in the water and go back two 
days later, and they are still alive. What is the net mortality? There 
are so many holes in his model it's just pathetic.
    I want you to ask congress to not fund Rick Methot's request for 
seven Research Vessels. The Miller Freeman couldn't catch a fish, and 
they bragged about that. They had the finest gear in the world. I told 
them that ``without a doubt, they did, but they just don't know how to 
catch fish with it.''
    Don't give Methot any money for his research vessels. Let US DO the 
research.
    I wish they'd get rid of that 8 inch footrope . . . that is a real 
killer, we're killing babies, Juveniles, their killing everything out 
there. My partners tell me ``don't say that Leach''. We want to go back 
to the 14 inch footrope.
    That's all I have. If you have any questions, I'll be more than 
happy to answer them for you. Thank you.
                                 ______
                                 
                               Fact Sheet
                           Quota Cut History
                              Net Changes

    Prior to 1992 Dover Thorny Heads Sable fish (DTS) wide open

    1993 cut to 90,000 pounds
    1994 cut to 60,000 pounds = 33% cut
    1995 cut to 50,000 pounds = 15% cut from previous year
    1996 cut to 30,000 pounds = 40% cut from previous year
    1997 no cut
    1998 cut 18,500 pounds = 40% cut from previous year

    Total 128% cut in last five years
    The most meaningful true conservation measures in effect today were 
imposed by the commercial fishers such as; increasing mesh size in our 
trawl gear insuring the escapement of juveniles and small adult fish, 
insuring a sustainable fisheries for our future; increased our footrope 
size allowing more escapement of small fish under our trawl gear, being 
more selective in the larger fish on the bottom, reducing discards. 
These measures make our operations less efficient but more conservation 
oriented for the future. We are the ones with vested interest in having 
fish for the future. Managers/regulators have no vested interest 
whether there are fish or not.
    Interpretation seeming to be torqued to lower harvest levels below 
profit levels for the West Coast harvesters.
    Inflexibility resulting in zero fishing mortality is not in the 
West Coast's best interest.
    10 year rebuilding schedule is unrealistic for some species.
    Staffers wrote up the changes, don't believe history, would not 
support inversion. (Change Magnuson-Stevens Act) it's torqued 
interpretations identify?
    Was written to prove overfishing in order to ``rid our fishing 
grounds of foreign vessels over 100 to 300 feet long. They are no 
longer fishing 24 hours a day out here. Somewhere this system has got 
to turn the corner and start supporting our own domestic fishers get 
some reality in fish management.
    The Magnuson-Stevens Act calls for a study of economic impact 
before quotas are cut, however no such studies have been conducted 
prior to past quota cuts. Why? If the NMFS was a private business it 
would be liable for law suits for not following the law. Why are they 
exempt?
                                 ______
                                 
                        Coos Bay Trawlers Association, Inc.
                                        Coos Bay, OR., July 1, 1997

Dear Councilors and Guest:

    I am concerned about the proper management of our fisheries. I feel 
that the industry needs to be involved at all levels of management to 
insure that the stock assessment gathering processes are accurate and 
sound. We fishermen need to be involved in future planning.
    I feel that a year-round fishery is needed for us, fish companies 
and the people.
    Right now we are looking at 2 and possibly 3 month closures. The 
down fall of the closure would be the loss of jobs and the revenues 
from the fresh fish market.
    Since 1987, we have taken drastic cuts in harvest levels and a 
limited entry of permits has come into effect. Some of our boats have 
sold our drag permits and have left our fishery.
    We have voluntarily reduced our efforts and increased our 
efficiency to increase our conservation tactics. We have increased our 
net size to 4\1/2\ inch, employed roller gear instead of 8 inch disc, 
no double double cod ends, no chaffing gear which allows small fish to 
escape.
    Currently we are on a F35 which means 35 percent of the females are 
never caught and the ODFW are pushing to F40.
    Two years ago, we had five independent scientist from around the 
world do a external review of our survey methodology and they found 
that it was worst than we imagined. They recommended that the model be 
thrown away, use fishermen input, logbooks and get sound stock data.
    The survey vessel, Miller Freemen, which has conducted the surveys 
for many years prior to 1993, never caught much. We got a fishermen on 
the vessel and in two trips he got their gear to fishing. Now they are 
catching fish. It hasn't changed any of the data yet.
    Some say that there is a shortage of fish. If there is such a 
shortage, why are the larger vessels fishing only 6 to 8 days per month 
and the smaller vessel are fishing 8 to 10 days a month to get their 
quotas.
    There are some regulators that believe their education level out 
weighs the fishermen actual experience.
    In closing, each dollar we earn generates 8 fold back to the 
community. You can help us by advising your political contacts in 
fishing matters to help establish a better understanding of our 
industry.
    Thank you for your time and consideration.
                                 ______
                                 
To: All Groundfish Management Team members.

    In 1997, industry lost 3,061 metric tons of DTS; 6,749.505 pounds 
at a value of $1,422,903.45 due to small trip limits set by management!
    In 1997, at the September PFMC meeting. I showed the Council how we 
were going to be short on the harvest guideline and gave them a plan to 
compensate for the shortfall. The Council took no action!
    In 1998, industry lost 4,295 metric tons; 9,470,475 pounds at a 
value of $4,400,512.00. In June at the PFMC meeting, I told them ee 
would be short again on the HG. They thanked me but took no action 
until it was too late in the year and we lost again.
    I hope the GMT and the PFMC does its job a lot better this year. 
Are you going to listen to industry this year (1999) and do better? Or 
are you going to continue to take money out of our pockets anyway you 
can?
    The last two years, I have lost approximately $29,116.00 on the DTS 
alone. In 1997, we left 3,137 MT, minus 76 MT of over fished 
shortspines hardheads, equals 3,061 MT = 6,749,505 pounds DTS; we left 
2,110,185 pounds on Dover @ .31 per = $654,157.35; we left 4,381,335 
pounds on Longspines @ .60 per = $2,628.801.00; we over fished 
shortspines by 167,580 pounds @ $ 1.00 per = $167,580.00; we left 
421,155 pounds of Sable @ $1.20 = $505,866.00.
    In 1998 we left 1,637 MT of Rockfish, we fished 409 MT of 
unspecified rockfish which equals 1,228 MT = 2,707,740 pounds @ .32 per 
= $866.476.80
    We left 3,067 MT of the DTS HG
    Dover 980 MT = 2,160,900 pounds @ .31 per =$669,879.00
    Longspines 1,859 MT = 4,079,250 pounds @ .60 per = $2,247,550
    Shortspines 4 MT = 8,820 pounds @ $1.00 per $8,820.00
    Sable 233MT= 513,765 pounds @ $1.20=$6l6,518.00
    3,067 MT = 6,762,735 pounds = $3,534.035.20
                                 ______
                                 
                                     Coos Bay, OR, December 6, 1996
TO: National Marine Fishery Service

    Dear Gentlemen:

    I am the owner and operator of the FV Jamie K, a 60 foot vessel. I 
have been a commercial fisherman on the West Coast for 39 years, since 
1957.
    I am concerned about the proper management of our fishery. I feel 
that industry needs to be involved at all levels, to insure that the 
stock assessment gathering process's are accurate and sound. We 
fishermen need to be involved in future planning as well.
    I feel that a year-around fishery is needed, for us, the fish 
companies, and the people of the USA--so they can continue eating fresh 
seafood.
    I have some thoughts and observations that I would like to share 
with you about our West Coast Trawl fishery. Please give careful 
consideration to the following:

        1. Net Size:

          My net size is called a 350, and it's 74.5 feet. The head 
        rope is 56.6 feet.

          The average vessel in this port is 74 feet in length, and 
        they tow a 401. Their footropes average 85 feet, with head 
        ropes of 64 feet.

          Our foot ropes are loose and roll over the grounds. We do 
        not use rock-hopper footropes on the average.

          We used to use 5 to 7 inch disc footropes arid smaller cod 
        ends. Now we use 14 inch roller gear and a 4\1/2\ inch (mesh 
        size) cod ends. We lose a lot of fish at the stern of the boat 
        (I wonder if this isn't a mistake on the net mortality rate 
        v.s. fish size)?

          I feel that net mortality is important. I think we should go 
        back to the smaller cod ends, because I keep losing legal size 
        fish--the mesh size is too big! I feel this would insure the 
        accuracy of the net mortality.

          Fact: The weighbacks are 2 to 3 percent on Dover. It used to 
        be 8 to 10 percent.

          With these problems, how can you judge accurately the net 
        mortality?

        2. The Miller Freeman:

          I would like to volunteer to go on the next survey please. I 
        feel that my experience could be valuable to the industry, and 
        the surveys. Please consider me as a candidate for the trip, 
        and let me know ASAP if I am accepted, so I can plan my future 
        schedule accordingly.
          At 10 a.m. on Nov. 14, 1996, I passed the Miller Freeman 
        vessel towing at about 175 to 180 fathoms. called them and 
        asked what they were catching. He said ``mud and dog sharks . . 
        . Lots of mud and lots of dog sharks''. I told him that this is 
        all they would catch inside of 200 fathoms. (Obviously the crew 
        does not have the knowledge to know where the fish are).

          The following day, Nov. 15, 1996, I observed the Miller 
        Freeman in 450 fathoms. At least they did move to another area! 
        I presume they were going after Black Cod.

          It is interesting to me that 3 weeks earlier, the fishing 
        conditions would have been ideal. All of us fishermen know that 
        every year at this time the `dogs' move through this area, in 
        great schools.

          I think that the surveys should be conducted from June to 
        September, so catching dog sharks won't happen. Most fisherman 
        know that the months of April/May and October/November the fish 
        are in transition (they are moving).

          Tow by tow the ocean changes.

        3. Yellow Tail Rockfish:

          If there is such a shortage of Yellow Tail Rock Fish in the 
        Astoria fishery, why do some of our Rock Fish boats run to 
        Astoria to catch their Rockfish quota in only one day? There is 
        so much Yellow Tail Rockfish in the Astoria fishery, you can't 
        keep out of them.

        4. Halibut Bycatch:

          In the future we need to keep the dead halibut bycatch so it 
        can be donated to the food bank. This is now a standard 
        practice in Alaska.

        5. Halibut:

          We are catching more Halibut now than ever. As an example, 
        we used to catch one or 2 a trip, and now we get them almost 
        every tow.

        6. Discards:

          ODF & W records show that I had a total of 5,719 total 
        discards of Black Cod. I had a total of 154 pounds of Long 
        Spine and Thorny Heads, and 8.4 pounds of Dover.

          Out of the 5,719 pounds of Black Cod, my logbook shows that 
        2,605 pounds were alive and thrown overboard. 2,015 Pounds had 
        to be discarded, due to the quota. 605 Pounds I had to throw 
        overboard because of price negotiation problems.

          My net discards of 494 pounds was all that I feel were 
        actually discarded. This is not bad for five and a half months 
        of fishing!

        7. Observers:

          I think we need to keep the observer program. I had an 
        observer on board for five and a half months. I think it's the 
        only way to go.

          I do not like keeping an `enhanced logbook' because we 
        fishermen have been called liars for years. If you don't have 
        trust in us, why should we keep them?

        8. Logbooks:

          Please look at the enclosed logbook papers. I have kept 
        records since 1963 of every fish I have ever caught.

          Pay special attention, please, to areas that I have 
        highlighted in yellow marker (on the following dates): 5/3/96, 
        5/13/96, 5/17/96, 11/14/96, and 11/16/96. Rick Methot, I am 
        sorry about the remarks I wrote on 5/13/96, but I was very 
        angry that I had to leave 2 to 3,000 dollars worth of fish 
        behind, per tow, due to shortages.

          If there is such a shortage in the fisheries, why do I catch 
        my DTS in 8 to 10 days fishing per month? The larger boats out 
        of this port catch their DTS in a shorter amount of time. 
        (Their nets are bigger).

    I feel that this conference is a positive move, and the fact that 
minutes are going to be kept of it is important. Are you also going to 
tape all segments? It might be a good idea to have the minutes 
available, in their entirety, so that they can be sent to the fishermen 
upon request. Also, certain portions of the tapes would probably be 
very helpful for people who have not been able to attend. When you send 
out the minutes, it might also be a good time to include a 
questionnaire, so that you can gather some more feedback from the 
people who did not attend, and also the ones that did.
    I feel we need to get information out to fishermen in a timely 
manner so that they understand what is being discussed about the future 
of our fishery. This conference if vital and important, and I am glad 
to be in attendance.
    Please send me minutes of the meetings.
    By the way, why are we meeting in Portland, instead of Coos Bay, 
Newport or Brookings? Where do the fishermen live and fish out of? 
Portland? I don't think so.
        Sincerely,
                                                 Tom Leach,
                                                        FV JAMIE K.
                                 ______
                                 
                                                      Coos Bay, OR.
Mr. Tom Leach,
F/V Jamie K,
679 Kellogg Blvd.

    Dear Senator Smith:

    Thank you for coming to address our concerns of the Oregon 
Fisheries. Our biggest problem is the ``poorest at best'' stock biomass 
data of our fisheries.
    The Hard Head lady, Jean Rogers, doesn't have enough data to give a 
good picture of the biomass. She said time and time again during the 
Stat and Star panel meetings that she assumes and guesses at this and 
that. Quotas cut, Long spine 30 percent and Short spine 60 percent Yet 
they cut our harvest guidelines for the year.
    The Black Cod man, Paul Crone, says he doesn't have enough data for 
good biomass stock assessment. (Quota cut 40 percent)
    The Dover Sole man, Jon Brojack, says at our present rate, our 
spawning biomass is increasing by 1 percent per year and an increase of 
9 percent in the past few years. (Quota cut of 19 percent)
    At the Star panel meeting, Allen McCall (chairman) said they never 
had enough data to make a judgment on any D.T.S.
    They cut the Widow rockfish by 34 percent; yet the boats only fish 
about 20 hours per month to catch the old quota of 30,000 pounds. The 
same goes for my fishing on the D.T.S. I used to fish 8 to 10 days per 
month. The bigger boats only fish 5 to 8 days per month. Now it will be 
less.
    The fastest way to turn this around would be to increase the Hake 
quotas by at least 50 percent or more. The bigger boats would be off 
the Groundfish at least two more months with almost four months total. 
That would save a lot. A big help would be to give the shore base 
plants 50 percent of the quota. The fish plants would build new 
facilities and hire more people.
    The Hake are the world's best shrimp eaters and our shrimp industry 
would come back good again. That could be six months more of the boats 
off the Groundfish.
    The shrimpers had problems last year trying to keep out of all ages 
of Hake. We have changed our net mesh to a larger size and made the 
foot rope larger. We are not as efficient as we use to be on flat fish.
    After 40 years of experience in the fishing industry, I truly wish 
we would be listened to and have as much impact as the Ph. D's do.
    I have had an observer on board for six months, have kept an 
expanded logbook since the start and have kept logs since before 1963. 
Also, I have had a ODF&W biologist on board for a trip last year and he 
said, ``Boy, there is more fish out here than we thought and less 
discards then we thought.''
    The government is causing us to discard more fish now. My son on 
his boat and I on my boat have fished the same area now since the 70's 
and the fishing is better now than back when we started.
    I would like to point out the fact that the biologists don't see 
any small Black Cod landed so they think there are no black cod left. 
We don't keep 0 to 3 pound black cod, we have to discard fish so we 
only keep the larger size of the fish. In fact, we don't even fish 
where we could fill the boat with Black Cod. Last year I threw away 
4000 to 5000 pound tows of 1 to 2 pound Black Cod.
    Short spines have the same problem. Yet, Jean Rogers and Paul 
Crones say there are none, so we get cut on the quota. I am sorry but 
this action is not right.
    I think we are gaining on the data side of the issue. We have 
expanded logbooks, some on-board observers, got the R/V Miller Freeman 
catching fish now, have participated in some surveys and hope to do 
more in the future and now we are getting three boats from each port to 
meet with biologists and scientists every three months to give them 
better data and to just talk about conditions and other things.
    What we need from you is to try to stop further cuts to quotas for 
at least five years so we can get data into the model. I know there are 
more fish out there then the regulators believe there is. I am not 
guessing or assuming, I know because I work out on the ocean and I know 
what I see.
    Please consider the Hake idea very seriously.
        Thank you,
                                                 Tom Leach,
                                                        FV JAMIE K.
                                 ______
                                 
                                                        F/V Jamie K
                                          Coos Bay, OR, May 5, 1998
Mr. Tom Leach,
679 Kellogg Blvd.

To whomever is concerned:

    Enclosed is a copy of my first trip of the Dover, Thorny head and 
Sablefish for the month of May. The enclosures are the regular and the 
enhanced logbooks. I have had an observer on board for six months and 
have kept an expanded log for 2\1/2\ years.
    What I am showing you is when the fishermen tell you that there are 
more fish out there than your Ph. D's. Doctors and Scientists say, the 
fishermen are more reliable. We can show you by our log's a very 
different picture than the one that the ``experts'' paint.
    I am going to explain tow by tow my discards on the Sablefish (BC) 
and Thorny heads (HH).
    Tow #1
    We towed for 10 hours and 10 minutes in the depths of 310 fathoms 
average for 1035 pounds BC and 880 pounds of HH. We didn't keep any BC 
under 3 pounds. We discarded 260 pounds of BC. We didn't keep any HH 
under 9 inches. We discarded 80 pounds of HH.
    Tow #2
    Eleven hours 10 minutes tow, average depth of 295 fathoms. Caught 
2120 pounds of BC. Didn't keep any fish under 5 pounds on this tow and 
for the rest of the trip. The reason we did this is because we would 
have been throwing BC over the side so we made more money on the larger 
fish. We caught 1470 pounds of HH which most were short spine hard 
heads (SSHH). We discarded 120 pounds under 9 inches for market 
conditions. On this one tow we had 2/3 of the month's quota on BC and 
almost of the SSHH.
    So where is the shortage of the BC and SSHH?
    As you can see by the expanded log on tow 3 we discarded 109 BC 
weighting 381 pounds at an average depth of 330 fathoms. We moved in 
and out for depth trying not to catch big tows of BC and SSHH. If you 
follow the tows in the regular log and the expanded log you can see the 
area, the time, the depth average, the catch, discards and weather 
conditions. We discarded 8531 pounds of BC for the trip and 645 pounds 
of HH.
    I have kept logs from 1963 on amounts of fish I have caught and 
weather conditions. I plan on giving you a trip by trip description 
from now on when I'm fishing for the D.T.S. When I am after Petrale, 
English, Rex and etc. I will probably not bother you.
    I am pleased that industry is getting invoked in the surveys. 
Please give us some credibility at the meeting when we tell you how we 
see things! Don't say all you fishermen are liars or when
    you have Ph. D's you can talk to us. I have over 40 years in the 
industry. I started commercial fishing in 1957.
    The BC are all over the ocean, even into Canada which they are 
happy with us being on the small limits. More fish for them.
    If you don't understand this letter or log data, please call us at 
541-888-5796.
    I would like to have Rich Methot, Jean Rogers and Paul Corne come 
on my boat for one day to see what I say is the gospel truth.
        Thank you,
                                                  Tom Leach
                                 ______
                                 
                                     Newport, OR, September 2, 1998
Mark Saelens, Mark Freeman,
2040 SE Marine Science Dr.

    The best available data from Pacfin (ORCA)
    To the PFMC on the Total Groundfish Landed Catch January through 
July, 1998

Dear Marks:

    Please review:
DOVER SOLE
    Total 4054 (mt) delivered HG = 8955 (mt)
    579 (mt) per month times 12 = 6948 (mt) for year = 2007 (mt) short 
for the year = 22 percent under HG for the year. We need an increase of 
215 percent per month to harvest the available HG available to us 
(21,500 lbs per month) for the last three months.
    579 mt per month x 9 = 5211 mt est. caught
    8955(mt)-5211(mt) = 3744(mt) left for last three months
    3744/3=1248=215% = 21,500 pounds per month
SABLEFISH
    Total 917 mt delivered HG = 2282 mt
    313 mt per month x 12 months = 1572 mt for the year
    710 mt short for the year = 22% under HG for the year
    We need an increase of 280 percent per month to harvest the 
available HG available to us. 8400 pounds per month for the last three 
months
    131 mt per month x 9 = 1179 mt estimate caught
    2282mt -1179mt = ll03mt left for last three months
    1103mt/3months= 367mt = 280% =8,400 pounds
LONGSPINE THORNYHEADS
    Total 1175mt delivered 4123 HG
    168 mt per month x 12 months = 216 mt for the year
    2107 mt short for the year = 58l% under HG for the year
    We need an increase of 581% per month to catch the HG for the 
year. 25,850 per month for the last three months.
    168mt per month x 9 months= 1512 estimated catch
    4123mt-1512mt = 2611 mt last three months
    2611mt/3 months = 870 mt = 51% = 25850 pounds per month
SHORTSPINE THORNYHEADS
    Total 629 mt delivered 1193 mt HG
    90mt per month x 12 months = 1080 mt for the year
    118 mt short for the year = 10% under the HG for the year
    We need to increase of 141% per month to catch the HG for the year
    2820 pounds per month for the last three months
    90mt per month x 9 months =810 mt estimated catch
    1193mt-810mt = 383 mt last three months
    383mt/3 months = 127 mt = 141%= 2820 pounds per month
WIDOW ROCKFISH
    All gear= 1882 HG 4276
    18827 = 269x9 = 2421
    4276- 2421 = 1855/3=618 mt per month = 229% increase in all 
fisheries
YELLOWTAIL
    All gear 1654.8mt HG =3118
    1654/7 = 236x9 2124
    3115-2124=994/3=331 per month= 140% increase
CANARY
    All gear 898.6 HG= 968
    898.6/7= l28x9= 1152
    968-l152= -184/3= -61 = -47%

    1. As you are charged to see that the harvest guidelines are to be 
followed and not overfished, it seems you would see to it that we 
(industry) would have limits set high enough to be able to catch the HG 
when you have set the limit too low for us to reach the HG and fish 
will not be harvested and left in the ocean.
    2. Things would not be quite so bad for industry if we could at 
least catch the HG of each specie after all the cuts that have been 
handed down to us over the last 5 years.
      Boats tuna fishing in the months of August and September and in 
December, some trawl boats go crabbing. We could easily catch the LS 
out in the deep without many problems on the SS limits.
    3. Last year we left 72,771,924 pounds of harvestable fish on the 
table. This year, we will leave 4942 mt DTS if the limits are not 
increased. We need to increase the limits in 1999 so we don't have this 
same problem again. We also had this problem last year.
    4. Out of 16553 mt DTS we left 4952 mt; we left 29.9 percent of 
the HG because of the low limits.
                                 ______
                                 
                                      Coos Bay, OR, August 21, 2000
Hon. Peter DeFazio,
Washington, DC.

Dear Congressmen DeFazio:

    I am writing on behalf of my town, its economy and its resources. 
There has been a major issue in your state since the 1980s. Everyone 
has put in time dealing with the problem caused by government agencies. 
That problem is a factor that could destroy Oregon's economy, 
businesses and life as well as people.
    This matter is in regard to Dr. Richard Methot and his model 
builder and how data points are used or not used depending on the 
desired outcome the government wants to push. This is also about how 
industry has been treated by these agencies while they manage the 
fisheries. Time is running short as are budgets and tempers.
    What did congress set as actual scientific data with regards to 
assessments and the collection data to manage the economy of the ocean? 
We need to spell out what is legal scientific data and what is required 
research to correctly manage our ocean's natural resources. It has 
become apparent that without guidance from a higher authority, NMFS 
will continue to use science that is unaccountable to manage our 
fisheries which has lead us into the disaster we now face.
    Congress delegated agencies that were to include public and 
industry. But when you try to be a part of the process, you're degraded 
and called liars and told to shut up, or to get a PH D and then they 
will talk to you. Did congress factor the years of experience and 
knowledge some of these industry people have and the vital, long-term 
oceanic information they possess? Or did congress leave it up to NOAA, 
NMFS and the Councils to figure out what data and in what quantities 
were needed to manage this resource correctly?
    What is industry's role in fishery data and management? Why hasn't 
congress forced the use of long-term fishermen knowledge to be used in 
connection with scientific data to manage our fisheries? Why are our 
fishery data gathered and managed by people who spend maybe an hour a 
year on a fishing boat instead of gathering some knowledge of the ocean 
from people that spend hundreds of hours at sea every year? Fishermen 
have far more understanding and knowledge of the ocean then the fifty 
people on these committees because they are true stakeholders in the 
management of this natural resource. There has been a constant 
``bashing'' of the industry during meetings, in newspaper and 
television reports, by environmental groups via their web sites, 
government agency web sites and even congress with bills like 4046 
which you co-sponsored. Is congress willing to wipe out a historical 
industry that has been here since before Jesus?
    Why has this accountable science been allowed to go on without 
congress stepping forward to find out what was wrong with management 
practices and how to aid the industry in their effort to educate the 
managers for the betterment of everyone? The managing agencies have 
wrecked havoc for too long. The time is now for congress to step up to 
bat and set some parameters for science to follow. As elected 
officials, its your duty to represent the people. Those you represent 
want congress to see 2 representatives from and for commercial industry 
and one mayor so they may explain how budgets will be massively 
affected and towns destroyed due to the deliberate attempt by Rick 
Methot and his model builder to control the ocean.
    Efforts to get Rick out on a boat at no cost for the purpose of 
data collection and observation has failed for over 5 years now. I have 
made the offer to Rick myself and so have others. Rick's goal is to 
have congress allocate funds to build a fleet of research vessels. He 
resents industry input into the management process and his intent is 
apparent. The scientists say they can not find a way to incorporate 
industry data into the management process. Mv dogs are treated better 
then these agencies treat the industry and the public. I don't own a 
boat but I attend meetings and see how things are done, hear the lies 
about data and how it is used or not used. Even Bob Schoning who was 
supposed to bring industry and agencies together favors the agencies 
and misleads industry about their data.
    Oregon can't afford to loose 50 percent more boats based on poor 
and mishandled surveys and data for which the peer review declares to 
be no good. Did congress read this vital document? If no, then why 
haven't they? And if they did, why didn't they stop the fraudulent 
surveys and come to industry and allow them to prove the real status of 
stocks and quality of life in the ocean?
    It is quite clear that these agencies have had no reason to do a 
good job as long as they collect their pay and congress doesn't 
question too much about the ocean. But we, as a whole, feels it is time 
congress heard the truth as industry has made many attempts to try and 
control the damage done under these government agencies.
    So in conclusion Congressmen DeFazio, we ask you to let your fellow 
congress people that the people from your state demand to be heard 
before these meetings go any further. Because the data is biased, 
untrue and full of lies for one reason and because of one man, Rick 
Methot. The reason to gain fame and manage a fleet of vessels from 
congressional allocations.
    It time the tables are turned and industry is allowed to prove to 
congress and America its regard for the ocean and its stocks. This is 
not an unfair request. After all, Mr. Methot has had more then his time 
to mislead America and congress. People want their turn at bat to show 
America they did not destroy the ocean or its economic future.
    So we assume you will do your duty to those who elected you and who 
trust you to defend the honor of your state and restore hope to its 
communities and the working class. Congress needs to know the major 
factors effecting the economic loss of the west coast fishing fleet.
    I would like to invite you to our town hail meeting on Friday 
August 25 from 1 PM to 6 PM because we consider this meeting vital to 
out existence in the future.
        Sincerely,
                                                Donna Leach
    Thank you on behalf of my Mayor JoAnne Verger, my town and the 
working class.
                                 ______
                                 
    Mr. Chairman and Committee Members:
    My name is Steve Davis and I operate the F/V Sea Blazer out of the 
Columbia River.
    I have been involved in the fishing industry all of my life--since 
sitting on the anchor coil behind the mast of a 36' double ender while 
my stepfather gaffed salmon from the cockpit. During this time most of 
the management that I have seen has been mismanagement, from the near 
total elimination of some fisheries to darn near starvation seasons or 
limits on others, which is what you are and have been doing to the 
trawl fleet for the past 10-15 years.
    The lack of correct and current data has lead to imposing limits 
and restrictions which are causing more and more waste of good product. 
Fish and shellfish are not and never have been anchored to one spot, 
they have fins and tails to move around with. What is in one area one 
year may not be there the next, a lot of them come and go to different 
areas and have cycles of moving. Myself and I'm sure my fellow 
fisherman have seen this. We are required by law to keep logs but I see 
no evidence of their use, we are out on the ocean and see what is going 
on and it is a ridiculous waste.
    I do not understand how you as a committee and the GMT, with no 
PRACTICAL EXPERIENCE in the Industry feel you can govern and regulate 
those of us who do. We are working harder trying not to catch fish now 
than when we could!
    We (the fishermen) individually and as a group have more than 
enough years experience to be considered EXPERTS OR PROFESSIONALS in 
our field, but since degrees are not given for our years of involvement 
our voices and knowledge seem to go unheard. I feel it is time for you 
to quit sitting at computers trying to make up formulas that are not 
even based on factual information and start LISTENING to what's being 
said by the people who are actively involved in this industry.

    Senator Wyden. Let's go now to Mr. John Griffith.

           STATEMENT OF JOHN GRIFFITH, COMMISSIONER, 
               COOS COUNTY BOARD OF COMMISSIONERS

    Mr. Griffith. Thank you, Senator Wyden, for holding this 
hearing on the Oregon Coast. My name is John Griffith. I'm a 
Coos County Commissioner. The other members of the Coos County 
Board of Commissioners are here. I've seen some others County 
Commissioners here before at this hearing today.
    The reason I think the County government is very interested 
in this is that these are Oregon Coast families. They're part 
of our economy. And as it was mentioned, we don't have any 
throw-away economies.
    This was brought up, the comments I want to make, somewhat 
today. It was touched on. But I'd like to go into a little bit 
more. I ask today that you consider my request that the 
incoming Presidential Administration create an executive order 
to nullify Executive Order 13158 by the current Presidential 
Administration.
    Executive Order 13158 establishes Marine Protected Areas 
and a network of MPAs. In my opinion and in those of the 
scientists I'm aware of who has given them, there's no science 
exists to create a network of MPAs, as envisioned by Executive 
Order 13158. Not enough is known about the ocean or the 
effectiveness of the MPAs to create a network of them. 
Furthermore, although there is limited evidence that marine bio 
increases in MPAs, there is only speculative circumstantial 
inference that MPAs increase marine bio outside of the marine 
protected areas.
    Oregon has many areas now that are not fished with bottom-
encountering trawl gear. The entire territorial sea of Oregon 
is a de facto MPA. Several hard bottom areas also run fish by 
trawl gear, adding many more square miles to that category. 
Additionally, Oregon currently has five--there's a few more--
but five cable corridors that these five are off-limits to 
trawl gear for one mile on both sides of the cable out past the 
edge of the current fishing capability. An unknown number of 
cables would probably cross current fishing grounds in the 
future, adding to the off-limits square mileage. Furthermore, 
with the new minimum size foot ropes on trawl gear, many 
thousands of square miles of bottom off the Oregon Coast has 
become off-limits to bottom trawl fishing, which you noted in 
your questions to Rod Fujita.
    The desire of zealous preservationist groups and of the 
foundations that finance them in establishing MPAs off Oregon 
is not genuine for the protection of ocean resources, as they 
claim it is. Given that we have thousands of square miles of de 
facto protection areas off Oregon, their desire to designate 
MPAs by leaps and bounds can only be to give them leverage in 
bringing litigation against legitimate issues of marine 
environment. By having designated MPAs, they can cite any and 
all uses in the MPA and outside of it that they don't like as 
having a possibly deleterious effect on the MPA and move a 
court to shut down those uses.
    With ever-growing restrictions on our commercial and sport 
fishing and the negative results they have on our economy and 
our communities that depend at least in part on fishing, I call 
on Congress and the new Presidential Administration to relieve 
us of the burden of poorly contrived, unscientific, and 
politically motivated Executive Order 13158.
    Thank you.
    [The prepared statement of Mr. Griffith follows:]

Prepared Statement of John Griffith, Commissioner, Coos County Board of 
                             Commissioners
    Committee members:
    My name is John Griffith. I am a Coos County, Oregon, commissioner 
and an ocean person. My comments are my own, and are not necessarily 
agreeable or disagreeable to the other two members of the Coos County 
Board of Commissioners.
    I ask today that you consider my request that the incoming 
Presidential Administration create an executive order to nullify 
Executive Order 13158 by the current Presidential Administration. 
Executive Order 13158 establishes Marine Protected Areas and a network 
of MPAs.
    In my opinion and in those of every scientist I am aware of that 
has given one, no science exists to create a network of MPAs as 
envisioned by Executive Order 13158. Not enough is known about the 
ocean, or the effectiveness of MPAs to create a network of them as 
envisioned by Executive Order 13158. Furthermore, although there is 
limited evidence that marine biota increases in MPAs, there is only 
speculative, circumstantial inference that MPAs increase marine biota 
outside of MPAs.
    Oregon has many areas now that are not fished with bottom-
encountering trawl gear. The entire Territorial Sea of Oregon is a de 
facto MPA. Several hard bottom areas also are unfished by trawl gear, 
adding many more square miles to that category. Additionally, Oregon 
currently has five undersea cable corridors that are off-limits to 
trawl gear for one mile on each side of the cable, out past the edge of 
current fishing capability. An unknown number of cables will probably 
cross current fishing grounds in the future, adding to the off-limits 
square mileage.
    Furthermore, with the new minimum size of footropes on trawl gear, 
many thousands of square miles of the marine bottom off Oregon has 
become off-limits to bottom-trawl fishing.
    The desire of zealous preservation groups, and of the foundations 
that finance them, in establishing MPAs off Oregon is not genuine for 
the protection of ocean resources, as they claim it is. Given that we 
have thousands of square miles of de facto protection areas off Oregon, 
their desire to designate MPAs by metes and bounds can only be to give 
them leverage in bringing litigation against legitimate uses of the 
marine environment.
    By having designated MPAs, they can cite any and all uses in the 
MPA and surrounding the MPA that they don't like as having a possibly 
deleterious effect on the MPA, and move a court to shut down those 
uses.
    With ever growing restrictions on our commercial and sport fishing 
industry, and the negative results they have on our economy and our 
communities that depend, at least in part, on fishing, I call on 
Congress and the new Presidential Administration to relieve us of the 
burden of the poorly contrived, unscientific, and politically motivated 
Executive Order 13158.
    Thank you for your consideration, and for holding this field 
hearing on the Oregon coast.
                                              John Griffith

    Senator Wyden. All right. Thank you very much, John. We 
will look at your ideas there.
    Mr. Peter Huhtala, is he here? All right. Onno Husing.

              STATEMENT OF ONNO HUSING, DIRECTOR, 
           OREGON COASTAL ZONE MANAGEMENT ASSOCIATION

    Mr. Husing. Thank you, Senator. Again, Onno Husing, 
Director of the Oregon Coastal Zone Management Association.
    For the record, I remember sitting with you on this stage 2 
years ago listening to the some of the commitments, not seeing 
they've been followed through; interesting to learn there's 
things above the line and below the line. I ask you to look a 
little more into that. We see it at the state level, too, 
things get above the line and below the line.
    The folks--you mentioned the folks from GAO came out here, 
and they're going to ask hard questions. Your colleagues are 
going to ask you hard questions about fleet restructuring. When 
the GAO guys came out here, we had--in Newport--put them in a 
room with a bunch of folks, and we talked about some of the 
challenges of fleet restructuring. And it wasn't the most 
coherent discussion. I think a lot of us were just hammering 
these ideas back and forth. And at the end of the day, I saw 
them leaving the room, and I smiled, and I waived at them. And 
I said, ``Oh, don't worry. You'll figure this out.'' And the 
two of them looked at me and said, ``No. You'll figure it 
out.'' And they didn't quite understand what we really wanted 
to do in those days.
    I think what Ralph Brown said is that every one of these 
programs need to be evaluated on their own merit and what we're 
trying to do to look at specific circumstances. But if you walk 
away from here, one message I have is that everything becomes 
easier with fewer boats in the fleet. It's not much more 
complicated than that. Trying to get absolute numbers on 
exactly how many boats, how much money, how it's going to work 
all in advance I think is placing too great a burden on us.
    In this case, we need to get in the ballpark of lowering 
the number of boats, so that market forces can then pick up and 
take up the slack after that. I don't think you would hold 
that--knowing every single detail in advance, we wouldn't ask 
Proctor and Gamble to know exactly whether everyone's going to 
buy the last tube of toothpaste before they came out with a new 
product. And we shouldn't hold people to too high a standard on 
this fleet restructuring. Give us some money. We've got some 
brains and energy in this industry. We can figure out a way to 
make it work on the ground. But we don't want to invest too 
little. And if we do, then it would be a waste.
    Thank you.
    [The prepared statement of Mr. Husing follows:]

   Prepared Statement of Onno Husing, Director, Oregon Coastal Zone 
                         Management Association

    I want to thank the Senate Commerce Committee for holding this 
hearing today in Newport, Oregon regarding the ``groundfish crisis'' on 
the West Coast. By holding this hearing on the Oregon Coast, the 
Members of the Senate Commerce Committee can get a first hand look at 
the challenges facing fishing families and businesses here in Oregon. 
Please know many fishing families and businesses are also impacted in 
Washington State and California. It means a lot to us that you crossed 
the continent to be with us today.
    The past few years have been trying times for many people in the 
West Coast fishing industry. Individuals holding federal groundfish 
harvest permits have seen their harvest rates for groundfish plummet 10 
percent or 15 percent each year for almost five years in a row. After 
several years of this crisis, federal fishery managers still can't tell 
us when the cuts in groundfish are going to end.
    These cutbacks have taken an enormous toll on many families and 
businesses in coastal Oregon. We have seen people and businesses go 
broke. We've seen people leave the industry. Others struggle to stay on 
in the industry, steadily depleting their business and family 
resources, waiting to see how things are going to shake out. Some fish 
plants have already closed. There's another group of folks in the West 
Coast fishing industry that are doing better during this groundfish 
crisis because they hold not just groundfish permits but other fishing 
permits, such as Pacific Whiting, Pacific Shrimp or Dungeness Crab, or, 
they have access to fisheries in Alaska. Still, the impacts of the 
groundfish cutbacks continue to ripple throughout the entire fishing 
industry.
    In Oregon, we've run out of new, major commercial fishing industry 
opportunities. In the past, if one fishery failed (or was steeply 
curtailed by the government), fishermen developed new fisheries. That's 
not the case today. The problem is simple. There is far too much 
harvest capacity in the West Coast groundfish fleet due to the sharp 
federal cutbacks in West Coast groundfish quotas.
    I submit the challenge before us today is finding a way to downsize 
the West Coast fishing industry in the most rational and humane manner. 
I believe the federal government must partner with West Coast fishing 
communities to help us make it through this tough, historic transition. 
In my opinion, a federally funded fleet reduction program, in whole or 
in part, is the only realistic way to restructure the West Coast 
fishing industry and mitigate economic hardship in coastal communities.
    At present, many people are ``trapped in the fishing industry''. 
Why are they trapped? Well, for many years, people in the West Coast 
fishing industry used their boats and permits as retirement plans. In 
the past, you could always sell these assets--the vessels and the 
federal and state fishing permits--or, have someone else to work the 
boats. Prior to the groundfish crisis (about five years ago) individual 
limited entry groundfish permits sold for approximately $250,000. And, 
fishing vessels routinely sold for $500,000 to $750,000. Now, because 
of the over capacity, groundfish permits have lost most of their value 
and permits are a direct consequence of new, federal fishery management 
policies codified under the 1996 Amendments to the Magnuson Stevens 
Fishery Act. Because the market for boats and permits on the West Coast 
has been virtually demolished by these new federal fishery policies, 
market forces alone can't rescue the industry.
    In November 1999, after a ``Fish Summit'' with Senator Gordon Smith 
and other officials in Charleston, Oregon, a number of representatives 
of West Coast fishery organizations asked the Oregon Coastal Zone 
Management Association (OCZMA) to help organize a three-state fishing 
industry working group to formulate a Groundfish Disaster Plan to help 
fishing families make it through the groundfish crisis. This working 
group, made up of very diverse interests, including members of the 
conservation community, put aside their differences and developed three 
major planks of a Groundfish Disaster Program platform:

  <bullet> Community Assistance (to help individuals and families that 
        wish to leave the fishing industry access retraining dollars 
        and other community resources;

  <bullet> Enhanced Fisheries Research (to finally get some better data 
        on West Coast groundfish and other fisheries);

  <bullet> Fleet Restructuring (to help the fishing industry rationally 
        downsize so the size of the fleet matches the available 
        resources).

    And, since early 2000, the Pacific Fishery Management Council 
(PFMC), has finally initiated a serious Strategic Planning exercise to 
start addressing the short and long term issues facing the West Coast 
fishing industry. Many of the people in our Three State Working Group 
participated in the PFMC's strategic planning effort. The PFMC's plan, 
however, remains quite conceptual in nature. A lot of hard work needs 
to be done to fill in the details of that Strategic Plan.
    During this past year, Congress took some good first steps to 
address the groundfish crisis. First, the $5 million in the FY 2000 
Emergency Supplemental budget. Second, an additional $2.275 million for 
observer coverage in the FY 2001 budget. For these actions, we are 
deeply grateful. However, the work is far from complete. Again, here we 
are, almost five years into this West Coast groundfish crisis, and no 
one in the federal government can tell people in the fishing industry 
how much lower groundfish harvests are going to go. People in coastal 
communities feel like there's a cloud of uncertainty hanging over their 
heads, year in and year out. The profound uncertainty makes business 
planning next to impossible and leaves people feeling embittered.
    I urge the members of the Senate Commerce Committee to work with us 
on a fleet restructuring plan that will put the West Coast fishing 
industry on a new footing. We should have learned from painful 
experiences with the downsizing in the timber industry in the West that 
we need to help the economic and social refugees of new federal 
conservation policies. It is the fair and smart thing to do. By working 
together, we can help coastal communities and coastal families adjust 
to these profound changes in federal policy.
    The members of the Senate Commerce Committee should know there's a 
good future ahead for the fishing industry on the West Coast. It will 
be a different West Coast fishery--a fishery that is smaller and much 
more in tune with the conservation needs of the fishery resource. With 
the help of Congress, we can all arrive safely on that other shore.
    Attachments
        Respectfully submitted by,
                                               Onno Husing,
                                                   Director, OCZMA.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 

                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 

    Senator Wyden. Very good. Jim Golden.

        STATEMENT OF JIM GOLDEN, ACTING DIRECTOR, MARINE 
   RESOURCES PROGRAM, OREGON DEPARTMENT OF FISH AND WILDLIFE

    Mr. Golden. Senator Wyden, thank you for coming and 
listening today. My name is Jim Golden. I'm the Acting Director 
of the Marine Resources Program here in Newport. I'm trying to 
fill Neal Coenen's shoes since his appointment to the 
Governor's Office.
    I think that perhaps Ralph Brown may have said it earlier 
today. I had to step out briefly. But in a discussion earlier 
this morning with Ralph, the solution rests on a three-legged 
stool here. And I had liked his term that--because there are 
three important elements.
    The information, the science needed to conserve and manage 
resources and species in their habitats is needed, and we need 
more of it. And I think that was heard in ample testimony 
today. I think the effort reduction to match the resource that 
we have is another key leg of the stool. We've heard that 
today. And the social and economic support for those 
transitioning out of the groundfish fisheries is also needed. 
And we--we've heard that several times today.
    With respect to No. 1, I think we do have some good 
partnerships with OSU, with Sea Grant, with the National Marine 
Fisheries Service, and with the fishing industry to partner 
together to improve the science needed to protect and manage 
our resources. I just want to say that we're committed to 
improving that collaboration and those partnerships, and we 
look forward to National Marine Fisheries Service working with 
the industry and developing new partnerships, also in their 
planing and coordination of their research with state- and 
industry-funded research activities.
    With respect to No. 2, we support--and I support all of the 
comments that Neal made today with respect to effort reduction. 
And we also laud the industry's efforts to try to accomplish 
this on their own and with support from others and from 
government.
    I have one issue with respect to No. 3. I recently started 
working with Ginny and Flaxen and others on the groundfish on 
disaster relief project. We do need approval of the state match 
that's associated with research projects, new research 
projects, and efforts that are addressing the groundfish 
crisis. It's not just--there's three legs on the stool. One of 
them is in information. And I believe that we've tried to 
justify on a couple of occasions with National Marine Fisheries 
Services how these funds are being directed toward addressing 
the groundfish crisis and the needs for assessment. We think it 
makes real good sense to use those efforts in in-kind match 
with the federal dollars that we need. And I'll--just for your 
record today, I'll provide you with the copies of the spending 
plan and the two letters that we've written to Dr. Stephen 
Freese, the National Marine Fisheries Service, encouraging them 
to give us some kind of a sign that this is Okay to do and that 
we can move ahead with the details of the spending plan.
    Again, thank you for coming today and listening to us.
    [Material provided by Mr. Golden follows:]

  Material Provided by Jim Golden, Acting Director, Marine Resources 
            Program, Oregon Department of Fish and Wildlife
                     Oregon Department of Fish and Wildlife
                                   Portland, OR, September 22, 2000
Dr. Stephen Freese,
National Marine Fisheries Service,
Seattle, WA.

Dear Steve:

    With the assistance of Oregon Sea Grant Extension Specialists 
Flaxen Conway and Ginny Goblirsch, we have prepared the enclosed 
request and spending plan for the FY 2000 emergency appropriation in 
response to the West Coast groundfish fishery disaster.
    As you are aware, the conservation measures and commensurate 
reductions in groundfish harvest opportunities in 1999 continued in 
2000, and the latest stock assessments indicate further reductions will 
be necessary in 2001. The Pacific Fisheries Management Council's draft 
Strategic Plan for groundfish calls for at least a 50 percent reduction 
in fleet capacity to scale fishing back to match future expected 
harvests now that the fishery has gone through an extensive fishing 
down process. In recent years, many individuals and families have 
already had to make hard choices out of economic necessity and 
desperation. Council members and state fishery managers expect these 
conditions to persist during the foreseeable future.
    Federal appropriations for disaster relief are needed as soon as 
possible to assist those transitioning out of the industry. The 
$1,750,000.00 of federal funds will help provide the necessary support 
in direct benefits to qualified candidates to help them with the steps 
of the difficult process of leaving one's livelihood, retraining, and 
transitioning to other jobs. The Department has identified appropriate 
match dollars and is prepared to commit its share of the $583,333.00 
needed. Details of the different state match sources will be outlined 
in Oregon's full grant proposal. Additional matching funds will also be 
available from Oregon Economic and Community Development Department, 
Oregon Sea Grant Extension, and Oregon Coastal Zone Management 
Association.
    I want to thank you in advance for consideration of this proposal 
for disaster relief. I look forward to working with you to implement 
this much-needed program.
        Sincerely,
                                            James W. Greer,
                                                          Director.
                                         cc: Roy Hemmingway
                                              Doris Penwell
                                              Flaxen Conway
                                            Ginny Goblirsch
                                                Neal Coenen
                                                 Jim Golden
                                 ______
                                 
Spending Plan For FY 2000 Emergency Appropriation In Response to the 
        Disaster in the West Coast Groundfish Fishery

State of Oregon
Situation
    The National Marine Fisheries Service (NMFS), on behalf of the 
Secretary of Commerce, declared a commercial fishery failure in the 
Pacific Coast Groundfish fishery on January 19, 2000.
    Congress appropriated funding of $5,000,000 in response to the 
disaster in the West Coast groundfish fishery. The states were 
specifically directed to use the funds to: 1) pay compensation to 
individuals who have suffered a direct negative impact from the West 
Coast groundfish fisheries disaster; 2) provide direct sustaining aid 
to such fishermen; and 3) provide assistance to communities that are 
dependent on the West Coast groundfish fisheries and have suffered 
losses from such disaster.
    Congress directed that the states of California, Oregon and 
Washington divide the funds between the three states in proportion to 
the impact of the disaster in each state. Discussions were held with 
the three State Fish and Wildlife Directors at the August 28-30, 2000 
meeting of the Pacific States Marine Fisheries Commission and, with 
input from industry and congressional representatives, the states 
agreed to allocate the funds as follows: 35 percent each to California 
and Oregon, and 30 percent to Washington. This represents a sum of 
$1,750,000.00 to Oregon. A 25 percent ($583,333.00) matching amount 
from Oregon is required to receive these funds.
    Oregon's point of contact for its disaster aid program is James 
Greer, Director, Oregon Department of Fish and Wildlife. The funds are 
to be administered by the National Marine Fisheries Service in 
cooperation with the Oregon Economic and Community Development 
Department and/or Oregon Employment Department, and Oregon Sea Grant 
Extension.

Background
    In anticipation of the West Coast groundfish disaster declaration, 
a three-state committee was formed to recommend industry and community 
needs. This committee met throughout 1999 with leadership provided by 
Oregon Coastal Zone Management Association. Further assistance was 
provided by Oregon Department of Fish and Wildlife and Oregon Sea Grant 
Extension. The recommendations of this committee covered three major 
areas: 1) family and community assistance; 2) research and 3) fleet 
restructuring.
    The experience and expertise brought to this group by Oregon Sea 
Grant Extension addressed the family and community assistance portion 
of the recommendations. Since 1994, Oregon Sea Grant has provided 
funding for a unique peer outreach project called the Fishing Families 
Project (Project). The Project worked directly with fishing families in 
Oregon's port communities to provide practical information on ways to 
deal with the economic, personal and social stresses that are a part of 
the commercial fishing industry. An important component of this project 
was the Fishing Family Coordinators. They were fishermen's wives who 
lived in coastal ports and, together with Sea Grant personnel, were 
able to identify and direct project activities that directly addressed 
needs and interests of fishing families. Needs identified by the 
families included budgeting in a cyclic industry; debt consolidation/
taxes; diversification/business management; fishing marriage/absentee 
partner; coping skills/stress/anger management; grants/direct aid; 
health insurance and communication skills. The Project also worked 
directly with community resource providers and agencies to enhance 
their understanding of the needs of fishing families and address 
barriers fishing families met when attempting to obtain services. 
Additionally, the Project brought information to fishing industry 
families about resources available in their communities to help with 
their business and family needs. The Project also provided family 
members with training in forming or strengthening effective support 
networks. This training bolstered three Oregon fishermen's wives 
organizations and helped to form the region-wide, multi-gear, multi-
fisheries network called the Women's Coalition for Pacific Fisheries.
    The success of the Project's outreach model led to discussions in 
1998 with community resource providers about how to incorporate peer 
outreach into fishery-related disaster relief plans. A team of state 
and local partners worked collaboratively to come up with a possible 
approach. With the support of the team, the Community Services 
Consortium in Newport initiated a small pilot program in January 1999. 
In fall of 1999, the plan was finalized for a coast wide pilot program 
in response to the anticipated West Coast groundfish disaster. 
Beginning in April 2000, the state of Oregon provided funding for a 7-
month, coast-wide pilot program called ``Groundfish Disaster Outreach 
Program'' (GDOP), a continuing program that promotes existing training 
resources and community programs. The GDOP is administered by the 
Oregon Sea Grant Extension Program with funding support from the Oregon 
Economic and Community Development Department, Oregon Rapid Response 
Program, and Oregon Sea Grant Extension.
Innovative Response
    The purpose of the GDOP is to create, deliver and evaluate a peer 
outreach program that assists people in accessing support, resources 
and training and assists community resource providers in effective 
outreach through improved communication to this population who are in 
need of support. The audience includes people in the groundfish fishing 
business including fishermen, business partners (wives), fish plant 
workers, industry support service workers (gear stores, fuel docks, 
etc.), charterboat workers and local, state and federal resource 
providers.
    The leadership team of Flaxen Conway, OSU Department of Sociology, 
and Ginny Goblirsch, Marine Extension agent (and fisherman's wife), 
both with Oregon Sea Grant Extension, will continue to direct the GDOP. 
In addition, GDOP employs a full time Program Coordinator, Connie 
Kennedy. The GDOP Coordinator, a fisherman's wife, works with people in 
groundfish fishing businesses who want to transition into the future 
industry as well as with those who want to transition out of the 
industry. Six GDOP Outreach Peers (much like the Fishing Family 
Coordinators, closely associated with the fishing industry and in the 
transition process themselves) work part-time in seven regions along 
the coast informing and mentoring people in groundfish fishing 
businesses who want to transition, out of the industry. They also 
provide information about community support options for those remaining 
in the industry. An Advisory Committee, with members from the Oregon 
Rapid Response Program, local Workforce Investment Act (WIA) service 
delivery areas, Oregon Economic and Community Development, Oregon 
Employment Department (OED), Oregon Sea Grant Extension and the GDOP 
Program Coordinator, provides guidance to the GDOP.
    In May 2000, the Governor convened a meeting of state agency heads 
as well as community and industry leaders. The purpose of this meeting 
was to brief agencies on the groundfish crisis; to assess the crisis 
and make recommendations as to how each state agency can best direct 
their services to help those needing assistance; and to identify 
barriers to services. The GDOP has also hosted port meetings with local 
service providers to brief them on the crisis, address industry 
barriers to services and identify support services available. The 
outreach peers mentor fishermen, fishermen's wives, processing plant 
workers, and others directly associated with the groundfish industry 
that want to leave the industry. A key service is job-training programs 
for dislocated workers administered through WIA. In the short time 
period the GDOP has been operating, 97-odd industry members have been 
directly contacted, 52 were referred to agencies/resources, and 29 are 
now enrolled in services.
    The State of Oregon proposes to support the continuation of the 
successful Groundfish Disaster Outreach Program past the pilot ending 
date of October 31, 2000. In this way, the state will not be creating a 
new program and development expenses will be kept to a minimum. Except 
for the Program Coordinator salary, all funds will go directly to 
people impacted by the disaster. The state supports that no 
administrative costs be incurred for this FY 2000 Emergency 
Appropriation.

Lessons Learned and Future Needs
    Three key things we've learned are substantiated by the success of 
the program. First, we have learned that working collaboratively to 
create this program has resulted in a response that is innovative and 
community-driven. Second, we've learned that THE major barrier to 
fishermen and others interested in transitioning out of the industry 
via job training is the lack of income during training. Most are 
considered self-employed, few fishermen/wives are covered by state 
unemployment and there exist no other sources of income for them while 
in training. Third, we've learned that peer outreach works.
    State funding for the Outreach Coordinator ends on October 31, 
2000. We believe that the Oregon Rapid Response Program will continue 
to provide funding for the outreach peers for as long as they can and 
they see benefits to their programs. Oregon Sea Grant Extension will 
continue to support GDOP project leaders Conway and Goblirsch.
    Because of the previous successes with peer outreach through the 
Fishing Families Project and the pilot GDOP, the State of Oregon 
proposes to use Oregon's share of the disaster assistance funds to: 1) 
continue supporting the GDOP (not start a new program) through funding 
the Program Coordinator, and 2) provide transition income (TI) to 
industry members who want to transition out of the industry and who 
have accessed resources to help them develop a WIA/OED training plan 
for their future.

Target Audience for Transition Income
    As previously stated, the target audience for the GDOP includes 
anyone directly associated with the groundfish industry that has 
suffered significant impacts (loss of revenue) as a result of the 
groundfish crisis. This includes commercial fishing businesses (vessel 
owners, operators and crew); their business partners (wives); fish 
plants (owners, managers and workers); charterboats (owners, operators 
and crew); and all support services (workers in gear stores, fuel docks 
and the like).
    How many people are we talking about here? Because of the unusual 
rolling nature of this crisis and the various mechanisms people might 
or might not have to cope, it is impossible to accurately determine the 
number of people who might seek/need services. This is not a plant 
closure where a set number of people know they will be unemployed at a 
specific time. We do, however, have data on the numbers of commercial 
fishing vessels in the State of Oregon having permits for groundfish or 
participating in the open access fishery. We also have data on other 
permits those vessels/owners have which can, in some cases, help to 
mitigate the impact of the crisis. Therefore, we estimate that 108 
commercial fishing vessels/businesses are at high risk of bankruptcy 
and another 79 vessels/businesses are at moderate risk (depending on 
their success in other fisheries). This represents 40 percent of the 
groundfish fleet in the State of Oregon and an estimated 400 people. 
Since not all will seek or need services but others in the industry 
will, our best guess at this time is that the GDOP needs to be 
responsive to the needs of 400 applicants. The numbers could go much 
higher if fish plant closures occur. The numbers could go lower if 
conditions permit success in other fisheries in which some of these 
businesses might also be involved.
    Our target audience for transition income is 220 (roughly half of 
the 400 applicants that have no access to other income/assistance). We 
are estimating that 35 percent of these applicants will be single; 65 
percent will have families.

Spending Plan
GDOP Program Coordinator
    $66,000.00 is needed to support the full-time Program Coordinator 
for 12 months. Included in this amount are salary and associated 
expenses (such as travel, phone, fax, email, postage and mailing) for a 
12-month period. The Program Coordinator would continue the work as 
previously described.
    Funding would flow from NMFS directly to Oregon Sea Grant Extension 
in the amount of $66,000.00 for a 12-month period. No administrative 
costs (overhead) will be incurred during this period.

Transition Income
    $1,684,000.00 would be used to establish a fund for transition 
income (TI) for individuals (a type of individual TI account) to cover 
living expenses for those transitioning out of the industry. TI will 
only be available for applicants who have developed a WIA/OED training 
plan for their future in non-fishery related employment. Criteria for 
this TI assistance distribution process and the assistance are:
    Design a process that is flexible and readily changed when 
improvements can be identified.
    NMFS disbursements should be made at least quarterly ($421,000 per 
quarter with the first allocation up front) so that the entities that 
administer this program do not have to use state funds and process 
reimbursement requests.
    Qualified applicants must certify that they are part of the 
groundfish industry either as a fisherman, business partner (wife), 
fish plant worker, charter boat worker, or support service worker and 
have been negatively impacted by the groundfish crisis. TI assistance 
will be limited to 6 months to 9 months or less per applicant depending 
on the job-training plan established.
    TI assistance will be based on a simple income verification 
process. For example, our recommendation is that an applicant with a 
family could receive $1,500/month if they had no other access to 
support (unemployment insurance). If the applicant has access to other 
support (unemployment under $1500/month) their TI allotment would be 
only the difference bringing them up to $1,500/month. For a single/non-
married applicant, the allotment would be $1,000/month (with the same 
situation regarding access to other support). The recipients would be 
responsible for self-certifying their continued participation in the 
training plan and their need for this TI (through calling in and/or 
filling out forms on a bi-weekly or monthly basis).
    Final qualifying criteria and program administration arrangements 
will be specified in the State of Oregon grant application to NMFS.
    Funding will flow from NMFS directly to the Oregon Employment 
Department or to the Oregon Employment Department via the Oregon 
Economic and Community Development Department in the amount of 
$1,684,000.00. No administrative costs (overhead) will be incurred 
during this period.

State Matching Contributions
    Since the commercial fishery failure in the Pacific Coast 
groundfish was declared on January 19, 2000, the State of Oregon has 
provided (and will continue to provide) a combination of in-kind and 
state direct matching funds in the amount of $583,333.00.
Suggestions for State Match:
    The State of Oregon will document in its grant application to NMFS 
both in-kind and, possibly, direct matching funds. Here, the state has 
a number of options it will pursue:

    1. Program, Support Development and Fishery Research Contributions

    If expenditures since January 19, 2000 are allowed, the state can 
document up to $83,000.00 of in-kind expenditures developing a disaster 
relief response related to direct assistance and income support. In 
addition, the state can document approximately $124,000.00 in funding 
explicitly reviewed and appropriated by the Oregon legislature for 
groundfish research in response to the disaster. These funds for 
research have already been reviewed in a Groundfish Research Plan 
submitted to the Department's legislative oversight committee and 
approved for projects initiated for the Spring and Fall of 2000, and 
the Spring of 2001.
    These projects focus on the areas of maturity by catch, gear and 
genetic studies designed to improve stock assessments. The amount 
identified includes only the amounts expected to be paid directly to 
fishermen for at-sea contract charters and do not include the 
Department's personnel services or overhead costs. These costs, if 
allowed, would represent an additional $247,000.00 in direct matching 
expenditures. The total above represents a matching amount of 
$454,000.00.
    The state can also document $35,000.00 of direct matching funds 
for the GDOP Program Coordinator salary and expenses from May 1, 2000 
until October 31, 2000 from the Oregon Economic and Community 
Development Department.

2. Expected In-Kind Contributions
    Other in-kind contributions following grant approval are expected 
throughout calendar year 2001 in amounts similar to program development 
costs (i.e. $83,000.00).
3. Emergency Appropriations Board Direct Allocation
    The state's third option for match is to approach the 
legislature's Emergency Appropriations Board for a direct allocation. 
In this event, the direct payments for those individuals transitioning 
out of the groundfish fishery would extend Oregon's proposed program.

Suggestions for Timeline
    The Pacific Fishery Management Council has just announced further 
harvest reductions expected for the fishing year beginning January 1, 
2001. The State of Oregon's objective is to bring this assistance 
program online at that time. Our goals and timeline are as follows:

    1. October 15, 2000 or before: Appropriation Committee release of 
funds to NMFS.
    2. October 15, 2000 to November 30, 2000: State of Oregon grant 
application process to NMFS (with Oregon documentation).
    3. December 30, 2000: NMFS grant approval.
    4. January 15, 2001: Start Oregon program delivery.

Findings for Supplemental Appropriations Guidance and MSA S.312 (a) 
        Compliance
Authorized Appropriations Purposes in Bill and Report Language
    The State of Oregon's proposed spending plan will provide direct 
compensation to individuals and families for lost income resulting from 
significantly reduced fishing opportunities. The state's program 
intends to sustain this aid over a period of time needed and suitable 
to obtain job training for alternative occupations outside the fishing 
industry.
    In the event of additional, larger appropriations, the state's 
program could be expanded to compensate for the other types of losses 
and community assistance programs such as job development.
MSA Section 312(a) requires that disaster assistance prevent a future 
        fishery failure and assist a community or restore the fishery 
        and assist a community.
    The State of Oregon program seeks to prevent a future fishery 
failure and assist a community. The usual declining fishery cycle often 
results in fishers waiting for an upturn in one fishery by shifting to 
other fisheries or related activity. While this may have worked in the 
past, present circumstances indicate no flexibility exists in other 
major West Coast fisheries (salmon, crab, and shrimp). Therefore, the 
state's program seeks to permanently remove fishers from the industry. 
This will result in less competition for the limited remaining jobs in 
fisheries and prevent future conflict and failure.
    In addition, the community of individuals and families dependent on 
the fishing industry will be aided directly through training for 
alternative occupations. The community at large will also benefit 
directly and indirectly by having displaced workers prepare to continue 
as productive employed members of the community.
                                 ______
                                 
                     Oregon Department of Fish and Wildlife
                                       Newport, OR, January 8, 2001
Dr. Stephen Freese,
National Marine Fisheries Service,
Seattle, WA.

    Dear Steve:

    Thank you for reviewing the spending plan we submitted to you for 
the FY 2000 emergency appropriation in response to the West Coast 
groundfish fishery disaster. It is my understanding clarification and 
further justification is needed in order for National Marine Fisheries 
Service to accept the proposed $583,333 state match. Specifically, we 
understand you need documentation on how the match funds were used as a 
part of a total program to address the groundfish disaster.
    National Marine Fisheries Service, on behalf of the Secretary of 
Commerce, declared a commercial fishery failure in the Pacific Coast 
Groundfish Fishery on January 19, 2000. NMFS also recognized this 
disaster was years in the making. The Pacific Fishery Management 
Council recommended reductions in harvest along with other conservation 
measures to address significant resource declines during the 1997-2000 
Council meetings. The State of Oregon also recognized the fishery to be 
in a state of crisis as well and began to take steps to address fishery 
and resource concerns.
    In our view, the Pacific Fishery Management Council's Groundfish 
Fishery Strategic Plan and Research and Data Needs Assessment'' provide 
much of the overall framework for addressing the groundfish crisis. 
These plans speak to the need to reduce the fleet size, provide for 
fishery transition, and improve information used in managing the 
resource. Groundfish research planned and executed by the Department 
addresses the need for improving science used in groundfish management 
and is responsive to the Council/NMFS Research Program. Most of ODFW's 
projects involving groundfish are reviewed for scientific merit and 
approved by National Marine Fisheries Service when they are of the 
scale requiring Letters of Acknowledgement.
    In the arguments that follow, we begin with an initial response to 
the groundfish crisis by a Legislative Emergency board, the legislative 
intent of SB 5511, proceed to the Department's reports before Oregon 
Legislature tracking committees, and end with the Department's plan to 
address the groundfish crisis.
State Funding for the Groundfish Disaster
  <bullet> Oregon Legislative Emergency Board--January 1998 provided S 
        120,000 to enhance research work on commercial groundfish 
        fisheries in response to the groundfish crisis (attachment 1)*.

  <bullet> During the 1999-2001 biennial budget building process, we 
        requested $1,021,000 to improve groundfish stock assessments 
        and fishery monitoring in response to the groundfish crisis. 
        This package would have funded at-sea and dockside fishery 
        services for commercial fishing activity. The legislative 
        subcommittee eliminated the package (Budget Note--attachment 
        2)*.

  <bullet> Representative Thompson [a commercial fisherman] worked to 
        restore the package by explaining its need to fellow 
        legislators. SB 5511 was an omnibus appropriations bill 
        containing $500,000 in state General Fund support for 
        groundfish research. Additional Budget notes were added to 
        track the groundfish crisis, vis-a-vis commercial fish fund and 
        research directed toward improving information needed to manage 
        our groundfish resources (Budget Note--attachment 3* and SB 
        5511 budget details, attachment 4)*.
---------------------------------------------------------------------------
    * The attachments referred to were not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
Reports to Legislature
  <bullet> The budget notes were attached to our 1999-2001 approved 
        budget by the Legislature resulted in recent reports to the 
        Legislature. A legislative subcommittee directed the Department 
        to focus the funding for additional Marine Resource Program 
        efforts on at-sea and dockside monitoring and research toward 
        supporting analysis and stock assessment work in coordination 
        with the National Marine Fisheries Service, Oregon State 
        University, and the commercial fishing industry. In addition, 
        we were directed to report before the Subcommittee and 
        Legislative Emergency Board on commercial fish fund revenue 
        projections, need for additional limitation, and on use of 
        funds as related to the groundfish industry.

  <bullet> We reported before the Subcommittee, January 2000 and 
        October 2000, and the Emergency Board November 2000. In our 
        January report, we described a detailed spending plan for 
        groundfish monitoring and research (attachment 5). In November, 
        we appraised the Emergency Board of the need for additional, 
        funding limitation for Groundfish Disaster Assistance using the 
        state and federal funds outlined in the spending plan submitted 
        to NMFS.

Marine Resources Program Action Plan
  <bullet> The action plan presented before our Department's Resource 
        Management Team June of 2000 states:

        ``It is Marine Resource Program's (MRP) goal to increase the 
        quality and quantity of stock assessments and biological 
        information through improved at-sea and dockside sampling 
        programs and through carefully designed research projects.''

  <bullet> The projects identified for in-kind match find most of their 
        funding from the SB 5511 appropriations bill which provided new 
        General Fund dollars for groundfish related monitoring and 
        research. Projects thus identified and described in the plan 
        were new or expand existing capability, address the groundfish 
        crisis, and involve the commercial fishing industry.

    Steve, our agency requests consideration of all related state 
funded activities addressing the groundfish disaster including new 
research directed at improving information used to manage groundfish 
resources as match for federal disaster relief dollars outlined in the 
spending plan. We will document qualifying expenditures of funds during 
the pre-award period you mentioned and those since January l9th, and 
will continue to document state fund expenditures directed at the 
development and implementation of a disaster relief plan, again 
including new research. Our agency has been responding to this problem 
for over three years. While we could not anticipate that a disaster 
would be declared in January of 2000, we certainly knew there was a 
crisis in the making as NMFS has pointed out.
    We will be happy to review details of proposed state match with you 
and look forward to a favorable decision from your agency.
        Sincerely,
                                                 Jim Golden
                                                  Director (acting)

    Senator Wyden. Thank you. Very helpful.
    Terry Thompson?
    Mr. Thompson. Thank you very much, Senator Wyden.

                  STATEMENT OF TERRY THOMPSON

    First of all, I think you need to take credit for the fact 
that in the marine survey business we wouldn't be where we are 
without your help. And your staff has done a spectacular job 
briefing you on the problems of this industry.
    There is three things that I'd like to touch on that 
weren't touched by previous speakers. First is we have a lack 
of baseline data in oceanography. That can be done by 
supplement of weather buoys with oceanographic information that 
can be taken from the subsurface that can create a baseline 
data on this coast. It would be relatively inexpensive. It's a 
matter, though, of somebody in Congress making that push.
    The second area is targeted surveys. One of the problems I 
see as a fisherman is that we haven't gone out--and we've done 
a flat survey of the bottom. And if you were to take this stage 
and say this is the fish you're going to survey and the fish 
like to live on your table, we have a problem. What we've done 
is gone out and surveyed, through National Marine Fisheries 
surveys, all the flat areas. We have to go back and target 
these areas for specific species, canary rockfish, and ling 
cod. That will show that we have a larger stock than we have. 
The fishermen keep coming in and saying there's a stock 
availability. And our surveys aren't showing it. We have to 
change our survey techniques or establish new a new survey 
techniques in that area.
    Acoustic surveys will help. That requires money. That's an 
area that I hope National Marine Fisheries Service receives the 
money.
    Third, the area that I want to do what other people have 
said is the area of buyback; that's where we should be spending 
our money. We need to develop this buyback and move it forward. 
There is one other suggestion for the National Marine Fisheries 
Service that I would like to see moved forward. And that's a 
closer collaboration with Canada, because many of our species 
have crossed the boundary up there. And with your direction in 
that area, I think that we can work out some of our problems.
    Thank you.
    Senator Wyden. Terry, thank you very much. Very helpful.
    Mr. Leipzig?

        STATEMENT OF PETER LEIPZIG, EXECUTIVE DIRECTOR, 
               FISHERMEN'S MARKETING ASSOCIATION

    Mr. Leipzig. Good afternoon, Senator.
    For the record, my name is Pete Leipzig. I'm the Executive 
Director of the Fishermen's Marketing Association. And I 
represent groundfish and shrimp trawl fishermen in Washington, 
Oregon, and California.
    You heard a lot about the groundfish disaster here today 
and over the last number of months. You've also heard that 
there is rebuilding plans for some of these species that have 
been declared to be overfished. What hasn't really been 
mentioned, though, is that some of those rebuilding plans are 
going to be taking a very long time, ten to a hundred years, in 
some cases. Canary rockfish, there's roughly a fifty-year 
rebuilding at a constant harvest. That means for the next fifty 
years the quota will be the same as it is this year. That means 
that what we have this year is basically what we're going to 
see for the next fifty years.
    So our disaster should not be thought of in terms of just 
some sort of transient problem that we hope will improve and 
will be going away. It's going to be here forever for most of 
us. It's going to be long--go on long beyond our--our 
livelihood in this business.
    I have been viewed by some as somewhat as the poster child 
for the issue of fleet buyback and restructuring. So it's no 
surprise that I would speak to you today about urging you to 
consider some legislation on the federal level to move such a 
program forward. I have been active, along with others in the 
industry, to try to develop a consensus within the fleet--not 
just groundfish, but the other fisheries--that everybody can 
agree to, so there is no controversy associated with the 
proposal. That proposal has been circulated with congressional 
staff. And whether they have shared that with you, I do not 
know. But I would hope that you would have the opportunity to 
talk with them and to give consideration to carrying such 
legislation.
    Ralph Brown did mention the GAO report. I won't mention 
that. The issue of ITQs, I just want to point out that it's 
very, very compatible with buyback. And as Onno Husing 
mentioned, with a smaller fleet many other activities become 
much, much simpler. An ITQ system will be controversial with 
the initial allocation of shares. If we have a smaller fleet, 
the level of controversy surrounding that is going to be 
minimized.
    And last--and I don't want to degrade your concern with the 
amount of time that it's taken for the delay in receiving the 
disaster funds, but I think I can one-up you on this one. In 
1996----
    Senator Wyden. I'm not sure the people of our state benefit 
from competition of----
    Mr. Leipzig. Well, just to share with this----
    Senator Wyden. I'd be glad to sacrifice----
    Mr. Leipzig. In 1996, the Congress passed the Sustainable 
Fisheries Act, which contained a provision, 312B, which was for 
industry-funded buyback programs. And it took three-and-a-half 
years for the National Marine Fisheries Service to get that 
published.
    Senator Wyden. Very good.
    Mr. Leipzig. Thank you.
    Senator Wyden. Thank you. We have been at it for just a 
little over 3 hours--3 hours and 15 minutes, I guess. It's been 
extraordinarily helpful. I want to set the record clear on a 
couple of points.
    First, a special thanks to Senators Hollings and Senator 
McCain. This is a full Senate Commerce Committee hearing. In a 
50/50 U.S. Senate, that cooperation is absolutely essential. 
The people of Oregon should be very appreciative of both 
Senator Hollings and Senator McCain for their help.
    I want to repeat the e-mail address to the Committee, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0e636f7c696f7c6b7a517d7e7c6760694e6d6163636b7c6d6b207d6b606f7a6b2069617820">[email&#160;protected]</a> I want to thank Ms. 
Spring, who is here from the Democratic staff of the Committee; 
Stephanie Bailenson, who is here from the Republican staff. 
Three people from my office, Adrienne Froelich, who has has 
done extraordinarily good work in the fishing industry, is here 
behind me. Jason Daughn is here, who works on the Coast, and 
Mary Gautreaux, who works in the Eugene office.
    So suffice it to say, we have a lot to do here, folks, and 
we've gotten a lot of constructive suggestions. I will tell 
you, at the end of the day, it seems to me that folks on the 
Oregon Coast have a right to expect that the federal government 
will be a better, a more efficient, and more responsive 
partner, in terms of tackling these issues. I think everybody 
understands that these problems didn't develop by osmosis, nor 
did they develop over night. What is essential is that we work 
together, and that the federal government be a good partner.
    We heard some very troubling accounts today, and I'm going 
to work with Senator Smith on a bipartisan basis to tackle 
these issues. It's a great plus for Oregon that he'll be 
joining the Committee. The record will stay open for another 10 
days for folks to give their comments in writing. I thank 
everybody for taking time from their schedule. The Senate 
Commerce Committee is adjourned.
    (Whereupon, the hearing was concluded at 4:16 p.m.)
                                APPENDIX

                                                Argos, Inc.
                                     Newport, OR, February 14, 2001
Hon. Ernest F. Hollings,
Chairman,
Committee on Commerce, Science and Transportation,
United States Senate,
Washington, DC.

Dear Senator Hollings:

    Thank you for the opportunity to testify at the field hearing held 
on January 16, 2001 in Newport, Oregon. I appreciate the Committee's 
interest in these issues.
    I have been asked to respond to additional questions that were 
raised at or subsequent to the hearing. I hope that the following will 
be useful to you, and in the event that I can offer additional 
information, please contact me.

        1. Capital Construction Fund. Is it outdated? Should it be 
        eliminated? Any disadvantages to keeping the program? As a 
        family who has used the fund in the past, how would eliminating 
        the program affect our business?

    The CCF program is outdated, but it should not be eliminated. If a 
goal of federal fisheries policy is to reduce capitalization in the 
fisheries, Congress needs to change the rules for use of the CCF 
accounts to allow use of the funds for what would currently be non-
qualified withdrawals: rollovers into IRA accounts, purchase of 
individual quotas, or use in buyback programs.
    Still, CCF funds currently serve a valid purpose, one that many 
fishers will still want to access. Those who remain in the fisheries 
need make deposits to those accounts in order to fund vessel 
reconstruction projects, many of which relate to the safety of aging 
vessels , as much as increased capacity. Congress should understand 
that on the West Coast, virtually every fishery, both state and 
federal, is regulated by limited entry permits, which are endorsed with 
vessel length limits, and further restricted by length limits in the 
event of transfer. While length of a vessel alone does not necessarily 
serve to restrict capacity, without the appropriate length permits, 
fishers are not increasing vessel capacity.
    If the program were to be eliminated, our business could be 
negatively affected. At present, we may want to reconstruct our vessel 
to add a bulbous bow, which will provide a safer ride and greater 
stability in the extremely rough winter seas. In addition, we want to 
reconstruct the configuration of our fish hold. During crab season, 
crabs are held live in circulating sea water in the hold while at sea. 
If CCF funds were eliminated, and we were no longer able to use those 
funds for vessel reconstruction, we would be forced to try and borrow 
from a bank at high rates of interest, making it less likely the 
vessel's stability could be improved, or at the very least, increasing 
the cost to the fisherman.
    In sum, we'd like to see the CCF still exist, but for those who 
wish to leave the fishery, give them the flexibility to do so, and 
provide incentives as well.

        2. Permit Stacking in West Coast Fisheries. Voluntary? 
        Mandatory? Effect on Small Businesses?

          To answer this question in a way that will be of assistance 
        to the Committee, it will be necessary to provide some 
        background.

    In the fixed gear sablefishery, there are currently 163 permits. 
There are 33 pot permits and 130 longline permits. There are 26 Tier 1 
permits; 43 Tier 2 permits and 94 Tier 3 permits. Vessel length is not 
correlated to the poundage allocated to the permit; indeed, some of the 
smaller vessels have permits with the greatest poundage and the largest 
vessels have the least. There is a 68 foot longline vessel with a Tier 
3 , or ``bottom tier'' permit; there is a 40 ft pot vessel with a Tier 
1 or ``top tier'' permit. It is tentatively estimated that in 2001 the 
poundage assigned to each tier will be reduced to a range of 57,000 lbs 
for a top tier to 15,000 lbs of fish for a bottom tier. As you can see, 
we are talking about a very small fishery.
    With voluntary stacking, the Council is implementing a program that 
will allow only up to 3 permits to be stacked on a vessel. The permits 
may also be unstacked, providing for free market transfers of permits. 
Permit holders may sell their permits for use on other vessels, or may 
lease them, generating income , or may buy or lease permits to add to 
their vessel's capacity. Permit owners will be required to be on board 
the vessel fishing.
    To address your concern about ``small boats,'' please be aware that 
this is already a ``small boat fishery.'' A majority of the 164 vessels 
are 40-60 feet in length. Because the majority of the permits are in 
the bottom tier, ( and hence, least expensive) and because there is a 
limit on how many permits can be stacked on a vessel, preventing 
excessive consolidation, there is ample opportunity for vessels to 
access the fishery.
    The Pacific Council has no plan to mandate or require stacking in 
the fixed gear sablefish fishery. Although this will be the first year 
for stacking, and the results are yet to be seen, it is anticipated 
that many of the permits will stack, thereby condensing the fleet. It 
is highly likely that the Council's intended results, a reduction in 
the fixed gear fleet, minimizing interaction by the longline fleet with 
other groundfish species that are overfished, and funded solely by 
industry itself, will occur.
    In regard to the trawl fishery, the Pacific Council, in its Long 
Range Strategic Plan, made mention of mandatory stacking in order to 
reduce capacity in that fleet. I believe there are over 240 vessels in 
that fleet. Trawl gear catches a variety of species, including some 
that are healthy stocks and some that have been declared overfished. 
The vessels all have the same trip limits and tend to be a somewhat 
larger boat fishery, ranging in size from 50 ft to 100 ft. The trawl 
fishery and the Pacific Council are considering a number of methods to 
reduce effort in this fleet. The main thrust of the fleet's plan is a 
buyback program to remove vessels and all of a vessels' permits, both 
state and federal, from the fishery. It is to be funded by both 
taxpayer dollars and a tax on vessel landings. It is controversial for 
a number of reasons:

        1) It seeks to include the fixed gear sablefishery in the 
        program. As a fixed gear sablefisher, who is already 
        participating in an industry funded fleet reduction, I don't 
        want to pay for trawl buyback.

        2) It seeks to tax the landings of state crab and shrimp 
        fishermen on the West Coast , who also have groundfish permits, 
        to pay for a program that removes only trawl vessels and their 
        permits. As a crab and shrimp fisherman, I don't want to pay 
        for trawl buyback.

    I believe that is in the context of the trawl fleet that the 
Council has discussed mandatory stacking of permits, in the event that 
buyback does not have fleet support or cannot be funded. In addition, 
the costs associated with it are astronomical. There are estimates of 
$50 million floating around, $25 million to be paid by the taxpayers 
and $25 million by fishermen. I don't support the use of taxpayer 
dollars to bail out this industry, and I don't support the imposition 
of a tax on earnings of some fishermen to buy others out.
    I hope I have addressed adequately the questions you have raised. 
If I can be of further assistance, please don't hesitate to contact me.
        Very truly yours,
                                         Michele Longo Eder


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
